<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                                                     

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia          TODD TIAHRT, Kansas
 MAURICE D. HINCHEY, New York      JOHN E. PETERSON, Pennsylvania
 JOHN W. OLVER, Massachusetts      JO ANN EMERSON, Missouri
 ALAN B. MOLLOHAN, West Virginia   VIRGIL H. GOODE, Jr., Virginia
 TOM UDALL, New Mexico             KEN CALVERT, California
 BEN CHANDLER, Kentucky
 ED PASTOR, Arizona                 
                                    
 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

             Mike Stephens, Christopher Topik, Greg Knadle,
               Delia Scott, Beth Houser, and Kim Jefferson
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Public Witnesses -- Native American Issues.......................    1
 Public Witnesses -- Other Issues.................................  278

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 41-969                     WASHINGTON : 2008






                     COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

JOHN P. MURTHA, Pennsylvania                     JERRY LEWIS, California
NORMAN D. DICKS, Washington                      C. W. BILL YOUNG, Florida
ALAN B. MOLLOHAN, West Virginia                  RALPH REGULA, Ohio
MARCY KAPTUR, Ohio                               HAROLD ROGERS, Kentucky
PETER J. VISCLOSKY, Indiana                      FRANK R. WOLF, Virginia
NITA M. LOWEY, New York                          JAMES T. WALSH, New York
JOSE E. SERRANO, New York                        DAVID L. HOBSON, Ohio
ROSA L. DeLAURO, Connecticut                     JOE KNOLLENBERG, Michigan
JAMES P. MORAN, Virginia                         JACK KINGSTON, Georgia
JOHN W. OLVER, Massachusetts                     RODNEY P. FRELINGHUYSEN, New Jersey
ED PASTOR, Arizona                               TODD TIAHRT, Kansas
DAVID E. PRICE, North Carolina                   ZACH WAMP, Tennessee
CHET EDWARDS, Texas                              TOM LATHAM, Iowa
ROBERT E. ``BUD'' CRAMER, Jr., Alabama           ROBERT B. ADERHOLT, Alabama
PATRICK J. KENNEDY, Rhode Island                 JO ANN EMERSON, Missouri
MAURICE D. HINCHEY, New York                     KAY GRANGER, Texas
LUCILLE ROYBAL-ALLARD, California                JOHN E. PETERSON, Pennsylvania
SAM FARR, California                             VIRGIL H. GOODE, Jr., Virginia
JESSE L. JACKSON, Jr., Illinois                  RAY LaHOOD, Illinois
CAROLYN C. KILPATRICK, Michigan                  DAVE WELDON, Florida
ALLEN BOYD, Florida                              MICHAEL K. SIMPSON, Idaho
CHAKA FATTAH, Pennsylvania                       JOHN ABNEY CULBERSON, Texas
STEVEN R. ROTHMAN, New Jersey                    MARK STEVEN KIRK, Illinois
SANFORD D. BISHOP, Jr., Georgia                  ANDER CRENSHAW, Florida
MARION BERRY, Arkansas                           DENNIS R. REHBERG, Montana
BARBARA LEE, California                          JOHN R. CARTER, Texas
TOM UDALL, New Mexico                            RODNEY ALEXANDER, Louisiana
ADAM SCHIFF, California                          KEN CALVERT, California
MICHAEL HONDA, California                        JO BONNER, Alabama
BETTY McCOLLUM, Minnesota
STEVE ISRAEL, New York
TIM RYAN, Ohio
C.A. ``DUTCH'' RUPPERSBERGER, Maryland
BEN CHANDLER, Kentucky
DEBBIE WASSERMAN SCHULTZ, Florida
CIRO RODRIGUEZ, Texas              
                 Rob Nabors, Clerk and Staff Director

                                  (ii)












 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2009

                                         Wednesday, March 12, 2008.
                              ----------                              


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                   PUBLIC WITNESSES--NATIVE AMERICANS

    Mr. Dicks. Good morning. I want to welcome all of our 
witnesses this morning to the first of two days of public 
witness testimony. Today we will hear from citizens about 
issues affecting Native Americans in Indian Country. Tomorrow 
we will hear additional testimony from Native Americans, and we 
will hear from citizens testifying about other issues under the 
jurisdiction of the Interior and Environment Subcommittee. As 
members know, the right of the public and of our tribes to 
petition the committee is provided by the First Amendment of 
our Constitution, and I am glad to host the second year of 
public witness hearings for this subcommittee.
    The President has once again submitted a completely 
inadequate budget for Indian Country. His request reduces 
funding for virtually every program in the Bureau of Indian 
Affairs. The Indian Health Service is also reduced below last 
year. Furthermore, the budget request completely ignores the 
increasing costs of high population growth and medical 
inflation that will inevitably lead to substantial shortfalls 
in Indian health programs. This subcommittee will do its best 
to see that these reductions are reversed and that programs in 
Indian Country are given the attention they deserve.
    I need to remind our witnesses that we have many speakers 
scheduled to appear today. To ensure that we are able to 
accommodate everyone, I ask that our witnesses respect the 
five-minute limit. A yellow light will flash with one minute 
remaining of your time in order to give you the opportunity to 
wrap up your statement. When the red light comes on, then your 
time has expired. Your prepared statement will of course be 
published for the record along with a transcript of your actual 
testimony.
    Mr. Dicks. Our first witness is Frances Charles, chairman 
of the Lower Elwha Klallam Tribe, State of Washington. Frances, 
welcome.
    Mr. Tiahrt, our ranking member, will be here in a few 
minutes.
                                         Wednesday, March 12, 2008.

                       LOWER ELWHA KLALLAM TRIBE


                                WITNESS

FRANCES CHARLES
    Ms. Charles. My name is Frances Charles. I am the tribal 
chairwoman for Lower Elwha Klallam Tribe. Good morning, 
Chairman Dicks, members of the subcommittee. Our reservation is 
located near the mouth of the Elwha River on the north coast of 
the Olympic Peninsula, about five miles west of the city of 
Port Angeles, Washington.
    I am here today to request full funding for the Indian 
Health Service of physical budgets of 2009. We return here to 
testify on the health issues because it is an important matter. 
We were here last week. I testified in the 1990s on a similar 
request and still many shortfalls in the budgets of all Indian 
programs. We are requesting an increase of $486 million on 
mandatory inflation and population growth, $152 million on the 
Contract Health Services, $160 million increase on the full 
funding contract support costs, $5 increase on the Indian 
Health Service Office of Self Governance, continued annual 
funding for the special diabetic programs for the Indians, and 
$150 million until new authority is enacted. That affects all 
ages of our communities. Increased funding levels are needed to 
maintain existing healthcare services, unmet needs for the 
healthcare needs in our growing population and support tribal 
self-determination efforts.
    The Lower Elwha also supports the Johnson-O'Malley Housing 
Improvement Bureau of Indian Affairs-based programs along with 
increase of the Tribal Priority Allocations of the BIA and also 
the contract support costs of BIA data management. In addition 
we continue and welcome the Port Angeles region. Our tribe is a 
partner with the State and the Federal Government in both river 
restoration and Port Angeles harbor cleanup but I will want to 
focus my testimony mainly on the health issues.
    Prior to entering the self-governance in 2002, we took over 
the Tribal Health Service from Indian Health Service Neah Bay 
Service Unit in 1995. Our clinic is located just west of Port 
Angeles and the clinic serves about 1,000 members, non-member 
Indians including 416 individuals who lack insurance. Ours is 
also the only clinic in Port Angeles that area that is 
accepting Medicare, Medicaid patients including non-Indians. In 
addition, under a recent negotiation MOU with the Veterans 
Administration, our clinic will soon be serving both Indian and 
non-native veterans and it is very important in our community 
because we are under unique standards in the Port Angeles area 
and we have really good working relationships with the 
agencies. Unfortunately, the Contract Health Services programs 
remain seriously underfunded. In 2007, the program received 
$517,108.75 to serve 642 eligible Native Americans living on 
the reservation and 197 to buy prescription drugs for this 
population which again is a concern for the national events 
because of the costs of the prescription drugs, and a lot of 
the times our families have to really make a base of whether 
they provide for some of the prescriptions that they cannot 
afford.
    We do not collect contract support costs from our Contract 
Health Services allocations and forced to use third-party 
revenues to attempt to make these shortfalls. In 2007, the 
Contract Health Services budget was severely impacted by two 
cancer patients, that we have a rise in the cancer patients in 
our community, that a lot of the times with the priority one we 
have to really put a priority to limb and life and death 
situations which means that the referral stops for any of the 
children or elders that need medical care except for a life-
threatening situation so we do need more funding in that area. 
Increased funding also facilitates the purchase to acquire 
equipment, X-ray machines and medical supplies. Our veterans, 
elder care and children caseloads are all increasing and our 
service population ages. We hope to construct and operate an 
assisted living facility serving veterans and tribal elders. We 
especially honor and care for our veterans and we are proud to 
have such a high proportion of our Indian people who served and 
continue to serve in the armed forces and we want to provide 
them the best medical facility possible. Please continue 
prayers for those that are at war.
    In 2008, our tribe is faced with many challenges regarding 
healthcare and we are asking to increase the physical budget 
for the insufficient to cover the increased costs for the 
medical expenses that it has incurred with our communities.
    Mr. Chairman, you can see that we have some of the same 
health problems as the country at large, increase in uninsured 
veterans, elders and children care. If anything, our service 
population has greater healthcare needs than the general 
population but because of the cuts rather than growth in the 
Indian Health Service budget and because the Indian Health 
Service requires us to subsidize contract support costs, we 
actually are forced to treat our children and our elders and 
veterans with diminishing funding and we ask for the increase 
to be more realistic in the upcoming years.
    And finally, Mr. Chairman, we would express many tribes' 
appreciation for Congress in the efforts toward reauthorization 
of the Indian Healthcare Improvement Act. With that, we thank 
you.
    [Statement of Frances Charles follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you for your statement. I just want to 
say, one of the things I have been concerned about since 2001, 
the Interior budget has been cut by 16 percent, EPA by 29 
percent, Forest Service by 35 percent, and this year our bill 
was cut from last year's level, 2008 level, $1 billion below 
what we did last year, and Mr. Tiahrt and I will work hard to 
try to come up with a good bill, but when that happens, it is 
almost possible to do it.
    Now, I think our allocation in the Democratic budget that 
has not passed yet but will pass will give some more money for 
our area but the bottom line at the end of the year is, if the 
President will not sign the bill and says you have to come down 
to his level, you know, we are faced with a tough problem 
because we want to get our bill signed. So we took care of most 
of these problems last year. We are going to do the best we can 
to take care of them this year.
    Ms. Charles. We appreciate that.
    Mr. Tiahrt. I want to commend the chairman. He did a great 
job of putting a high priority on healthcare for our Native 
Americans and we are going to try to make sure that we sustain 
that and it is going to be difficult here to do that, but this 
is a high priority with both of us.
    Frances, thank you, and I appreciate your coming by, and we 
know what your other priorities are. We have to make sure we 
save earmarks or we are going to be in deep trouble.
    Ms. Charles. Thank you, Congressman.
    Mr. Dicks. Thank you.
    Testimony of Jeremy C. Weso, and we will put your entire 
statement in and try to keep it close to five if you can.
    Mr. Weso. Thank you, sir.
    Mr. Dicks. Thank you.
                              ----------                              

                                         Wednesday, March 12, 2008.

                      MENOMINEE TRIBE OF WISCONSIN


                                WITNESS

JEREMY C. WESO
    Mr. Weso. Good morning, Mr. Chairman and members of the 
committee. My name is Jeremy C. Weso and I am the tribal 
administrator for the Menominee Indian Tribe of Wisconsin. I am 
here on behalf of 8,467 of my tribal members, so it is a great 
honor for me to be here. I wish to thank the committee for the 
opportunity to express the hopes and fears my people have and 
impress upon the committee the importance federal funding plays 
in shaping the everyday lives of Menominee people.
    My tribe's rich culture, history and residency in the area 
now known as the State of Wisconsin and parts of the States of 
Michigan and Illinois dates back 10,000 years. Through a series 
of treaties entered into with the U.S. Government during the 
1800s, the tribe's land base eroded from 9.5 million acres to a 
little more than 235,000 acres today. Further setbacks occurred 
in the 1950s with the U.S. Congress's passage of the Menominee 
Termination Act, which removed federal recognition over the 
tribe. Fortunately, the tribe won back its federal recognition 
in 1973 through a long and difficult grassroots movement that 
culminated with the passage of the Menominee Restoration Act.
    Like many other tribes, the Menominee Tribe is greatly 
dependent on funding provided by the Federal Government to help 
it meet its people's basic human needs like providing food, 
shelter and clothing. Unfortunately, the funding we receive 
barely helps us meet those needs, let alone preserve our 
language and culture, manage our natural resources, promote 
economic development and expand educational opportunities for 
our people. For far too long we have settled on pretending like 
we can do a little more with a lot less and hoping that next 
year's appropriations will actually enable us to do more with 
more. We need your help.
    Our exceptional need is supported by a dismal array of 
statistics and other unflattering facts. Though too numerous to 
mention them all, some of them include the following. Menominee 
County, which includes about 99 percent of the Menominee Indian 
Reservation, is the 72nd unhealthiest county among the State of 
Wisconsin's 72 counties. What is sad is that my people are 
dying from diseases that are preventable and treatable but we 
lack the financial resources necessary to turn this around. 
Menominee County ranks second among the State's 72 counties for 
violent crimes. Our 45-bed detention facility, which is always 
at or above capacity, and the three probation officers that we 
have to manage a caseload of 288 clients, and growing, is 
defining a standard of justice unlike any we have ever seen. At 
11.6 percent, Menominee County's unemployment rate is the 
highest among Wisconsin's 72 counties and nearly two and a half 
times greater than the national average of 4.8 percent. Our 
housing waiting list consists of 180 individuals and families, 
meaning that we are only able to provide housing to about 55 
percent of our population eligible to receive it.
    We receive an average of $1.2 million from the BIA to 
manage our 219,000 acres of heavily forested lands but we still 
need an additional $1 million annually to properly manage them. 
In fiscal year 2007, the tribe experienced contract support 
cost shortfall in both BIA and IHS funds totaling $730,843. We 
anticipate an even greater shortfall in 2008 and 2009.
    The President's fiscal year 2009 budget proposes to cut 
overall BIA funding by 4.4 percent and reduce funds provided to 
the tribe through the TPA process by 8.3 percent. If the 
proposal is passed as is, the Menominee Tribe will lose an 
estimated $571,970 in direct funding from the BIA. This type of 
cut will have a reverse multiplier effect, one that few people 
understand or realize. It will result in more Menominee people 
being unemployed and receiving fewer services, more Menominee 
people demanding services already heavily burdened and 
underfunded, and more Menominee people being placed on waiting 
lists. It will also mean that the Menominee tribe will lose 
other federal dollars since the Menominee tribe uses BIA and 
IHS funds to satisfy the cost-share requirement of other 
federal awards. It will mean more desperation.
    This committee has a tough charge in front of it, and I 
realize that there are intense pressures to present a sensible 
budget but when you stop to consider the extraordinary needs 
that exist in Indian Country, the billions of dollars being 
spent in foreign aid and the fact that Indian Country is 
located in this Nation's backyard, I hope that this committee 
will find it sensible to reject the Administration's proposal 
to eliminate the Housing Improvement Program and Johnson-
O'Malley Program, reject the Administration's proposal to 
significantly reduce funding for tribal government, human 
services, national resource management and community and 
economic development, support across-the-board increases in TPA 
and non-TPA programs, support increased funding for payment of 
contract support costs so that tribes do not have to use TPA 
funds or locally appropriated funds to cover any shortfalls, 
require all funds for TPA be promptly allocated by the BIA for 
only TPA programs, functions, services and activities, provide 
bonus incentives to tribes that demonstrate exemplary 
performance through innovative programming, support the U.S. 
Commission on Civil Rights 2003 report recommendations, 
especially with respect to gauging unmet needs in Indian 
Country.
    Thank you.
    [Statement of Jeremy C. Weso follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. I think that was a very good statement, and I 
appreciate your calling attention to that civil rights report 
in 2002. I will take a look at it.
    Mr. Weso. Thank you.
    Mr. Dicks. Mr. Tiahrt, do you have anything?
    Mr. Tiahrt. No.
    Mr. Dicks. Thank you.
    Now we are going to have the Puyallup Tribe, Washington 
State. Mary Pavel is going to present the testimony. Mary, 
welcome.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                      PUYALLUP TRIBE OF WASHINGTON


                                WITNESS

MARY PAVEL
    Ms. Pavel. Thank you, Mr. Chairman, members of the 
committee. On behalf of Herman Dillon, I extend his regrets. He 
came down with a virus. He has been having some health issues 
and could not travel. He asked that I share with the committee 
the Puyallup Tribe's priorities, and I will hopefully save the 
committee some time this morning.
    Mr. Dicks. We will put your entire statement in the record 
and you can summarize.
    Ms. Pavel. But the tribe's priorities are a lot of what you 
guys will hear today. They include increased funding for law 
enforcement, natural resource funding, which is near and dear 
to the Puyallup Tribe's heart. They led the struggle in 
Washington State to establish our treaty rights for the tribes 
in Washington. And finally, healthcare funding, increased 
healthcare funding. The Puyallup Tribe was the first tribe in 
the country to operate their clinic, as the chairman knows, 
through a 638 contract and have done so successfully. They 
service 25,000 Native Americans within the Pierce County 
District and they are running at a crisis level of shortfalls.
    I want to thank you for the committee's commitment to that 
and urge your continued efforts to provide full funding for 
those programs. Thank you.
    [Statement of Herman Dillon, Sr., follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you, Mary, and we will do our best. As I 
said, it is a pretty difficult situation we are faced with.
    Billy Frank, Jr., chairman of the Northwest Indian 
Fisheries Commission, and a very good friend. Welcome, Billy 
and----
    Mr. Frank. Michael.
    Mr. Dicks. Michael.
    Mr. Frank. And Ed.
    Mr. Dicks. Ed.
    Mr. Frank. And we got Chairman Henry Cagey with us. Good 
morning.
    Thank you, Mr. Chairman. As you said, we have been together 
a long----
    Mr. Dicks. A long time.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

BILLY FRANK, JR.
    Mr. Frank. I am honored to be in front of the committee 
again, and my name is Billy Frank, chairman, Northwest Indian 
Fisheries Commission. Indeed, it is a privilege to be among 
such a distinguished cadre of tribal leaders, who are also here 
to present funding requests of their people.
    On behalf of the membership in the Northwest Indian 
Fisheries Commission, I will speak to our natural resource 
management funding request for 2009 budget for the Bureau of 
Indian Affairs and the Environmental Protection Agency. With me 
today is Mike Grayum, our executive director of Northwest 
Indian Fisheries Commission, and Ed Johnstone on my right, 
Quinault commissioner for the Northwest Indian Fisheries 
Commission, and the chairman of the Lummi tribe, Henry Cagey, 
sitting in with us in support.
    We are the infrastructure of the Pacific salmon in the 
Northwest, and to summarize our appropriations is Mike Grayum. 
Mike.
    Mr. Grayum. Just a quick summary of our request. To start 
is the securing and enhancing our Western Washington fisheries 
management base funding through the Bureau. First off, we want 
to make sure that the $1.8 million cut that the President 
included in his budget directed at our Pacific salmon treaty 
support funding gets reinstated, and then secondly, we are 
asking that the account be increased----
    Mr. Dicks. That is number two, right?
    Mr. Grayum. That is the second bullet. And then secondly, 
the enhancement of the base funding of $7.5 million to support 
the increased management obligations and costs that are not 
being covered right now, in part due to shellfish and marine 
fish obligations.
    [Chart.]
    Mr. Grayum. This chart that I have in front of me, which I 
do have copies of it if you care to have it, is a reflection of 
what has happened to this account, our base fisheries 
management funding, since 1978 to 2007, expressed in 2007 
dollars and then adjusted to 1970 at the zero mark to show that 
we are getting less money now in buying power than we got 30 
years ago to do significantly more work. And then the second 
page adds in some other dollars that have been provided largely 
through this committee in hatchery reform and hatchery 
maintenance and mass marketing and TFW that we have been using 
to fill in the gaps but we are reaching a point now where we 
cannot continue to fill those gaps in and that is why we are 
asking for the enhancement of that base.
    So going on very quickly then, we are asking that the 
Timber, Fish and Wildlife, $1.74 million, which is again not 
included in the President's budget, be included and we are 
asking for a mass marketing amount of $2.4 million. Again, we 
have been receiving some money for that but it is not in the 
President's budget either, and as the chairman knows, we are 
trying to address costs associated with expected increase of 
selected fisheries in the State of Washington.
    Mr. Dicks. Right.
    Mr. Grayum. And then moving on quickly, EPA. We are looking 
for dollars, $2 million specifically, to allow the tribes to 
effectively participate in the governor's partnership effort, 
and then very importantly, we are looking for money both in the 
hatchery maintenance and rehab account of the Bureau, which has 
been grossly underfunded in the past. It is a national account 
and many of those hatcheries exist in the Northwest. And we are 
looking for money, $2.43 million, to support our hatchery 
reform effort and we have projects already teed up that account 
for that $2.4 million. And then lastly, to strengthen tribal 
wildlife management and assurance of treaty-protected hunting 
rights, we are requesting an additional $5 million to do that 
work.
    Mr. Dicks. Ed.
    Mr. Johnstone. Thank you, Mr. Chairman.
    The Northwest Indian Fisheries Commission, the 20 member 
tribes want to lend our support to the national Tribal Priority 
Allocation. Tribes request funding for levels within the BIA 
for trust responsibility, Tribal Priority Allocation and self-
governance that pertain to fisheries management implementation 
of the U.S.-Canada Pacific salmon treaty, $160 million to fully 
fund the BIA contract support costs, provide necessary pay cost 
adjustments for existing and emerging programs, and support 
full funding of EPA's Indian General Assistance Program gap.
    Mr. Frank. Mr. Chairman, I just want to let you know how 
important this committee is to our tribal people. You know, we 
are dependent upon the United States Congress for our funding 
and this is where we come to testify.
    [Statement of Billy Frank, Jr., follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. I appreciate that, and I just want to say, I 
hope that next year we can do a lot better because I think 
whoever is elected President, I think we will have a more 
adequate budget for these programs. I mean, I cannot imagine 
that this kind of billion-dollar cut in a bill like this--we 
should have gone up $600 million and so it makes our job really 
tough when you cut this thing $1.6 billion to fill in all the 
holes because you have to take it from somewhere else to do 
this, and everything is sensitive in this bill.
    But Mr. Tiahrt and I will work hard, and we will have a 
good bill in the House again like we did last year. We had a 
great bill coming out of the committee last year. But then if 
you want your bill signed, you have to cut things back and that 
is where it gets painful. So we will do our best.
    Mr. Frank. Thank you very much.
    Mr. Dicks. Dave Hererra. Dave, why dont you sit right 
there? He is from the Skokomish Tribe. This tribe is about 12 
miles from where I live on Hood Canal so we have been 
colleagues and worked together on many issues for many years. 
Dave, nice to have you here.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                     SKOKOMISH TRIBE OF WASHINGTON


                                WITNESS

DAVE HERERRA
    Mr. Hererra. We appreciate that comment. Good morning, Mr. 
Chairman and committee members. I am Dave Hererra. I am a 
fisheries and wildlife policy representative for the Skokomish 
Tribe. I am here on behalf of Denese LaClair, the chair of the 
Skokomish Tribe. The reservation is located in Washington State 
at the base of the Olympic Mountains and our population is over 
1,000 people. The tribe appreciates the work of this 
subcommittee in supporting and funding initiatives that are key 
to the development of tribal communities.
    I wanted to mention a few things today. We have a concern 
about the Indian reservation road maintenance fund that the 
Administration has proposed a cut of 50 percent to that fund 
from $26 million to $13 million and they have also proposed to 
reduce SAFETEA-LU funds, which provide for road construction, 
to take 25 percent of that money and put it towards road 
maintenance, and we need both construction and maintenance on 
reservation roads. I wanted to give you a statistic. For the 
period of 1975 to 2002, the incidence of fatal crashes on 
federal highways has decreased by 2.2 percent. At the same 
time, the incidence of fatal crashes on reservation roads has 
increased by 52.4 percent. The National Congress of American 
Indians has asked that the IRR fund be increased by $100 
million. While we recognize that is pretty difficult to do, we 
think that there is a real need for funding for roads on 
reservations.
    With respect to law enforcement, the Skokomish Tribe 
requests increases in funding for BIA law enforcement programs. 
We commend the BIA's request for an increase of $2.9 million 
this year for law enforcement services but this is not nearly 
enough to meet tribal needs. Over the last 11 years the 
Skokomish Tribe's public safety department has grown from one 
untrained officer now to 10 State- or BIA-certified law 
enforcement officers. The need for our services is actually for 
18 officers. In order to help meet that need, we support the 
Senate Committee on Indian Affairs request for a $10 million 
increase over fiscal year 2008 funding level. We also support 
their request that these funds be distributed proportionately 
to the BIA and to tribal enforcement programs. We noted that 78 
percent of law enforcement activities are undertaken by 
tribally operated police agencies and therefore would request 
that 75 percent of any increase be directed to these tribal law 
enforcement agencies.
    With respect to tribal courts, the Administration has 
proposed a $2.5 million decrease. We would urge the committee 
to reject that and to fund the courts at the level of $15 
million, which is a $700,000 increase over the level from 
fiscal year 2008.
    Under the Environmental Protection Agency, the tribe thanks 
the committee for their continuing commitment and funding of 
environmental programs that are important to tribes, in 
particular for the STAG grants that the committee has provided 
to the tribe and to Mason County to develop a wastewater 
treatment system. We see this project as a linchpin of our 
collaborative efforts to restore the health of the Hood Canal, 
which the governor has called the jewel of the Puget Sound. I 
do want to point out that we are having a little bit of trouble 
with the red tape in dealing with the EPA in implementing this 
grant and would ask for some----
    Mr. Dicks. The STAG grant?
    Mr. Hererra. Right. In particular with respect to the 
match.
    Mr. Dicks. As I understood, we were able to get some match 
from the legislature. Did that happen?
    Mr. Hererra. Not that I am aware of.
    Mr. Dicks. This was on the first grant about three or four 
years ago.
    Mr. Hererra. Well, the EPA regulations require the match to 
be in hand before we can access those funds, and we would ask 
that that requirement be waived and the match be met at the end 
of the grant, but also----
    Mr. Dicks. We will work with you on it. We will check on 
that.
    Mr. Hererra. So again, we thank you for your support. We 
also support the comments that Billy and Mike made of the 
Fisheries Commission. Thank you very much.
    Mr. Dicks. And then we will get all the rest of them as 
well.
    [Statement of Dave Hererra follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Larry Wawronowicz. Is that close?
    Mr. Wawronowicz. Yes, you did a very good job.
    Mr. Dicks. Welcome. We will put your statement in the 
record, and you can summarize.
                              ----------                              

                                         Wednesday, March 12, 2008.

         LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA INDIANS


                                WITNESS

LARRY WAWRONOWICZ
    Mr. Wawronowicz. I appreciate that. Mr. Chairman and 
members of the committee, I am Larry Wawronowicz. I am the 
deputy administrator in natural resources for the Lac du 
Flambeau Band of Lake Superior Chippewa Indians. President Doud 
was not able to come today. She had some important matters at 
home she needed to take care of. She sends her best. It is an 
honor and privilege to provide this testimony on behalf of our 
3,000-plus members, and it is also an honor and pleasure to 
discuss our issues and concerns about this budget with this 
committee.
    Lac du Flambeau is surrounded by the State of Wisconsin and 
it is blessed to be located in the Great Lakes Region. The 
traditional name for Lac du Flambeau is Waswagoning. It is a 
great place to raise our children because the natural resources 
are plentiful. The 86,000-acre reservation has 260 lakes, 71 
miles of rivers and streams, 24,000 acres of wetlands and 
41,000 acres of upland forestland. These precious resources 
provide food, educational opportunities, economic opportunities 
and a way of life and medicine for our tribal members.
    Mr. Chairman, I really do not know where to start. The 
fiscal year 2009 budget proposed by this Administration is a 
nightmare in Indian Country and I think you indicated that very 
well in your opening statement.
    Mr. Dicks. Thank you.
    Mr. Wawronowicz. We are alarmed by the erosion of funding 
in Indian programs. We certainly oppose some of the major cuts 
such as JOM, HIP and cuts in research programs but the worst 
problems are the result of flat funding and across-the-board 
rescissions the tribes are subject to every year. There are two 
issues I would like to emphasize and request the subcommittee 
to consider. First, the tribes cannot absorb the across-the-
board rescissions that have been applied in recent years. As 
cost of living, cost of fuel--when I left home, it was $3.39 a 
gallon for regular--and the cost of other resources rose over 
the years, many important programs see little or no increases, 
and increases that are provided are eliminated once the 
rescission is applied. We ask that Bureau of Indian Affairs, 
EPA, tribal programs and Indian Health Service be exempt for 
any rescissions applied in the fiscal year 2009 bill.
    Second, the high cost of health insurance impacts the 
tribe's ability to provide services to all tribal members. This 
goes across the board. Anything that you can think of that is 
going on in Indian Country, healthcare costs are to the point 
where it is getting to be a problem. Currently, a $20,000-a-
year employee, which is a $10-an-hour employee, is costing us 
an additional $20,350 for family health insurance policy for a 
total of approximately $40,000 per employee.
    And you talk about flat line budgets and budget cuts that 
the President is proposing, it exacerbates the problem. When 
the tribe is forced to supplement underfunded BIA and Indian 
Health Service programs to cover costs, direct services to 
tribal members and memberships suffer. We have less money 
available to provide counseling to students, support a student 
going to college, collect water samples, put more officers in 
the field and provide for basic healthcare services. Without 
substantial increases in funding, the tribe will continue to 
decrease services to tribal membership because we just cannot 
absorb these costs anymore. We may be forced to eliminate 
health insurance benefits, which will seriously impact our 
ability to recruit and maintain our labor force. My wife is a 
breast cancer survivor and I fully understand the value of 
health insurance and consider myself lucky that I was one of 
the lucky Americans to have it. Otherwise I would be in 
financial ruin or a burden on contract health system because my 
wife is a Lac du Flambeau tribal member.
    I also want to briefly address some of the major cuts 
proposed this year. Written testimony submitted by the tribe 
goes into a lot of the detail, and I just have to mention that 
four pages is getting to the point where it is not big enough 
to deal with all the budget cuts this Administration has given 
Indian Country.
    So I want to highlight the following: education. We urge 
the subcommittee to restore funding to JOM programs and reject 
the proposed $5.9 million cut to higher education. This is so 
important to our tribe.
    Mr. Dicks. Last year we were able to do that.
    Mr. Wawronowicz. Yes, and we really appreciate that. And it 
is unfortunate we have to come back and do it again. Our JOM 
money supports a counselor to help students transition every 
year from majority Indian elementary school to majority white 
high school. Without JOM, this counselor would be cut. Road 
maintenance was mentioned before by other tribes. Housing 
improvement needs to be restored at the fiscal year 2007 level 
of $19 million. Of course, natural resources, since I am deputy 
administrator natural resources, is very important to me. We 
ask the subcommittee to provide for cost increases for natural 
resource programs, restore funding for the Tribal Wetland 
Waterfall Enhancement Initiative, which you guys have done over 
the years, and we support full funding for the Great Lakes 
Indian Fish and Wildlife Commission since we are a member 
tribe.
    Last but not least, the need for Indian Health Service 
funding is still great. At Lac du Flambeau, we anticipate that 
our contract health shortfalls will be more than $3 million 
this year.
    So Mr. Chairman and members of the committee, the tribe 
understands you have a hard job to do. I do not want to be in 
your position. When working on the budget, please remember that 
treaties were signed between the Lac du Flambeau Band and the 
United States. Remember along with the treaties the promises 
that were made to Indian people, the federal trust 
responsibility that comes with those treaties, and the treaties 
of the United States are protected under the Constitution under 
Article 6, clause through 2. Treaties must be honored. Our 
integrity as a Nation depends on it. Congress needs to do this 
because as just indicated by all the cuts that the President 
proposed, he does not understand what treaties mean.
    [Statement of Victoria A. Doud follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. We understand. We are caught with the same 
problem. We would like to be much more generous on these issues 
and were last year until the hammer came down at the end of the 
year and it is very unfortunate that because of the veto 
threat, we cannot do what is necessary, and we want to. And by 
the way, Mr. Obey is chairman of this whole committee from 
Wisconsin and he has been very helpful in trying to give us a 
better allocation to work with and that made it possible for us 
to correct these problems last year. But then at the end we had 
to do a cut to get down to the level where the President would 
sign the bill and he would have vetoed the bill and then we 
would have been on a continuing resolution, which we did not 
think was the right way to go.
    Mr. Wawronowicz. We definitely appreciate your hard work. 
Thank you, sir.
    Mr. Dicks. So we are trying our best. And make sure you 
talk to Mr. Obey too.
    James Zorn, welcome.
                              ----------                              

                                         Wednesday, March 12, 2008.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION 


                                WITNESS

JAMES ZORN
    Mr. Zorn. James Zorn, executive administrator of the Great 
Lakes Indian Fish and Wildlife Commission. It is a pleasure to 
be back here again. Our 11 Ojibwe Tribes, 34,000 members, we 
serve a 60,000-square-mile area, a large part of Lake Superior 
that deals with off-reservation hunting and fishing rights. You 
will note from our written testimony it is basically the same 
line item that the Northwest Commission is funded under. We 
have an additional need with EPA that deals not with gap 
funding but with the Great Lakes Geographic Program, the Great 
Lakes National Program Office. And so what I would like to do 
is have the written testimony speak for itself.
    And I always like to have a picture say a thousand words, 
and I would like to bring a reminder of what we do, the types 
of programs we do. Mr. Calvert, I do not know if you are 
familiar with us. For our member tribes, we provide biological 
services, conservation, law enforcement services, public 
information services and so on throughout that large area. We 
implement court orders that secure these rights for the tribes, 
deal in intertribal comanagement among and between the tribes 
themselves as well as with other managers. We really need to 
protect the BIA base because what that allows us to do is to do 
value-added projects for our members. For example, our recent 
language project that we did with Administration for Native 
American Funding. We produce an atlas of the area where our 
tribes are in their own language that identifies the geographic 
places to help preserve the culture, help keep the connection 
with the children, encourage intergenerational transfer of 
knowledge from the elders down to the kids so that people 
remain connected to the natural resources.
    What I would like to do is provide examples that you can 
use to help support the job you are trying to do. One of the 
reasons we need an increase in some of our law conservation 
enforcement funding is that it took until the last year before 
the State of Wisconsin and it legislature recognized our 
conservation officers as legitimate law enforcement officers. 
We had a local district attorney that was threatening to 
prosecute one of our conservation officers for impersonating a 
law enforcement officer after 20-some years in the business. So 
finally we worked with the legislature----
    Mr. Dicks. Did you get it straightened out?
    Mr. Zorn. Well, we did, I mean, with the little threat of a 
federal court action, but then we thought, you know, you can 
work together, and so we went to the State legislature and 
Governor Doyle signed an act this past fall that integrates our 
officers into the regional law enforcement emergency services 
network. The point I wish to make with the committee with that 
is that this base funding helps us leverage other funding and 
other substantive measures that help us get the job done. We 
have been able to diversify our funding base in the face of 
these funding cuts to the point now where as much as 25 percent 
of our funding, it is not as secure as our BIA base but comes 
from other programs like ANA, Fish and Wildlife Service 
invasive species programs, State programs and so on. So just 
remember that that base is important for us to do more.
    Again, another example, I do not know if you recall this 
from last year but I brought out the mercury in fish maps. This 
is a map that helps our tribal members know how much mercury is 
in the fish that they eat in the lakes where they fish.
    Mr. Dicks. We have the same problem in the Puget Sound. 
Where does the mercury come from in your area?
    Mr. Zorn. Well, is it a good thing our friend from West 
Virginia is not here today but we do have the issue of the 
coal-fired power plants and the idea of coal----
    Mr. Dicks. This is emissions from coal power plants?
    Mr. Zorn. Yes. We have some mining operations----
    Mr. Dicks. We have the same problem in Tacoma when we had 
Asarco and the emissions would come down into the lakes and 
cause very serious problems.
    Mr. Zorn. Exactly.
    Mr. Dicks. And so I understand what you are saying.
    Mr. Zorn. We are trying to understand the process by which 
this mercury becomes taken up in the fish tissue and then 
becomes a human health problem.
    So in terms of the EPA, just one short point here, and that 
is, I think last year we talked about the Great Lakes regional 
collaboration strategy, and I just want to point out for the 
committee's attention on page 12 to 13, how these eight States, 
every federal agency that works in the Great Lakes, a myriad of 
non-governmental organizations as well as 1,500 citizens that 
participated view the tribe's role. They recognize that any 
even small funding cut to tribes can amount to a virtual 
elimination of tribes' abilities to participate in the 
implementation of the strategy. We are seeking $300,000 to keep 
tribes part of this. It is non-gap funding. It would go through 
the GIMPO office, and as that office funding is increasing for 
the Federal Government's participation in this, we would like 
to remind the committee that implementation takes place at the 
local level. The tribes and others are the program deliverers. 
That is where the money needs to get.
    Mr. Dicks. We have a Northwest Indian Fisheries Commission. 
Do you have a regional group with all the tribes?
    Mr. Zorn. GLIFWC has 11. There is the Chippewa Resource 
Authority and the 1854 Authority. They are all funded under the 
same line item so it could be funneled through that same 
direction but again, it is under EPA. We have a good 
relationship with GLIMPO but their hands are tied in terms of 
getting money into the hands of tribes to keep them at the 
table to implement the strategy.
    Mr. Dicks. We are struggling with the same problem.
    Mr. Zorn. Exactly. And just the final point is, the tribal 
programs are not just another DNR. They relate to the tribal 
communities in a culturally appropriate way. If the tribes 
cannot do the jobs for themselves, no one else is there to do 
it for them.
    [Statement of James Zorn follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you very much.
    Ron His Horse Is Thunder, chairman of the Standing Rock 
Sioux Tribe, welcome.
                              ----------                              

                                         Wednesday, March 12, 2008.

                       STANDING ROCK SIOUX TRIBE 


                                WITNESS

RON HIS HORSE IS THUNDER
    Mr. His Horse is Thunder. Good morning, Mr. Chairman, 
members of the committee. Thank you for allowing me some time 
today. Mr. Chairman, I need to say thank you for visiting our 
reservation last year with Congresswoman Herseth.
    Mr. Dicks. Stephanie is one of our really good members. She 
really cares about these issues, and I was delighted to be out 
there.
    Mr. His Horse is Thunder. I understand you had to step over 
some broken glass when you visited one of our buildings. It 
shows you an example of for us law enforcement, and that is 
part of what I want to talk to you about today as public 
safety, education, economic development and natural resources 
and we think that all these are intertwined with each other and 
interrelated in terms of providing a safe environment as well 
as lifting up reservations to help themselves.
    In the area of public safety, I think that the biggest 
victims on our reservation across Indian Country are women and 
children. Our youth, of course, suffer all the ills associated 
with poverty: alcohol, substance abuse, violence, gangs, crime 
and suicide, which is a huge problem on our reservation. 
Violence against women likewise is a very significant problem. 
On our reservation, to give you an example of a problem, our 
reservation has 2.3 million acres, about 2,500 miles of road. 
We are almost the size of the State of Connecticut. For that we 
have 10 law enforcement officers which must patrol our 
reservation. On a good night we might have three officers on a 
Friday or Saturday during a shift. Other times we probably only 
have one officer on duty to cover that reservation that size. 
One disaster, if you will, in terms of law enforcement on our 
reservation was in 2003 we had a reported rape victim, Leslie 
Iron Root. Her rape was never investigated by the BIA, by the 
FBI, nobody investigated it, and a week later she died. She was 
20 years old. I think that is a tragedy.
    Interestingly, last year Congress gave the Bureau of Indian 
Affairs a $5 million increase to provide 50 more officers on 
the reservations across the country. Those 50 officers have not 
been disbursed at this time, simply because they have not come 
up with the matrix yet to the appropriate criteria on how they 
are going to disburse these 50 but given that Standing Rock 
Reservation has the second highest crime rate of any 
reservation in the country, we think they should be able to at 
least give us one, much less be able to disburse----
    Mr. Dicks. Have you talked to the BIA about this?
    Mr. His Horse is Thunder. We have, and they said until they 
develop that matrix they are not going to put those people out 
in the field.
    Mr. Dicks. Well, we will talk to the BIA about this.
    Mr. His Horse is Thunder. I appreciate that.
    Mr. Dicks. We should have had them here today.
    Mr. His Horse is Thunder. One of the other problems we 
believe we can take a look at is youth detention facilities. We 
do not have a youth detention facility and we have to transport 
our youth 120 miles away, assuming that they have beds. If they 
do not have beds available, then we catch and release on our 
reservation so the youth are developing a mentality they can do 
anything that they want to. We do have a $30 million grant from 
the Department of Justice but is underfunded to the tune of 
$1.2 million.
    So we are recommending that BIA's budget be increased $25 
million in BIA criminal investigations in police services, $50 
million increase in BIA public safety and justice facility 
improvements and repair, and are asking for $20 million for 
travel justice support services to help improve our tribal 
courts. That is an area of public safety.
    In education, we think that the Bureau's educational budget 
is an absolute disaster. We are recommending this committee 
fully restore and increase the Administration's proposed $34 
million cut to Indian education. We would like actually to have 
that number double the year 2008 funds. We need to have the 
enacted levels come up for Johnson-O'Malley, early child 
development and the technical colleges, one of them being 
United Tribe Technical College in Bismarck, North Dakota, which 
is actually zeroed out, and to take a look at the scholarship 
and adult education program as well as special higher education 
scholarships. In the area of scholarships, the Bureau has 
flatlined the special higher education scholarship by $2.1 
million and imposed a $5.9 million cut in scholarships. If you 
work that out, on our reservation we give out over 300 
scholarships and we receive $500,000. That is about $800 per 
student per semester. We understand there is a shortfall there 
and so the tribe has taken its own initiative and we put in $3 
million into this fund over the last three years and we gave 
our students an additional $3,000. We are making up that 
shortfall because we believe that education is absolutely 
needed in order for our reservation to move forward. Most 
tribes are not in a position to do that and so we ask for those 
increases.
    For economic development, we are recommending an increase 
of $10 million in the Administration's $13 million to the BIA 
Community and Economic Development Program and basically also 
adding $10 million over last year's level for the BIA's 477 job 
placement and training program and economic development.
    We are asking Congress to restore the cut of $13 million 
also to the BIA road maintenance program. If they want economic 
development on reservations, if we want our children to go down 
safe roads in their buses, then we need to have this restored. 
In terms of streets, our tribe believes so much in safe roads 
that we have pumped in $26 million into our roads. We actually 
had to borrow that. We are on a payback of a 30-year note on 
that. We believe in safe roads, and I think that it is 
absolutely imperative for economic development as well as safe 
roads for everybody including the buses that drive down these 
roads.
    [Statement of Ron His Horse Is Thunder follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. We know the concerns on natural resources. We 
will try to do our best there.
    Mr. His Horse is Thunder. I appreciate the time, Mr. 
Chairman.
    Mr. Dicks. Thank you very much.
    Gene Joseph, Council Member, Confederated Tribes of the 
Colville Reservation, welcome.
                              ----------                              

                                         Wednesday, March 12, 2008.

            CONFEDERATED TRIBES OF THE COLVILLE RESERVATION


                                WITNESS

GENE JOSEPH
    Mr. Joseph. Thank you, Mr. Chairman. My name is Gene Joseph 
from the Colville Business Council. Good morning to you, 
Ranking Member Tiahrt and other members of the subcommittee. I 
thank you for the opportunity to testify. I am here to testify 
about funding for two programs of interest to the Colville 
Tribe and to other tribes nationally. The first is the 
restoration of about $630,000 for the Lake Roosevelt Management 
and Enforcement Program, and the second is ask your support for 
a $1.5 million programmatic increase for the Bureau of Indian 
Affairs energy and economic development programs.
    As for Lake Roosevelt Management Enforcement Program, what 
the money is used for is for our tribal officers to patrol Lake 
Roosevelt primarily and other water bodies on the Colville 
Reservation but most of the focus is on the reservoir. It is a 
151-mile reservoir. Spokane and Colville have management 
responsibilities for the zone in the reservoir that abuts their 
respective reservations. The tribe provided testimony in 2006 
about an incident in 2006 in which a float plane was seized 
that contained about $2 million in contraband drugs, and one of 
the apocryphal tales out of that incident was that the plane 
was disabled by a rock, disabling the prop so they could not 
take off, and we have been fighting with OMB for several years 
since the multi-party agreement in 1992 to maintain this 
funding and every year we have had to come back to Congress to 
seek restoration of these funds and we would appreciate----
    Mr. Dicks. This is the Lake Roosevelt management?
    Mr. Joseph. Yes.
    Mr. Dicks. Yes, Senator Murray, I think, has been very 
helpful on this.
    Mr. Joseph. And we either would like to have this program 
funded or the tribe's natural resources, not the tribes but----
    Mr. Dicks. Was it part of the base at any time?
    Mr. Joseph. In 1990 it was just money that was put in there 
by the Secretary's special representative that the agreement 
was included and it was in there.
    Mr. Dicks. It was in there?
    Mr. Joseph. It was in there. It was stripped out in 1991, 
and it is just the history of----
    Mr. Dicks. This is a BIA issue, right?
    Mr. Joseph. Yes.
    Mr. Dicks. Well, we will see what we can do. We will try to 
help you.
    Mr. Joseph. Well, thank you. As for the $1.5 million 
programmatic increase on the Indian energy program, my tribe 
has received a grant under this program to develop a woody 
biomass cogeneration facility so it is a very helpful program 
not only to us but to other tribes across the country. We are 
aware that approximately 70 other tribes since fiscal year 2000 
have received these grants and they enable us to develop other 
economic development enterprises that have no relationship to 
gaming and we are just asking for an increase in the Bureau's 
funding for these grants and for the TERA agreements that are 
part of this program.
    With that, Mr. Chairman, I conclude my statement and thank 
you again.
    [Statement of Gene Joseph follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, thank you, and we will work with you on 
these issues.
    Mr. Calvert. Mr. Chairman, just one quick question.
    Mr. Dicks. Mr. Calvert. Jump in any time, by the way.
    Mr. Calvert. Is the predominant drug methamphetamine that 
is being----
    Mr. Joseph. It is cocaine, methamphetamine, anything. The 
reservation is surrounded on three sides by the Columbia and 
Okinalaga Rivers. It is very isolated. We have five major lakes 
there. The pilot who was seized testified that this was just 
one of 19 trips that he had made to drop off the drugs.
    Mr. Dicks. From Canada, right?
    Mr. Joseph. Yes, from Canada.
    Mr. Dicks. Yes, there is a real problem up there on the 
border. Actually boats come across the Straits of Juan de Fuca, 
too. Does Lake Roosevelt go into Canada?
    Mr. Joseph. It goes into Canada.
    Mr. Dicks. That is what I thought.
    Mr. Dicks. So they could come in by a boat there too.
    Mr. Joseph. Well, it is the Columbia. The reservoir is 
formed by the creation of Grand Coulee Dam, the largest hydro 
facility in the United States.
    Mr. Dicks. Thank you very much.
    Mr. Joseph. You are welcome.
    Mr. Dicks. We are going to have a vote here. We are going 
to have to run over at some point.
    Liz Mueller, vice chairman, the Jamestown S'Klallam Tribe, 
welcome. We will put your statement in the record, and you have 
five minutes to summarize.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                       JAMESTOWN S'KLALLAM TRIBE


                                WITNESS

ELIZABETH MUELLER
    Ms. Mueller. Thank you. First of all, I want to say good 
morning, and Ron Allen was not able to be here today but he 
sends his best regards. I do not talk quite as fast as Ron but 
I will try to hit the highlights for our community.
    One of the things that I want to first of all highlight is 
Tamanawas Rock is our sacred site in East Jefferson County, and 
Tamanawas Rock has an oral history for our people. Our oral 
history has to do with the flood 3,000 years ago and also the 
people of East Jefferson County are in total support of helping 
us, you know, secure this land.
    Mr. Dicks. Okay. Good.
    Ms. Mueller. The second thing that I want to highlight has 
to do with fish and wildlife. Our fish and wildlife department 
has never been fully funded by the BIA. When we were recognized 
in 1981, we had our funding that went to the Point-No-Point 
Treaty Council but it was never fully funded. They just added 
some additional dollars to that, and now some of the dollars 
that the tribes have pulled out of the Point-No-Point Treaty 
Council, that leaves Jamestown with not the full funding that 
is very important to us. And I do not have to tell you about 
what we have done in our natural resource program, you know, 
the Jimmy Come Lately Projects, the dungeness----
    Mr. Dicks. I have been there and seen that project. I think 
that is a great project.
    Ms. Mueller. Exactly, and just recently, you know, the EPA 
recognized us with a certification for our watershed base plan. 
We are the first tribe in the United States to receive that 
certification.
    Mr. Dicks. Congratulations. You deserve it. It is a great 
project.
    Ms. Mueller. It is, and----
    Mr. Dicks. Do you get funded from the Salmon Recovery Fund 
on that?
    Ms. Mueller. Yes, but the BIA needs to step up and fund us.
    Mr. Dicks. BIA needs to step up. If you have been here, you 
have listened to what has been said.
    Ms. Mueller. Yes, exactly.
    Mr. Dicks. BIA has a lot of problems.
    Ms. Mueller. And so, you know, if you can give them the----
    Mr. Dicks. And they are all dumped on us.
    Ms. Mueller [continuing]. Gentle persuasion to help fund 
fish and wildlife.
    Mr. Dicks. We will do more than that.
    Ms. Mueller. And the next thing is, you know, we are the 
original tribes for self-governance and yet in the last 10 
years we have not received any more additional funding in our 
self-governance budget, no cost of living. Ten years ago, we 
were screaming that we were paying $1 for a gallon of gas. Now 
it is 10 years later and we are paying $4 almost a gallon for 
gas. We just need to have that funding. We have maximized as 
much as we possibly can for in our self-governance, and you 
know, it is very obvious what we have done with our self-
governance dollars.
    The fourth one is, and you already mentioned it, 
Congressman, in relating to the Indian Health Service and the 
BIA budget, what is being proposed in President's Bush 2009 
budget in the Indian program cuts. It is just unconscionable--
--
    Mr. Dicks. It is.
    Ms. Mueller [continuing]. What is being done. In Washington 
State alone, if you are familiar with the Ombudsman Report, 
that the Indian children have the highest mortality rate of all 
other children, that teen suicide is the highest with our 
American Indian teens and that our Indian children are 
languishing in foster care. So the education, the housing, all 
of these programs are important to us.
    Mr. Dicks. Healthcare.
    Ms. Mueller. And healthcare. Exactly. So with that, thank 
you.
    Mr. Dicks. We are going to do our best. We will try to do 
our best. It is hard to do.
    Ms. Mueller. Thank you very much.
    [Statement of Elizabeth Mueller follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Ervin Carlson, president, InterTribal Bison 
Cooperative. Ervin, welcome, and we will put your statement in 
the record, and you have five minutes to proceed as you wish.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                     INTERTRIBAL BISON COOPERATIVE


                                WITNESS

ERVIN CARLSON
    Mr. Carlson. Thank you, Mr. Chairman and members of the 
committee. My name is Ervin Carlson. I am a member of the 
Blackfeet Nation in Montana and the president of the 
InterTribal Bison Cooperative, ITBC. Please accept my sincere 
appreciation for this opportunity to testify before the 
honorable members of the Appropriations Subcommittee on 
Interior, Environment, and Related Agencies.
    ITBC is a Native American nonprofit organization 
headquartered in Rapid City, South Dakota, comprised of 57 
federally recognized Indian tribes in 18 States. On behalf of 
the member tribes of ITBC, I would like to address the 
following issues: one, request an appropriation of $4 million 
for the fiscal year 2009 from the Department of the Interior, 
Bureau of Indian Affairs for operation of Indian programs; two, 
explain to the committee the unmet needs of the members of the 
ITBC; and three, update the committee on present initiatives of 
ITBC.
    And we also appreciate the fact that this subcommittee has 
funded the ITBC for every year for many years. The American 
buffalo, also known as bison, has always held great meaning for 
American Indian people. The buffalo provided the tribes with 
food, shelter, clothing and essential tools. Indian people 
developed a strong spiritual and cultural relationship with the 
buffalo that has not diminished with the passage of time. It is 
this connection that caused multiple tribes to come together to 
organize ITBC with the mission of preserving the sacred 
relationship between Indian people and the buffalo through 
restoring buffalo to tribal lands. Federal appropriations have 
allowed ITBC to successfully restore buffalo to over 50 
reservations. In ITBC's 17 years of existence, the population 
of buffalo has grown from 1,500 to over 15,000 in Indian 
Country.
    With healthy, viable buffalo herds, opportunities now exist 
for tribes to utilize buffalo for prevention and treatment of 
the diet-related diseases that gravely impact Native American 
populations such as diabetes, obesity, cardiovascular disease 
and others. Viable buffalo herds also offer tribes the 
opportunity to develop sustainable economical development 
projects.
    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2009 in the amount of $4 million. 
The total unmet needs----
    Mr. Dicks. Has that been an earmark or is that in the 
budget? It has been an earmark? Who has put it in? Do you know? 
Both sides have put it in. Okay.
    Mr. Carlson. One research we have done on it too was to see 
if it was an earmark, and we did not I guess consider it but--
--
    Mr. Dicks. It should be in the budget. I do not understand. 
It is such an important program.
    We have a vote here. Mr. Moran is going to take over as 
chairman until I get back. Mr. Tiahrt and I are going to go 
vote. Just keep rolling. We will be right back.
    Mr. Carlson. Okay. As I said, the InterTribal Bison 
Cooperative respectfully requests an appropriation for fiscal 
year 2009 in the amount of $4 million and the total unmet need 
for our tribes' projects in 2009 is $12 million. In fiscal year 
2006, ITBC was funded through appropriations at $4 million. The 
President's budget in 2007 and 2008 eliminated funding for 
ITBC. ITBC was funded $1 million by the BIA in 2007 and $1 
million in 2008 through a Congressional appropriation. The cuts 
came just as ITBC had started a successful marketing program 
and health initiative that addressed diet-related health 
problems that are epidemic on most of our reservations. The 
cuts damage the economic stability of the ongoing tribal bison 
programs.
    The requested funding level will allow our member tribes to 
continue their successful restoration efforts to restore our 
marketing initiative and health initiative for the prevention 
and treatment of diet-related diseases among Native American 
populations while simultaneously building economic 
sustainability for tribal projects. With restoration of funding 
to the 2006 level, new member tribes will not receive adequate 
funding to begin buffalo restoration efforts. Tribes that have 
successfully restored buffalo to tribal lands will not receive 
adequate technical assistance and resource development funds to 
ensure the sustainability of our existing herds.
    Furthermore, the investments made by Congress in 2006 
towards ITBC's healthcare initiative has been cut to the point 
of almost being nonexistent. As indicated above, this was 
designed to utilize buffalo meat for prevention and treatment 
of diet-related diseases among Native American populations. 
ITBC is committed to providing buffalo meat to Indian 
reservation families both as an economic development effort for 
Native American producers and more critically as a healthy food 
option, and I know that there have been many up here talking 
about health, and this is also a prevention that can help in 
those areas. Current research indicates that the diet of most 
Indian reservation families includes large amounts of high-
cholesterol processed meats that contribute to diabetes, 
obesity, cardiovascular disease and other diet-related 
illnesses.
    ITBC tribes were beginning to implement a preventive 
healthcare initiative with the 2006 funding that provided easy 
access to buffalo meat on Indian reservations and educated 
Indian families on the health benefits of range-fed buffalo 
meat. The decrease in funding has led to the elimination of the 
program. ITBC and its member tribes have created a new 
reservation industry, tribal buffalo production resulting in 
new money for reservation economies. Because of the depressed 
economies on the reservations, jobs are scarce and our buffalo 
restoration efforts on the reservations have created hundreds 
of direct and indirect jobs relating to buffalo management and 
production. As a result, a significant amount of revenue 
derived from buffalo products is beginning to circulate through 
Indian reservations.
    We ask that there be no report language this year as there 
was last year restricting funds going to the ITBC organization 
itself. We do allocate the lion's share of funds to our member 
tribes but we also provide substantial services to our member 
tribes from our staff and we need to be able to use some of the 
funds for operation of our organization so that we can provide 
these services.
    I would like to thank the committee for the opportunity to 
present this testimony, and the members of the ITBC invite the 
honorable members of the committee to visit our tribal buffalo 
projects and experience firsthand our successes. ITBC and its 
member tribes are appreciative of the past and current support 
from Congress and the Administration.
    [Statement of Ervin Carlson follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Moran [presiding]. Thank you, President Carlson. This 
is an important request, and we are talking about much 
healthier meat than meat that comes from cows. Are you able to 
export any of it?
    Mr. Carlson. Not at this time. We have looked into that 
though.
    Mr. Moran. It seems to me that would be a source of 
revenue. I do not know why there was the restriction on the 
bison cooperative, and I will ask about that. I am not directly 
involved but I do have an interest. We appreciate you giving 
this very important testimony, and thank you for making the 
trip here. We appreciate it, and I know those who are in the 
InterTribal Cooperative are very appreciative, so thank you, 
President Carlson.
    Mr. Carlson. Thank you for your support in the past and for 
continued support.
    Mr. Moran. So your request is that there be no restrictive 
report language in this year's bill?
    Mr. Carlson. Yes.
    Mr. Moran. I do not know why that restrictive language was 
put in. I will ask for an explanation. We appreciate your 
informing us of that. Thank you for coming to Washington. I 
know it is expensive but it is important that you do that.
    We will now hear from Assistant Chief Gary Batton from the 
Choctaw Nation of Oklahoma. We are going to hold up on Chairman 
Peters until Chairman Dicks is able to join us.
                              ----------                              

                                         Wednesday, March 12, 2008.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

GARY BATTON
    Mr. Batton. Mr. Vice Chairman and distinguished members of 
the committee, I thank you for inviting the Choctaw Nation of 
Oklahoma to speak before you this morning. I am representing 
the Honorable Chief Gregory Pyle, and I come before you today 
delivering a request of the 170,000-plus tribal members of the 
Choctaw Nation for the fiscal year 2009 budgets on Bureau of 
Indian Affairs and Indian Health Service and related agencies.
    First of all, I would like to say that we support National 
Indian Health Board and National Congress of American Indians 
in restoring funding for the National Indian Urban Health 
programs, and I will synopsize these and you do have a written 
report because I know you will hear a theme as you go 
throughout today but we do ask for $160 million increase for 
100 percent full funding of IHS contract support costs 
including direct service costs. I would like to request $486 
million increase for IHS mandatory inflation and population 
growth. You know what the rising costs of medical care that 
even with the funding that we have been to--even if we get 3 
percent, that still does not keep up with the current cost of 
medical inflation and so we still have a decrease in regards to 
trying to achieve the level of care for our tribal members. We 
also ask for $152 million increase for Contract Health 
Services, and one thing that is important I think to need to 
know is that these dollars go directly into the private sector 
for these tertiary care facilities that help keep their 
communities alive. It helps keep their EMS services alive and 
it is real important not only to Native Americans but to the 
non-Indians as well. We request you restore $21 million for 
healthcare facilities construction, maintain annual funding for 
the special diabetes programs for Indians at $150 million until 
new authority is enacted, and we have been able to do some 
great things with those dollars and it is detrimental if we are 
not able to keep that funding. We request a $5 million increase 
in the Office of Tribal Self-Governance.
    In the Bureau of Indian Affairs, we would like to request 
$25 million increase for Tribal Priority Allocation and tribal 
government. We ask that you restore HIP at $13.6 million and 
Johnson-O'Malley at $21.4 million. In Oklahoma and of course 
throughout the United States, the Johnson-O'Malley dollars go 
to our public school systems a lot of times, and it helps 
sustain those school systems, which is critical to their 
sustainability. If they do not have it, they are not able to 
provide the needed resources that they need to help keep the 
educational needs for our tribal members as well. We support 
increases to tribal education programs and tribal college 
operations, a $50 million increase for 100 percent full funding 
of direct and indirect contract support costs, annual increase 
in tribal public safety and justice programs in tribal 
communities, $500,000 for Office of Program of Data Quality and 
support increase in the Office of Self-Governance for IT and 
staffing.
    One thing that the Choctaw Nation, we are requesting an 
exemption from the moratorium on distribution of Indian Student 
Equalization Formula. Currently the Choctaw Nation has paid and 
completed construction of a new $10.2 million grade school, 
grades one through six, and we are needing this exemption 
desperately and it is vital to give the dollars that are needed 
to achieve a successful education of our students.
    Lastly, I would like to say that I am very proud to relate 
a success story to you for our school, Jones Academy. In 
January of this year, teachers at Jones Academy received 
monetary awards from the State of Oklahoma for being recognized 
as one of only three schools in the State to receive the number 
one in academic performance index. And lastly, I would like to 
say Chief Pyle and I want to thank you personally in this 
committee for what you have done to fight and sustain the much-
needed level of funding in Indian Country. Thank you.
    [Statement of Gary Batton follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Moran. I know the Chairman particularly appreciates 
that, and we appreciate your testimony. Thank you very much. It 
was good and succinct and to the point.
    We are going to skip over Mr. Gipp because Congressman 
Pomeroy wants to introduce President Gipp so we are now going 
to hear from Eugene Guerito and Faye BlueEyes, school board 
president and director of finance, respectively.
                              ----------                              

                                         Wednesday, March 12, 2008.

              DZILTH-NA-O-DITH-HLE COMMUNITY GRANT SCHOOL


                               WITNESSES

EUGENE GUERITO
FAYE BLUEEYES
    Mr. Guerito. Good morning, Presiding Chair, and the 
honorable members of the committee. My name is Eugene Guerito 
and I am the president of the school board which operates the 
Dzilth-Na-O-Dith-Hle Community Grant School on the Navajo 
Reservation in Bloomfield, New Mexico. With me is Faye 
BlueEyes, our school finance director.
    And to get right to the point, the Administration's budget 
request for our school operation betrays us and our children. 
The question is, how can the Federal government demand that our 
student makes an adequate yearly progress report under the No 
Child Left Behind mandates but yet withholds the financial 
resources that we need to meet these goals. The United States 
Government has made a commitment to support the tribal control 
of education through the Indian Self-Determination Act and the 
Tribally Controlled Schools Act but the BIA consistently 
violates this commitment by poorly funding the administrative 
costs which we incur when we take over direct program 
operations under the federal Indian self-determination policy. 
I urge you to meet the government's obligation to the Indian 
children and the school system that it created for them. So at 
this time, Ms. BlueEyes will describe the parts of the budget 
most in need of your attention.
    Mr. Moran. Thank you, Ms. BlueEyes. Actually can I just say 
that a couple times?
    Ms. BlueEyes. Sure.
    Mr. Moran. Faye BlueEyes. What a wonderful name.
    Ms. BlueEyes. Thank you. I do not have blue eyes though.
    Mr. Moran. I know. I was looking. I did not want to gawk 
but I was trying to see. They are not blue, but whatever.
    Ms. BlueEyes. Administrative cost grants--BIE seeks no 
additional administrative cost grants. These grants are 
supposed to help cover the administrative costs incurred in 
tribal-operated schools. Five more schools will be converting 
to grant schools. This means that instead of the 125 schools 
now in the system, 130 will be covered by the same amount of 
money. In the current school year, we only receive 65.7 percent 
of the funding required. With five more schools, this is going 
to be even lower, probably below 60 percent.
    Our administrative costs continue to increase in critical 
management areas such as finance, property, personnel, 
insurance, auditing and legal. Right now we can only afford two 
people in the business office. This jeopardizes our internal 
control systems yet BIE asks us for $1.5 million to cover their 
administrative cost needs for severance pay for the employees 
being terminated at the five schools. It is so discouraging 
that the agency responsible for educating Indian children 
thinks only about its own needs, not the needs of the schools. 
Full funding for AC grants would require at least $66 million. 
If this is impossible to achieve in this budget, please supply 
at least $53 million, which will get us to 80 percent level.
    Student transportation--we thank Congress for supplying 
more funds for student transportation last year. We really 
needed this extra funding, so please do not agree to cut $1 
million this year as the BIA requests. In our area of New 
Mexico, we pay over $4 per gallon for diesel fuel. Last year a 
bus fill-up used to cost $115. Now it is going to run over 
$200. Please increase student transportation to a level that 
produces $3.15 per mile so we can cover our ever-increasing 
costs to get children to and from school.
    Indian School Equalization Formula--the ISEF must supply 
funding for teacher salaries, all other parts of our education 
program and dormitory personnel but BIA's request of $364 
million is only 5.3 percent higher than what we got six years 
ago. We are totally committed to the goals of the No Child Left 
Behind Act. We want to see all students perform at the 
proficient level, but in our school system, this is merely a 
dream, not the reality. Students in the BIA school system 
produce some of the lowest achievement scores in the Nation. We 
face many roadblocks in our efforts to improve student 
achievement. I will give you just one example. Low ISEF funding 
puts us at the bottom of teacher pay scales, which means we 
cannot effectively compete for qualified teachers and certainly 
cannot compete with BIE-operated schools, which have to pay at 
federal wage levels. We not only need better ISEF funding now, 
we need a commitment to recurring appropriate levels of support 
year after year. That is the only way we can plan for and then 
implement innovative programs to improve student achievement. 
We ask you to increase ISEF funding by at least 5 percent to 
$383 million.
    Facilities operation--we could devote our entire testimony 
to facility issues. I will be brief, however, and just tell you 
that our facilities operation budget is constrained to 51.87 
percent. This means we get only slightly more than one-half of 
what our facilities require. Most of these funds must be used 
to pay utility costs.
    In conclusion, as long as poor budgets for the BIE school 
system persist, the objective of NCLBA remains only a dream and 
a broken promise. We hope you will produce a better school 
operations budget than the one proposed by the BIA. Thank you 
for helping Indian children.
    [Joint Statement of Eugene Guerito and Faye BlueEyes 
follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>


    Mr. Moran. Thank you, Ms. Faye BlueEyes. You are absolutely 
right. There are far, far, too many Native American children 
being left behind in our educational system, so thank you for 
making that point. We appreciate the testimony from both of 
you. Thank you very much.
    Now, we have been joined by a good friend and a very, very 
important Member of Congress. This guy is actually the co-chair 
of the whole Democratic budget group. He is on the House Ways 
and Means Committee. This guy President Gipp must be a pretty 
important guy because to get Pomeroy here, holy smokes. So you 
can come over and sit in the Chairman's chair if you want or 
sit right there.
    Mr. Pomeroy. I would rather sit here by my president, Mr. 
Chairman, because I really want to look at you as I tell you 
about the remarkable leader I am introducing and the 
circumstances that he carries to the table this morning. David 
Gipp is the president of the United Tribes Technical College. 
The college was founded 39 years ago. How long have you been 
president?
    Mr. Gipp. Thirty-one, going on 31.
    Mr. Pomeroy. Thirty-one of those years, a student body of 
around 1,000, a retention rate of 81 percent, a placement rate 
of 94 percent. They have one-year certificate programs. They 
have four-year degree programs. President Gipp has built this 
into one of the premier community colleges, tribally 
affiliated, in the country. It is unique along with one other 
institution in New Mexico in that it is multi-tribe. In fact, 
29 tribes are represented in the student body from around the 
country. Now, this places it in a different part of the code 
than the other tribal colleges and that has been the source of 
why this Administration has tried to zero it out, close the 
doors on this remarkable facility. This facility had the 
support of the Reagan Administration and obviously the Democrat 
administrations. It had the support of the George Bush I 
Administration. Only this Administration, the Administration of 
George W. Bush, has sought to come after United Tribes, never 
an explanation of why they wanted to shutter the doors of this 
institution. Time and time again, thanks to the great work on 
this committee, that recommendation has been turned back. 
Funding has at great difficulty been restored. The institution 
continues and these young people are getting the career skills 
that they will carry with them the rest of their lives.
    For the seventh consecutive year, the Administration not 
only zeroes out the funding within this committee's 
jurisdiction, to make matters worse, for the first time they 
zeroed out the Tribally Controlled Post Secondary Career and 
Technical Institutions program, a competitive grant program 
through the Perkins Act. This is a different committee, but 
this impacts--they would lose $4 million here. That would be 
fatal. This corollary attack they have now launched this year 
on United Tribes would take an additional $8 million. Rather 
than understand that bipartisan majorities in Congress will not 
see the shuttering of this valuable institution for our young 
people, they have not tried to make it impossibly difficult to 
keep this college open.
    In the face of this, President Gipp has had a mighty 
burden, but as is his way, he always puts it forward, and I 
cite to you this report of a talk that he gave to his staff, 
the staff that do not know whether they will ever have a job on 
the first day of the new fiscal year for the last seven years. 
Maintaining a workforce like that is challenging, but as 
reported in David's report to his staff, ``UTTC future not in 
doubt. Budget just needs some work.'' Well, it sure does need 
work. This is a guy that finds the glass half full when there 
is no water in the glass at all. I really do look to you, Mr. 
Chairman, for help, and I know Tom Udall, who represents the 
institution in New Mexico that is similarly situated, there is 
no higher priority I have in terms of appropriations affecting 
my State for the entire year than getting this funding 
restored. I am dismayed and very angry that they have made it 
an even heavier lift than it has been in the past. With 
leadership like you have provided, Mr. Chairman, I know we can 
get it done.
    With that, I would yield to Dr. Gipp, truly one of the most 
outstanding educators I have ever met.
    Mr. Moran. Well, thank you very much, Earl. I know Chairman 
Dicks is receptive to the request, and Mr. Udall has his top 
staff person here monitoring this and is going to report back. 
But as you so well do, carrying the load in the Congress for 
the entire State of North Dakota, this is your principal 
priority. I know that makes a lot of difference to the 
committee in terms of what its priorities should be. I trust 
that the next addition of that newsletter is going to reflect 
how Congressman Pomeroy went out of his way to help lift that 
burden. Particularly if George the Wise Bush had included it is 
hard to believe why the son would have taken it out. 
Congressman Dicks ran over from the floor to make sure he would 
get here in time too to hear your testimony, President Gipp.
    Mr. Pomeroy. Mr. Chairman, just to introduce President 
Gipp, I just want to thank you for the attention and the work 
we have done over the years on this issue, United Tribes 
Technical College.
    Mr. Dicks. You may proceed for five minutes.
                              ----------                              

                                         Wednesday, March 12, 2008.

                    UNITED TRIBES TECHNICAL COLLEGE 


                                WITNESS

DAVID M. GIPP
    Mr. Gipp. Thank you, Mr. Chairman. I want to also 
acknowledge Congressman Pomeroy for his excellent summary, and 
frankly, I think he gave quite a bit of the justification for 
why United Tribes ought to continue receiving funding for close 
to 1,200 adult students and about 500 children that we serve on 
our campus because we do have three early childhood centers and 
a K-8 elementary school on our campus as well. So we have been 
in a growth mode and that represents what is happening 
throughout Indian Country. Better than 51 percent of the 
majority of our tribal nations are under the age of 25 now and 
that means we have a growing population and that one of the 
reasons why United Tribes is a growing institution along with 
the rest of the tribal colleges and universities throughout 
America.
    Our request, as Congressman Pomeroy has pointed out, would 
be to ask that certainly the funds are restored but that we are 
funded at about a $4.5 million level of operation for the 
institution for the next fiscal year as well as requesting that 
the committee take a harder look at the adult vocational 
training programs under the Bureau of Indian Affairs, because 
if you look at their total request, no matter how you add it 
up, it is about $10 million for the coming year for the current 
year and the coming request. That is down by about $50 million 
from 1970. In fiscal year 1970, it was $60 million was the 
actual appropriation, and not counting the change in dollars 
and the inflationary factors. So we see that this overall 
effort has been a de-emphasis on adult vocational technical 
training, and this is where United Tribes and Navajo Technical 
College are very instrumental in trying to address that major 
issue for Indian Country.
    So having said that, Mr. Chairman, I am going to rely on 
the remarks that our Congressmen and the committee are 
examining in terms of our details. We can certainly provide you 
a lot of other data and information as to the excellence that 
we provide in terms of the results for our students.
    [Statement of David Gipp follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Somehow we have to get this in the President's 
budget. This has got to be there. I mean, in the next 
Administration, we have to work on that. Thank you very much. 
We appreciate you being here.
    Mr. Moran. Mr. Chairman, could I just ask a question?
    Mr. Dicks. Yes.
    Mr. Moran. Do you draw people from all over the country?
    Mr. Moran. Indian students who are financially needy?
    Mr. Gipp. Yes, we certainly do. It will range from this 
past year, 55 different tribes, to upwards of 70 different 
tribes that are represented in our student body.
    Mr. Moran. Thank you. Without any tax base to draw from.
    Mr. Gipp. That is correct.
    Mr. Moran. Thank you.
    Mr. Dicks. All right. Now we are going to go back to Jim 
Peters, chairman of the Squaxin Island Tribe. Jim.
    Mr. Peters. Good morning.
    Mr. Dicks. Thank you, Jim. We are glad to see you here, and 
we will put your entire statement in the record and you can 
summarize in five minutes.
                              ----------                              

                                         Wednesday, March 12, 2008.

                         SQUAXIN ISLAND TRIBE 


                                WITNESS

JIM PETERS
    Mr. Peters. I am Jim Peters, Squaxin Island tribal chair. 
We are located in Shelton, Washington. We are known as the 
gateway to the Olympic Peninsula and the headwaters of Puget 
Sound. One of the things I wanted to just touch base a little 
bit on is, I am not going to go through all the numbers because 
you guys have all heard those from the Puget Sound tribes and 
our Washington State tribes but some of the key words are fully 
funded in numerous programs that we are requesting those funds, 
the increase of programs because of the inflation. It is not 
necessarily an increase of the programs themselves but it is 
actually trying to maintain those programs at what they were 
supposed to be met throughout the years. So the increase is 
actually going to stabilize those programs and we will be able 
to fund the same amount of people with the extra monies that 
are coming in. Also, fully fund the direct and indirect costs 
of those programs also because it is costing more. Restore is 
another key word in our housing improvement programs. Johnson-
O'Malley has been a very vital program for Indian Country for 
many, many years to take care of our kids and things.
    One of the things that we are emphasizing more is on Indian 
health and public safety this year. There are a lot of 
priorities within our tribes and our Squaxin Island tribal 
leadership wanted to focus on the most important that impacts 
our future generations and our elders. Healthcare impacts our 
kids a lot more along with our elders. We are in a situation 
where we have a doctor that comes in one day a week at our 
clinic. A lot of our tribal members are tree harvesters that do 
not have insurance. We are trying our best to employ as many 
tribal members as possible and get them underneath a benefit 
program for, to be able to take care of their health needs.
    But a lot of our tribal members are still the traditional 
fishers and shell fishers that we have, and they are going to 
continue to do that for many years, but, and part of the 
problem that we have with this is that they are in the 
situation of just the basic maintenance medical needs here. We 
are at, as you heard from other tribal chairs, we are at a 
situation where it is life threatening, our limbs have to be 
done, but unfortunately, when we do not have the maintenance 
money, medical maintenance money to keep these people from 
getting to that condition, then it is going to cost us a lot 
more in these programs to take care of them.
    And so it is more preventative methods that we need to deal 
with here versus hopefully keeping them from getting these, the 
diseases and the death and some of these situations that we 
have.
    On the public health and safety, Squaxin Island Tribe has a 
need to hire six additional law enforcement people, and not 
only, we do not cover 24-hour coverage as it is right now, and 
with uprising drug and crime rate on the reservation. We are 
fortunate, however, that we are co-commissioned with our county 
commissioners, and we are able to arrest non-tribal members 
that are on the reservation with the cooperation with the Mason 
County.
    But we also have the situation of our water ways that we 
have responsibilities and with the states cutting their budget 
every single year on their enforcement, it is the tribes 
stepping up and carrying on the responsibility in covering all 
of the waters that both the tribe and the state fishes.
    So just to wrap this up, we want to also encourage your 
support on the Northwest or Northwest Portland Area Indian 
Health Board, the Affiliated Tribes in Northwest Indians and 
the Northwest Indian Fisheries Commission.
    We also want to make sure that we get those shell fish 
settlement dollars in there. That is very important. Squaxin 
Island Tribe is the, one of the largest shell fish areas or 
tribes in the Washington State.
    So my time is up, and I want to thank you again, especially 
you, Chairman Dicks, for all the help that you have and done 
for the tribes and especially ours since we are in your 
district.
    Mr. Dicks. Right.
    Mr. Peters. So thank you very much.
    [Statement of Jim Peters follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, and the Shellfish Settlement was a big 
deal.
    Mr. Peters. Yeah.
    Mr. Dicks. So----
    Mr. Tiahrt. Mr. Chairman.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Chairman Peters here brought up about 
preventative measures for a lot of the troubles that the Indian 
youth are facing, and when we have the Indian Health Service 
come in, I think we heard last year that there was some 
programs that were working well. And maybe we ought to talk to 
them about taking those success stories and having Indian 
Health distribute it in all the tribes they serve, because I 
think it is a very important issue that you bring up, and these 
are problems that we see tribe after tribe facing. And a lot of 
our American youth are facing the same challenge. And if we can 
find a way to prevent that, we will save ourselves a lot of 
dollars and a lot of heartaches for our families.
    Mr. Dicks. Well, another one you mentioned here--go ahead. 
Go ahead.
    Mr. Peters. Oh, part of that was, yeah. There are some 
great programs out there. It is just the amount of money that 
we have. We actually, we have a summer youth program that we 
invite not just the tribal members to come in, and it is free 
of charge, and they come through and do a lot of that type of 
stuff, and we are able to expose those type of programs to even 
not just our tribal members but the surrounding community kids 
that are coming into our area.
    Mr. Dicks. Another one you mention here is special diabetes 
program for Indians. Maintain the funding at 150 million. That 
expires in 2009, so we are all going to have to talk to Mr. 
Rahall, I believe, Chairman of the Natural Resources Committee, 
to make sure this thing gets reauthorized. That is, I would 
think, a very important program.
    I am glad you mentioned it.
    Mr. Peters. Thank you very much.
    Mr. Dicks. Thank you.
    I want to go to Fawn Sharp now from the Quinaults.
    It might be Ways and Means? Or whoever it is. Rahall or----
    Fawn, good to see you, and we are glad to have you here, 
and we will put your entire statement in the record. And you 
have 5 minutes to summarize.
                              ----------                              

                                         Wednesday, March 12, 2008.

                         QUINAULT INDIAN NATION


                                WITNESS

FAWN SHARP
    Ms. Sharp. Great. Thank you. Good morning, Mr. Chairman and 
members of the Subcommittee. This is my third year to appear 
before this assembly, and I truly appreciate the invitation to 
provide oral testimony on behalf of the Quinault Nation. Thank 
you.
    To provide a meaningful context to our request, I would 
like to just briefly draw your attention to the many issues 
that we have heard this morning and emphasize those regional 
and national initiatives that are set forth on page 1. To 
provide further context to our Quinault-specific issues, I 
would like to briefly share some facts with you.
    The Quinault Reservation is located on the Olympic 
Peninsula with 23 miles of unspoiled Pacific coastline. Our 
land base exceeds 208,000 acres. Presently our enrollment 
stands at 2,782 members. We are the second largest employer in 
Grays Harbor County with over 700 employees. I will now turn to 
our specific requests.
    First, we request $2.2 million to provide emergency repair 
and maintenance to what we call the McBride Road. The road is 
an escapement route available to 1,000 residents living in the 
village of Taholah, and it is the only escapement route.
    Taholah is a coastal community that is located barely above 
sea level and is directly in the tsunami danger zone near the 
Cascadia Fault line. What is particularly important to 
understand is that portions of this road are susceptible to 
mudslides. This past year we experienced two such slides. The 
most recent occurrence occurred during the December 1 storm 
that devastated entire communities in western Washington. The 
mudslide blocked access for 3 days. Medical needs became an 
issue, while those in need of kidney dialysis were particularly 
affected.
    Our second request is an issue that is very near and dear 
to my heart. The Quinault River Blueback Restoration 
Initiative. Our request is for $762,000. This unique and 
valuable stock of sockeye salmon is near collapse. Historically 
and up until 1950, our prize blueback filled the Quinault River 
at a level that exceeded a million sockeye annually. This past 
year we counted just over 4,000 blueback.
    The degradation of our blueback can be traced to the turn 
of the century when our community witnessed widespread and 
senseless logging in the upper Quinault Flood Plain, where 
large conifer trees once provided stability to the natural flow 
of the system, the decimated basin now flows wildly with a 
great deal of unpredictability, leaving a wake of destruction 
to natural habitat and now private residences.
    Further exacerbating----
    Mr. Dicks. Who logged that? Who did the logging?
    Ms. Sharp. Landowners, private landowners.
    Mr. Dicks. Private landowners. Okay.
    Ms. Sharp. Further exacerbating----
    Mr. Dicks. So what you are saying is the D&R let us down 
because they have a permitting process, they should not have 
let them log that close to the river?
    Ms. Sharp. Absolutely.
    Mr. Dicks. Yes. I floated that river many times, and it is 
one of the most beautiful in our State.
    Ms. Sharp. Further exacerbating the problem is the 
emergency riprapping of riverbanks, which has been factually 
and scientifically proven to accelerate the river flow to such 
a degree that nearly 3 miles of blueback spawning habitat is 
now destroyed.
    We have also raised objections over the practice of 
constructing cable bog jams parallel to the riverbanks. Just as 
we predicted 2 years ago, that practice has led to entire banks 
giving way and private residences nearly falling into the 
river.
    Although it seems bleak, we have an abiding faith that all 
is not lost, and there is still hope. Our initiative sets for a 
seven-generation, 100-year plan to restore the blueback 
population to its historic levels. It is also designed to hold 
the current habitat loss and to repair the natural ecosystems 
in the Quinault Valley. We have forged public and private 
coalitions and partnerships, and we are excited to begin 
restoration activities.
    Our third and final request is for $529,000 for our Meth-
Amphetamine Prescription Drug Initiative. Some further facts 
are worth noting. Eighty percent of students miss alcohol, or 
excuse me. Miss school because of alcohol or drug abuse within 
the home. Two of every five children experiment with drugs or 
alcohol by the age of ten. The youngest, self-admitted user of 
meth on our reservation was 14. Over the last 2 years we have 
developed a comprehensive meth prescription drug strategy that 
sets forth a 5-year plan and includes 227 activities largely 
weighted on prevention and educational efforts.
    I am proud to say that this is a community-driven 
initiative, wherein we have directly engaged our membership in 
not only identifying the issues, but more importantly in 
developing meaningful plans and crafting long-term solutions.
    In closing, I thank you for the opportunity to present our 
national priorities and requests. We truly appreciate the 
difficult position you are in when evaluating competing 
interests. We also recognize that you work very hard to meet 
the needs of every community, and we trust that during your 
deliberations you will do right by Indian Country and give the 
right level of deference to our needs.
    Thank you for this opportunity.
    [Statement of Fawn Sharp follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, we appreciate your testimony, and we will 
do everything we can to help, and you know, again, it is the 
bad budget we have received that makes it very difficult to 
take care of all the problems.
    Ms. Sharp. Yes. Thank you.
    Mr. Dicks. Thank you.
    Rodger Martinez, accompanied by Nancy R. Martine Alonzo, 
President, Board of Trustees, Assistant Secretary of Education 
for Indian Affairs, Ramah Navajo School Board, Inc. Welcome.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                    RAMAH NAVAJO SCHOOL BOARD, INC.


                               WITNESSES

RODGER MARTINEZ
NANCY R. MARTINE ALONZO
    Mr. Martinez. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Rodger Martinez. I am the present 
Board of Trustees for the Ramah Navajo School Board that 
governs the K through 12, Pinehill School, Bureau-funded school 
on the Ramah Navajo Reservation in Pinehill, New Mexico. With 
me is Vice-President Nancy R. Alonzo. We are extremely grateful 
for coming to, before you and for the funding that we have 
received for the last 37 years and which impacts over 400 plus 
members of the Ramah band of Navajo Indians.
    And today we have two parts of the testimony that we would 
like to provide for you; the need to attempt $6 million for, in 
2009, BIA budget for a new multi-educational school building, 
and the second is the adequate funding for Bureau schools on 
fiscal year 2009 budget.
    The amount of school building that we are requesting is K 
through 12 Pinehill School, Ramah Navajo Reservation only, 
Pinehill, New Mexico, to request $10.6 million, and it is, we 
have operated the Ramah Navajo School for over 35 years, and 
the buildings are pretty much old at this point. We are in the 
permiss of submitting a replacement, but it is a replacement, 
and our list is only going to be another list to the Bureau 
Program, which is already broken.
    And the BIA-funded school, we have over 470 full-time 
students, 200 of them go to the public school, and we have over 
700 community children that we serve here. And the buildings 
are getting old. They are more than 35 years, and they are 
constantly in needs of repair. And the multi programs that we 
have now has out, the space is not adequate enough to meet 
those, the special education federal programs battling of 
education, gift talents, and other programs as computer 
technology has set in within the last several years.
    And the enrollment criteria for this has increased also the 
last few years, and we need to expand a little bit more on 
that. And then the crime and vandalism with the school system 
has added to this problem. Part of this request will be for 
that.
    And at the end I would just like to go ahead and give this 
time to Nancy Alonzo to elaborate.
    [Statement of Rodger Martinez follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Fine. Thank you.
    Ms. Alonzo. Good morning, Chair and members of the 
Committee. I want to address the second part of our request, 
which has to do with the President's proposed 2009, budget for 
Indian programs, and the first on that list is the ICEP Formula 
Funds, which is the only source of funds for the instructional 
and residential programs at our school, and we have both 
categories.
    And the greatest challenge that we face in making AYP is 
having to share that instructional budget to offset costs for 
transportation and facilities. And so we urge that you will 
consider increasing the Formula Funds in that category.
    The second is the Administrative Cost Grants. As we have 
operated for our programs, we have a whole host of number of 
programs that we require administrative cost support, and the 
budget that is being proposed is about $20 million short of 
that. And we would request that that be funded at 100-percent 
level.
    And the third item is the student transportation. Over 90 
percent of our students travel over 450 miles every day over 
gravel and dirt, unimproved roads, and with the cost of fuel 
and maintenance, this really puts a strain on our instructional 
budget because we have to offset those costs.
    And then the next item that I want to speak to is the 
specific impact of the Welfare Assistance and Reduction Funds. 
This covers basic needs of children, the elderly, the adult 
heads of household, and they will not be all served if we have 
a reduction in this category.
    We also use these funds for adult care, burial assistance, 
child assistance, foster care, protective services, emergency 
assistance, and just general assistance. This year our 
community has experienced a high rate of mortality. We have 
over 15 deaths, which is the highest for a small community such 
as ours, and when we have these disruptions in our family 
units, we have to rely on these sources of funds to help our 
families to move on with their lives.
    And last but not least we want to also make comments about 
the Indian Health Service Reauthorization. We thank the 
Congress for passing Senate Bill 1200, but we also want to go 
on record to request that the Administration's proposed cuts 
for the IHS budget be fully restored. Pinehill Schools and the 
Ramah community operates a clinic there, and this greatly 
impacts our 4,000 population. We also provide services to an 
additional 2,000 non-Indian population that resides within our 
reservation because we are in a remote area. So this is very 
critical to our area, to our region.
    And this concludes our testimony, and we stand for 
questions, and thank you very much for all of your support.
    Mr. Dicks. Yes. We will do our very best. Of course, you 
know Tom Udall is a member of this Subcommittee and a very 
valued member of our Committee. So make sure he knows about 
your issues, too.
    Ms. Alonzo. Yes. We have.
    Mr. Dicks. Good.
    Ms. Alonzo. Thank you.
    Mr. Dicks. Thank you. Thank you very much.
    Ms. Alonzo. Thank you.
    Mr. Dicks. Lloyd Tortalita, Education Director, Pueblo of 
Acoma.
    Mr. Tortalita. Acoma.
    Mr. Dicks. Acoma. Thank you. Indian House Service Funding. 
Welcome.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                            PUEBLO OF ACOMA


                                WITNESS

LLOYD TORTALITA
    Mr. Tortalita. My name is Lloyd Tortalita, regions for 
Pueblo of Acoma, and you have my testimony. I am here on behalf 
of Governor Chandler Sanchez, who is our governor, but I am one 
of the tribal elders, and but best of all I am a grandfather.
    Mr. Dicks. Wonderful.
    Mr. Tortalita. And I think that is a title that we need to 
abide by and with, and I am here to testify and give 
presentation on behalf of my young people of Acoma, which are 
my grandchildren on all aspects of what our needs are.
    And I have been before this Committee four times as 
governor, as lieutenant governor, and first time I came before 
this Committee was when Congressman Yates was----
    Mr. Dicks. Yes. Chairman.
    Mr. Tortalita [continuing]. Sitting there.
    Mr. Dicks. Yes.
    Mr. Tortalita. And one of the things he told me was, 
Governor, give me your testimony, I will read it, tell me what 
you need, and that is what I am here for, to talk to you----
    Mr. Dicks. Okay. Good.
    Mr. Tortalita [continuing]. And let you know.
    Mr. Dicks. Right.
    Mr. Tortalita. You know, we have a lot of problems with the 
BIA with the President's budget right now, and a lot of cuts 
are happening. And it is so amazing, it is mind-boggling, you 
know, roads, Indian house service, house services, Medicare, 
social service, Johnson-O'Malley, and those are all old 
programs that grandma and grandpa talked about when I was 
growing up, about the responsibility of the Federal Government 
to the Indian tribes.
    But they keep cutting. And BIA is supposed to be providing 
the technical assistance, technical training for people in the 
Indian country, but it is not happening. Johnson-O'Malley is 
for one. You know, I mean, for the last 4 or 5 years President 
has gotten wrong information and Johnson-O'Malley goes back to 
1934. And there was another law that was passed, public law 
9561, Johnson-O'Malley, parent vested, where the parents are 
the ones that conduct Johnson-O'Malley programs. Ninety-five, 
five, six, one, which gives the local authority to the 
educational agencies. Are those happening? No.
    Same way with Indian roads. I mean, BIA constantly wants to 
be the ones doing the roads. I can give you an example, Opollo 
Vacama, a 5-mile stretch, a 5-mile stretch, which was done 3 
years ago because regulation tells us you have to go to the 
lowest bidder. We did not get the Cadillac on the roads. I 
mean, some of our back roads, back countries, we can at least 
take our grader and grade those, but the paved roads, looks 
like it has been there for hundreds of years. That is no good.
    Mr. Dicks. And it is only 3 years old?
    Mr. Tortalita. It is only 3 years old. It is falling apart. 
And you know what happened? Pueblo of Acoma sued the contractor 
in order to get the--and BIA had to come in and pay for it. So 
that is money that is lost again.
    Mr. Dicks. Right.
    Mr. Tortalita. And then the same way with Johnson----
    Mr. Dicks. Instead of doing it right in the first place.
    Mr. Tortalita. Right. Johnson-O'Malley.
    Mr. Dicks. Yes. We restored that last year.
    Mr. Tortalita. I know. One of the things----
    Mr. Dicks. In the Housing Improvement Program.
    Mr. Tortalita [continuing]. That Congress is asking us, 
where are the reports, what are you doing with Johnson-
O'Malley? You know, in 1995, they said, we do not want to take 
Johnson-O'Malley, and a person who was in that office said, I 
do not want to deal with JOM. JOM is the lowest priority. Well, 
you know, there is a lot of discrimination going on within the 
Bureau. I mean, they are working with BIA to operate schools. 
That is only 3 percent of, in New Mexico, versus 90 percent, 
and they keep telling us, it is not a priority. We are only 
going to address BIA-operated schools. What about the mission 
statement of the Bureau? The Bureau of Indian Education. What 
are they doing?
    You know, I mean, they are discriminating against us, and 
you know, segregating us. Well, this is our Bureau-operated 
school. We are going to tend to them. You guys are public 
schools. You are on your own. That is segregation. I thought 
that was----
    Mr. Dicks. Is that under self-determination?
    Mr. Tortalita. Yes, it is.
    Mr. Dicks. Is that because it is self-determination?
    Mr. Tortalita. Yes, it is, but there is still----
    Mr. Dicks. You took on the responsibility and then they do 
not help you any further?
    Mr. Tortalita. They do not help us. And one of the things I 
asked because it took a lawsuit to stop the reorganization of 
the Bureau of Indian Affairs to go into the Bureau of Indian 
Education. It took a lawsuit, all in the Public Council and the 
Chairman of the Public Council Education Committee, and we had 
to sue the Bureau to stop the reorganization because our 
reports are not coming from down here at the lowest level.
    And all I asked BIA and BIE to do is take them up that 
letter so they can come before you, before Congress, who has 
the dollars, and read my statements.
    Mr. Dicks. Thank you.
    Mr. Tortalita. That is all I ask for.
    Mr. Dicks. We will do our best. We will do our best but----
    Mr. Tortalita. One other thing before----
    Mr. Dicks. Yes.
    Mr. Tortalita. Health.
    Mr. Dicks. Yes. Indian Health Service.
    Mr. Tortalita. It is in there. ACL. I mean, it does not 
make any sense closing hospitals. Little hospitals, little 
budgets. I mean, we are spending $20 billion a day on the war, 
and we----
    Mr. Dicks. Not a day but----
    Mr. Tortalita. Talk about--oh, well, I mean, that is----
    Mr. Dicks [continuing]. That would be in a month. That is 
still a lot of money.
    Mr. Tortalita. That is what I read in the newspapers.
    Mr. Dicks. Yes.
    Mr. Tortalita. You know, I mean, we are talking about 
Social Security. You and me Social Security and my grandchild's 
education. We are talking about that, and Congressmen, help us. 
Help us.
    Mr. Dicks. We will do our best.
    Mr. Tortalita. I will be addressing the next Senator from 
New Mexico----
    Mr. Dicks. Yes.
    Mr. Tortalita [continuing]. What he is doing here, so----
    Mr. Dicks. Yes. We----
    Mr. Tortalita. And you are going to be sad to lose him, but 
he is going to be----
    Mr. Dicks. It will be a loss to our Subcommittee.
    Mr. Tortalita. So I bring you that. Read my testimony. I 
ask----
    Mr. Dicks. We will do it.
    Mr. Tortalita. Because that is what Congressman Yates used 
to do. Thank you very much.
    [Statement of Governor Chandler Sanchez follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you. Thank you very much. He was a great 
man.
    Joe Herman, Chief of Police, Oglala Sioux Tribe, Department 
of Public Safety. Welcome.
    Mr. Duke. Good morning. I am Ron Duke. I am here on behalf 
of the Oglala Sioux Tribe at the request of President Steele to 
give testimony on law enforcement.
    Mr. Dicks. Okay. Good.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

            OGLALA SIOUX TRIBE--DEPARTMENT OF PUBLIC SAFETY


                                WITNESS

RONALD DUKE
    Mr. Duke. I am a Travel Councilman. I am also a Vice-Chair 
on the Tribal Council Judiciary Committee, and Informant Chief 
of Police.
    We are faced with losing officers within our program. We 
have got a reservation the size of Rhode Island, 3.2 million 
acres, 50 miles by 100 miles long, and a population of 50,000 
people that we have to service. We currently have 51 officers 
on our reservation. We went from, 10 years ago from 119 
officers down to 61 and currently have 51, in the process of 
maybe losing another 21 officers within our tribal program, law 
enforcement program.
    That will leave us with 30 officers. We were looking at the 
possibility of getting some funding from the BIA increase that 
they got, but if we are, we have not heard whether or not that 
is going to happen. We are in the process of losing these 21 
officers in September, and we are going to be stressed with the 
lack of police officers within our reservation.
    We are here to ask you for some help, and looking at the 
numbers that we have given in our testimony, we have a 50 
percent drop rate, 60 percent average drop rate, and a $7,000 a 
year per capita per household. You know, we live in one of the 
poorest, one of three of the poorest colonies in the United 
States.
    So we cannot afford to give any money from within our 
programs to help with law enforcement. That is why I am here 
today. We are a non-public law 280 state, which means we do not 
have any state jurisdiction, law enforcement, coming onto our 
reservation. We have all our own law enforcement through our 
treaty obligations.
    One of the issues started back in the late '90s when DOJ 
started funding law enforcement. BIA had us go over to DOJ and 
start funding law enforcement. Probably half of our law 
enforcement comes from the DOJ grants, and we have come to that 
limit where we are no longer eligible for these grants. We, our 
funding, that funds our law enforcement vehicles. Our vehicles 
are funded probably 100 percent through these DOJ grants, and 
our vehicles are anywhere from 50 to 100,000 miles on them, and 
in the process we are going to need to build our law 
enforcement police vehicles.
    Again, I mentioned a 2008 increase in funding for BIA law 
enforcement. We are hoping to get some funding from that 
program to at least help maintain our 20, them 21 officers we 
are going to be losing.
    Mr. Dicks. You know, and that is a big cut all the way 
from, what was it, 119?
    Mr. Duke. Nineteen.
    Mr. Dicks. In the '90s.
    Mr. Duke. Yeah. It is a big decrease in law enforcement, 
and we are servicing 50,000 people. That is spread out through 
that whole 3.2 million acres of land. It is not like a city 
where everybody is clumped in one spot.
    Mr. Dicks. Yes.
    Mr. Duke. You know, we are spread out throughout the 
reservation. And, again, I would like to thank you, Chairman 
Dicks, for coming to South Dakota, and I invite you to come to 
the Pine Ridge Reservation to see----
    Mr. Dicks. See the problems.
    Mr. Duke [continuing]. The problems we are faced with down 
there.
    Mr. Dicks. Well, we tried to do an initiative on meth last 
year. I know meth is, is not meth a problem for you as well?
    Mr. Duke. Yes. It is becoming a big issue.
    Mr. Dicks. Big issue.
    Mr. Duke. Big issue. Yes. On our reservation.
    [Statement of Ronald Duke follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Do you want to make a comment?
    Ms. Marks. Just two----
    Mr. Dicks. Why don't you give her the mike?
    Ms. Marks. I am Patty Marks. I would just like to make two 
comments for the record.
    One is that with a lot of the tribes, especially the Dakota 
tribes, you have, because of the Cops Program, dual funding 
that existed for a period of about 8 years. You had Pine Ridge, 
30 of the officers are BIA, 21 have been DOJ. When that funding 
ran out, we have been fighting for earmarks ever since. It is 
something that needs to be addressed for a handful of tribes.
    The other point I would like to make is that while the 
Administration claims to be increasing law enforcement, and it, 
in fact, is in the Bureau, if you take away the $15 million in 
the DOJ Indian Law Enforcement Funding, this is the single 
biggest cut Indian law enforcement has faced in a long time. 
You have to look at it in a comprehensive way.
    And thank you so much, Mr. Dicks. If we have a fight, you 
are the man I want in the corner.
    Mr. Dicks. Well, we will do our best. Thank you.
    Ms. Marks. Thank you.
    Mr. Dicks. I appreciate that.
    Mr. Duke. Thank you for your help.
    Mr. Dicks. Yes. And Stephanie is a big ally of ours, too.
    Ms. Marks. Stephanie is God's gift.
    Mr. Dicks. Yes. She really is.
    Micah McCarty, Chairman of the Makah Tribe Council, Neah 
Bay, Washington.
    Mr. McCarty. Thank you, Mr. Chairman. It is a pleasure to 
introduce a colleague of mine, just recently back in council, 
Nathan Tyler.
    Mr. Dicks. Welcome.
    Mr. Tyler. Thank you, Mr. Dicks. Appreciate it.
    Mr. Dicks. Is that a little cedar from up there at----
    Mr. Tyler. Yes, it is.
    Mr. Dicks [continuing]. Neah Bay?
    Mr. Tyler. Yes, it is.
    Mr. Dicks. Good.
    Mr. McCarty. And good afternoon, Mr. Chairman.
    Mr. Dicks. We will put your statement in the record, and 
you have 5 minutes to proceed.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

              MAKAH TRIBAL COUNCIL (NEAH BAY, WASHINGTON)


                                WITNESS

MICAH McCARTY
    Mr. McCarty. Thank you. First I would like to thank you 
publicly for all the many services, not only for the A Tribes 
in the Olympic Peninsula but for all 552 tribes that you help 
through the Subcommittee and with the assistance and work of 
your distinguished colleagues and staff.
    Today I will be presenting the top three priorities of the 
Makah Tribal Council for the community of Neah Bay for the 
fiscal year of 2009.
    Priority one is contract support costs for the 
administration of our Indian health services.
    Priority two is Peninsula Nano-systems and Cape Classit 
Nano-Technology Center.
    And priority three is the completion of the scenic byway 
that comes out to Neah Bay and the replacement of the Sala 
River Bridge.
    The first priority as you know, Mr. Chairman, we have been 
working with this Compact Agreement, and our annual average 
direct health services budget is about $3.3 million. We are 
currently receiving just over 10 percent of the amount, of that 
amount, about $330,000 for contract support costs. We 
understand that we are eligible to receive as much as $1.6 
million for contract support costs, so the disparity there is 
quite apparent.
    Of the 336 self-governed tribes funded by IHS, Makah Tribe 
is the lowest CSC-funded tribe in the United States. The 
average self-governed tribe receives approximately 77 percent 
for contract support costs.
    We look forward to working with you to help fix this 
situation. We recall looking into the feasibility study, and we 
provided a public meeting for our people, and one of the tools 
that we used in promoting this opportunity to come out priority 
one, we used a video that former head of IHS, Charles Grim, and 
the title of that video was, Self-Governance Works. I might add 
that self-governance does not work without contract support 
costs.
    Peninsula Nano-Systems and Cape Classit Nano-Technology 
Center, this is----
    Mr. Dicks. And we will keep working to help with you, help 
you on this. I know Tim Lovain, who is here, has been working 
with us. We are trying to find a solution, and it is a 
difficult problem. We will keep working on it.
    Mr. McCarty. Appreciate that.
    Mr. Dicks. Tell us about the nano-systems.
    Mr. McCarty. The Nano-Technology Systems is a unique 
opportunity for the Makah Tribe to diversify its economic base. 
As you understand, we are a natural resource dependent tribe, 
and I had the great pleasure to meet with one of the cofounders 
of Peninsula Nano-Systems or I mean, Micro-Assembly 
Technologies. Essentially what this is is this is a unique 
opportunity for the tribe to engage in some of these production 
facilities with regard to getting the military what it needs 
with respect to improved wireless communications.
    Makah Tribe and Micro-Assemblies Technologies and Purdue 
University have teamed to develop and demonstrate advanced 
wireless components for defense communication and cell phone 
power reduction.
    The proposed 4-year project will demonstrate a military 
radio enabled by a switch filter bank ramp up to micro-
machinery production in Port Angeles and to meet DOD 
requirements and volumes and test center in Port Angeles with 
the state of art test equipment and facilities. We would 
appreciate your support in this exciting venture.
    Completion of the scenic bypass. As you know, it is the one 
way in and out of Neah Bay.
    Mr. Dicks. Right.
    Mr. McCarty. The eastern-most portion of the Cape Flattery 
Scenic Byway known as Bayview Avenue is the only passage in and 
out of town. The population of about 1,800 year-round 
residents, 16 U.S. citizens on the Coast Guard base, and about 
5,000 tourists each summer month.
    We have paved and repaved most of the byway and upgraded 
sidewalks and added wildlife pullouts. We have 3.27 miles of 
bicycle and pedestrian lanes along the byway, and we would like 
to complete the improvements of the byway through repaving, 
drainage improvements, guard rail replacements, and adding 
additional sidewalks.
    The Makah Tribe seeks to replace the dangerous Sala River 
Bridge. Our fish and timber commerce would come to a halt if 
this bridge failed, and then, of course, we would have no way 
out of town. These improvements would enhance driver, 
pedestrian safety and access to the Neah Bay region.
    We appreciate your----
    Mr. Dicks. Whose bridge is it? It is BIA's or the tribe's 
or the State? Whose bridge is it?
    Mr. McCarty. I believe it is part of State Highway 112.
    Mr. Dicks. Yes. Tim thinks it is BIA. We will check that 
for the record.
    Mr. McCarty. Okay. In closing, Mr. Chairman, on behalf of 
Makah Tribal Council and community members, we would like to 
invite you to Neah Bay and to visit us as soon and as often as 
you can. You are always welcome on our shores.
    [Statement of Micah McCarty follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, I appreciate that very much, and it has 
been a great drive, I have told many times that I have been 
going up to Neah Bay as, you know, since the '50s, and it is 
one of my favorite places in the world, let alone--and probably 
my most favorite place in the State of Washington.
    So----
    Mr. McCarty. That is awesome.
    Mr. Dicks [continuing]. We have a good time up there.
    Mr. Tyler. One more thing. You know, we are part of the 
Northwest Indian Fisheries Commission.
    Mr. Dicks. Right.
    Mr. Tyler. We support their testimony earlier today, and we 
are also part of Northwest Indian Health Board, and we fully 
support what they are about to testify on today.
    Mr. Dicks. Okay.
    Mr. Tyler. So we thank you for your time.
    Mr. Dicks. Yes.
    Mr. Tyler. Appreciate everything you have done for us.
    Mr. Dicks. Well, we will keep working on these problems.
    Mr. McCarty. Thank you, Mr. Chairman.
    Mr. Dicks. Okay.
    Linda Holt, Chairperson, Northwest Public Area Indian 
Health Board. Linda, how are you?
    Ms. Holt. Good. How are you doing this morning?
    Mr. Dicks. Well, we are holding up. Holding up.
    Ms. Holt. That is about what we can say.
    Mr. Dicks. You know, we will put your statement in the 
record, and you have 5 minutes to summarize.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

LINDA HOLT
    Ms. Holt. Thank you, Congressman Dicks and members of the 
Committee.
    My name is Linda Holt. I am a Tribal Council Member of the 
Skokomish Tribe in Washington State, and I bring you----
    Mr. Dicks. Wonderful.
    Ms. Holt [continuing]. Greetings from Chairman Foresman----
    Mr. Dicks. Yes. We have been working on a few issues.
    Ms. Holt [continuing]. And the Skokomish Tribe. Yeah. We 
still got some work to go there.
    I am also Chairwoman of the Northwest Portland Area Indian 
Health Board. We represent 43 tribes in Washington, Oregon, and 
Idaho, 29 tribes in Washington State.
    I would like to begin by underscoring the significant 
health disparities that Indian people face and the progress we 
have made to address those disparities. I have included the 
statistics in my report.
    Mr. Dicks. Yes.
    Ms. Holt. You know, we have made great strides in a lot of 
areas. Gastrointestinal disease has been reduced by 90 percent, 
maternal mortality reduced by 80 percent, cervical cancer 
reduced by 76 percent. However, American Indians, Alaska 
natives continue to suffer from other significant disparities 
when compared to other Americans.
    Four hundred percent more likely to die from tuberculosis, 
91 percent more likely to die from suicide, 300 percent more 
likely to die of diabetes complications, 67 percent more likely 
to die of pneumonia and influenza. Given these significant 
health disparities, we must continue to build on the capacity 
of Indian Health Services and Tribal Health Programs and 
provide adequate funding.
    The President's fiscal year 2009 request proposed to cut 
the Indian Health Service budget by $21 million. This is the 
worst budget request that we have seen in 15 years, and it will 
only serve to increase the health disparities that Indian 
people face.
    The Northwest Portland Area Indian Health Board has just 
recently completed the budget analysis, and our analysis and 
recommendations will be forthcoming. Our fundamental budget 
principle is that the President and Congress must preserve the 
current health program that the IHS budget funds. If current 
service requirements of pay costs, inflation, and population 
growth are not funded, then tribes have no alternative but to 
cut healthcare services. And this is happening throughout the 
country.
    We have here a comparison to show how, hospital and health 
clinic budget increases and actual inflation rates for 
inpatient and outpatient services and how those have just 
actually decreased from fiscal year 2000 to fiscal year 2008.
    We also have the diminishing purchasing power, which is a 
20-year look at the Indian Health Service accounts, actual 
expenditures adjusted for inflation and compared to loss 
purchasing power when adjusted for inflation and population 
growth. This is for fiscal years 1984 to 2007.
    Contract support costs increases. As you have heard 
testimony from previous leaders, this is where contract support 
cost increases have gone from 1992 to 2008, and if you will 
recognize the 2001 dip, we are at 2007, which is far below the 
2001 spot. This is something we cannot continue with. We are--
--
    Mr. Dicks. Something bad happened in 2001.
    Ms. Holt. Yeah. And has continued for the last 8 years. But 
this is an obligation that needs to be met with the compacting 
that tribes are doing. We need full contract support costs to 
implement these programs and to keep them running.
    Mr. Dicks. Yes.
    Ms. Holt. The rescissions. You and I have talked about this 
issue, and it is something that, you know, I look forward to 
your help in stopping this from Indian Health Services budget. 
This is a graph that shows the 9 years of rescissions from 
fiscal year 2000 to 2008, and the eroding effect it has on the 
Indian Health Service budget.
    Mr. Dicks. How do they do that? Is this across the board?
    Ms. Holt. Jim, do you want to explain?
    Mr. Dicks. But why would it be 24 percent?
    Ms. Holt. This is Jim Roberts. He is our policy analyst.
    Mr. Roberts. Congressman, it is proportionate to the level 
of the increase.
    Mr. Dicks. What is that?
    Mr. Roberts. It is relative to the----
    Mr. Dicks. It is not a rescission, is it? It is not called 
a rescission.
    Mr. Roberts. Well, sometimes they have been called 
rescissions. Sometimes they have been referenced as across the 
board----
    Mr. Dicks. Across the board cut.
    Mr. Roberts [continuing]. Cut. Yes.
    Mr. Dicks. I just think they are way over. No one has ever 
done a 43 percent. I mean, that has just got to be the 
Department.
    Mr. Roberts. No. Congressman, it is not the level cut. That 
is the level of amount, that is how much it is cut into the 
increase. For example, in 2006, the increase was approximately 
$43,000. We had two rescissions that particular year. There was 
one contained in the Interior Appropriations bill and one 
contained in the Omnibus. And when those rescissions were 
applied to the increase, it----
    Mr. Dicks. Well, that is of the increase, not of the entire 
budget.
    Mr. Roberts. Right. Correct.
    Mr. Dicks. Okay. I was thinking this is brutal.
    Ms. Holt. It is brutal.
    Mr. Dicks. These guys are bad but, you know, this is 
brutal.
    Ms. Holt. But by the time they are applied to a diminishing 
budget, they are brutal.
    Mr. Dicks. Yes.
    Ms. Holt. They are----
    Mr. Dicks. Well, I agree. I mean, it is not good, but I 
mean, at least it is not as bad as I thought it was.
    Mr. Roberts. Congressman, our position has always been 
that, you know, the VA and DOD Programs have been exempt from 
across-the-board cuts. Some of their Health Service Programs. 
We in the Indian Health Service provide, you know, we are very 
comparable to the systems. We provide healthcare services. If 
anything, we are subject to much higher rates of inflation than 
those particular programs because we do not have the critical 
mass in terms of health facility infrastructure and the number 
of services that we provide.
    So in a very similar fashion we should be exempt for the 
same purposes, and I think that is the reason why Congress has 
exempted the DOD and VA Health Programs from those cuts is 
because of the high rates of medical inflation that they are 
subject to.
    Mr. Dicks. Okay. All right.
    Ms. Holt. Just to close----
    Mr. Dicks. Good point.
    Ms. Holt [continuing]. Congressman Dicks, I would like to, 
our recommendations.
    The Committee should provide a $355 million increase to 
maintain current services. The Committee should provide $158.2 
million to fund past year contract support cost shortfalls and 
allow funding for new and expanded self-determination and self-
governance agreements. We recommend increasing the CHS Program 
by $70 million to maintain current services and address unmet 
need, restore the 34.5 million to fund the Urban Health Indian 
Program.
    However, current funding for Health Service accounts should 
not be offset to make the restoration. This should be over and 
above.
    Mr. Dicks. Where do you think we will get the money?
    Ms. Holt. Well, there is a lot of money going out of this 
country, Congressman. I was looking and talking to CDC and 
testifying down at HHS this morning. I looked at CDC and the 
amount of money that is going out of this country just from 
that agency. We have millions of dollars----
    Mr. Dicks. The Centers for Disease Control?
    Ms. Holt. Yes. I am sorry. We have millions of dollars that 
is going out of this country to provide healthcare to other 
countries when we are not even meeting the health needs of the 
first Americans of this country.
    Mr. Dicks. Well, listen. I am completely with you on this 
budget. I am just struggling to figure out where we are going 
to get the money to do all this.
    Ms. Holt. I understand.
    Mr. Dicks. We will do our best. As you know, we restored 
the Urban Indian Health Program last year and tried to fill in 
as best we could. But the President the other year made us cut 
a billion dollars out of our bill or he would not sign it. So 
it was very unfortunate.
    Ms. Holt. And as a tribal leader I appreciate that. I face 
that--
    Mr. Dicks. Yes.
    Ms. Holt [continuing]. Same dilemma on how we are going to 
come up with money to meet our tribal budgets and----
    Mr. Dicks. Right.
    Ms. Holt [continuing]. Run our health programs for our 
tribal members.
    Final recommendation is that the Committee provide at least 
$15 million to maintain current services for contract support 
costs and an additional $10 million be provided to restore base 
funding due to the effect of the rescissions.
    Mr. Dicks. Okay.
    Ms. Holt. We are also asking for, and as you noticed, the 
STPI. I am a tribal leader diabetes committee member. We are 
asking for the 5 years at $200 million following the 2009 
expiration of that program.
    Mr. Dicks. It has to be reauthorized. Right?
    Ms. Holt. It has to be reauthorized. Yes.
    Mr. Dicks. Do you know which Committee? Is it Ways and 
Means or is it--or Resources? Staff says it is in Ways and 
Means. So maybe we can get that Committee to join us in writing 
a letter to Ways and Means.
    Well, we will work on this. That is a big thing. We cannot 
let that fall apart.
    Ms. Holt. And we are certainly willing from the Northwest 
Portland Area Indian Health Board to offer any assistance that 
we can in doing that.
    Mr. Dicks. All right.
    Ms. Holt. I am also a delegate for the National Indian 
Health Board and offer the full resources of that Board also to 
help in any way that we can. We are also helping with help with 
the reauthorization of the Indian Healthcare Improvement Act 
and ask that it be expedited out of the House and that you help 
us in any way that you can to move that bill through the House.
    Mr. Dicks. All right. Thank you very much.
    Ms. Holt. Thank you, Congressman.
    [Statement of Linda Holt follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Ralph, come on up here. We are getting close 
here. We got a few more to go, but we are almost there. Thank 
you, Ralph. And we will put your entire statement in the 
record, and you have 5 minutes to summarize.
    Mr. Forquera. Great. I will be----
    Mr. Dicks. And welcome.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

RALPH FORQUERA
    Mr. Forquera. Thank you very much, and it is a pleasure to 
be here. I will be very brief.
    Basically I am here to represent the Urban Indian Health 
Programs and ask that the Committee consider the reinstatement 
of the Urban Indian Funding in the 2009, appropriations 
process. As you know the President has zeroed us out once again 
this year, and we have, last year you actually asked me why did 
I think he was zeroing us out.
    Mr. Dicks. Yes.
    Mr. Forquera. So we have done some investigation to try to 
figure that out, but then as you have heard this morning, it 
does not sound like we have been singled out specifically. It 
seems like----
    Mr. Dicks. No. They do not discriminate.
    Mr. Forquera. Yeah. They----
    Mr. Dicks. They cut everything.
    Mr. Forquera [continuing]. Have been very fair in their 
discriminatory practices, but so we have really, we have, are 
really coming to ask for, again, consideration for resources 
for this year.
    The Urban Indian Programs are a very, very vital piece of 
the connection of the tribal communities and the Indian 
population. We serve a significant number of Indian people from 
throughout the country. You were asking earlier about the 
shared tribal representation. We have about 170 to 180 tribes 
represented in our service population every year, so we are 
seeing people from all over the country at the Seattle Indian 
Health Board, and that is similar to the situation in the other 
33 urban Indian programs around the country. You are seeing 
large numbers of Indian people from throughout the country.
    Of course, back in the 1980s, Mr. Reagan also tried to 
eliminate the Urban Indian Health Programs as you are well 
aware, and you and, again, Chairman Yates at the time were very 
instrumental in preventing that from happening.
    Mr. Dicks. Right.
    Mr. Forquera. And we really do appreciate that for an awful 
lot of people have been helped as a result of the maintenance 
of our programs over the years, and we want to make sure that 
we acknowledge that and acknowledge especially your support for 
us over the years in that regard.
    A rather startling statistic that I ran across just 
recently from the Center for Medicare, Medicaid Services said 
that by 2070, 17, I am sorry, which is 9 years from now, 
approximately one out of every $5 that the Americans, that 
Americans spend will be for healthcare. So as the costs of 
healthcare continues to rise as it becomes increasingly more 
and more important for organizations like ours to be supported 
so that we can, in fact, advocate for our communities. If we do 
not advocate for the Urban Indian population just like 
advocating for the Indian population in general, we oftentimes 
get left out of a lot of the initiatives and the other programs 
that are being used to address disparities issues or just in 
dealing with some of the health reforms that are necessary for 
this country.
    The Urban Indian Health Programs are the foundation for 
doing that work specifically for Urban American Indians. There 
is nobody else that does that kind of work, so we are unique in 
that particular regard. The argument that, you know, the 
President made was that the community health centers could 
substitute for the work that we do. We refuted that claim and 
so have the community health centers, recognizing the unique 
characteristics of the Urban Indian population and the fact 
that working with these communities requires an awful lot more 
than just healthcare. It also requires case management, it 
requires a variety of other kinds of services, outreach 
activities, community-based activities, culturally-specific 
activities that help to bring people in and move them from 
treatment to prevention.
    We talked a little bit about prevention, and I think one of 
the areas where we have done a remarkable job, I think, is the 
Special Diabetes Initiative. We turned an awful lot of people 
who were on the course for very bad health outcomes from 
diabetes around. We saved an awful lot of people from 
amputations. We have been able to prevent----
    Mr. Dicks. And you are doing that work in Seattle?
    Mr. Forquera. We are doing that work in Seattle. The Urban 
Indian Programs are part of the Special Diabetes Initiative, 
and I think we have done some fairly remarkable work, as have 
the tribes in reaching this particular population.
    That kind of targeted approach to disease programs can be 
effective. The difficulty is that many of them like the Special 
Diabetes Program are only authorized for a period of time, and 
so when the resources are pulled away, the ability to be able 
to maintain those programs becomes a great challenge for us.
    Mr. Dicks. Yes.
    Mr. Forquera. Because these are not inexpensive programs as 
you are well aware.
    In conclusion, I will be, as I said I wanted to be brief, 
the Urban Indian Health Programs are a very, very important 
piece I think of the whole Indian Health Initiative for the 
country. We have struggled in the last several years because of 
the activities of the Administration towards, again, not only 
us but other elements of the Indian community. And we are very, 
very hopeful that we can continue our work in trying to reach 
this very vulnerable, very difficult population.
    Just for a quick statement, too, we created an Urban Indian 
Health Institute, a research institution as part of my 
organization in 2000. Just this last Wednesday we published a 
new report, which I do not think should be part of the record, 
but I would like to have----
    Mr. Dicks. We will put it in our files and----
    Mr. Forquera. Yeah. Receive a copy of it. It is a look at 
the behavioral risk factor surveillance survey that has been 
done by the Indian, by the United States, by the Center for 
Disease Control for the last number of years. We summarized 
that information, found some fairly interesting findings about 
the urban population that were unique.
    One of the most unique ones was four conditions; diabetes, 
obesity, cardiovascular disease, and binge drinking. We found 
that there were no differences in rates among populations of 
people because of income. In the general population when income 
rises, there is usually a decline in these, in the rates in 
those situations. This particular report found that that was 
not the case in these particular, the data that was collected. 
The data is a little bit limited because you have a risk-factor 
survey, it was a telephone survey, and a lot of Indian people 
do not have telephones.
    Mr. Dicks. Yes.
    Mr. Forquera. So the population--but it shows, again, these 
disparities and the importance of doing additional work and 
trying to address the specific needs of these populations.
    Mr. Dicks. I assume you have a lot of dental healthcare 
issues.
    Mr. Forquera. We have a tremendous amount of dental health 
problems in the population, both youth and adults. In the youth 
population we could oftentimes get kids in for initial 
screenings and things like that, but when they have severe 
problems, multiple cavities and other kinds of problems, 
getting them to pediatric dentists who can deal with children 
who have those kinds of multiple problems and can solve them 
has been a challenge for us. We are actually trying to 
implement that at the Health Board through a small initiative 
that we are working on.
    For adults it is an enormous problem because so many people 
do not have dental insurance, and many Indian people have gone 
on for decades without dental care. And so we really are band-
aiding an awful lot of the work that we are doing around adult 
dental. And of course, dental services----
    Mr. Dicks. And then we make it difficult for people to 
volunteer.
    Mr. Forquera. Absolutely.
    Mr. Dicks. That really is----
    Mr. Forquera. Absolutely.
    Mr. Dicks [continuing]. Outrageous.
    Mr. Forquera. And in Washington State reciprocity for 
licensing of professional dentists has been a problem for us. 
In other states generally if you are licensed in one state, you 
can practice in another state. In Washington they require that 
you actually be tested before you----
    Mr. Dicks. Oh, come on.
    Mr. Forquera [continuing]. Can----
    Mr. Dicks. How many people are going to volunteer for that?
    Mr. Forquera. Yeah. It has been a real problem.
    Mr. Dicks. Well, thank you for--I will look at the report. 
Thank you for your excellent testimony.
    Mr. Forquera. Well, thank you very much. Appreciate your 
time.
    [Statement of Ralph Forquera follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you.
    James Allen Crouch and the Honorable Reno Franklin, 
Executive Director/Chairman of the California Rural Indian 
Health Board. Welcome. Thank you for being patient. I am sorry 
we were delayed, but we have to vote. That is part of our job 
up here.
    Mr. Franklin. No problem, sir, Congressman Dicks.
    Mr. Dicks. I missed a couple, too, so we can keep this 
thing going, so I sacrificed. I hope my constituents will 
forgive me.
    Mr. Franklin. I think the ones that are sitting right over 
there do.
    Mr. Dicks. They are very good.
    Mr. Franklin. Well, Congressman Dicks, first before 
anything else, I wanted to thank you for attending our 
appropriations summit for National Indian Health Board last 
week.
    Mr. Dicks. Right.
    Mr. Franklin. It was great to see you there. It was great 
to hear your real-world analysis of what that budget really 
dumps on Indian Country.
    Mr. Dicks. Yes. So this is one of the worst budgets I have 
seen----
    Mr. Franklin. Uh-huh.
    Mr. Dicks [continuing]. Ever, and that is just shocking to 
me, and we are going to do our best to fix it, but, again, with 
a billion dollar cut, that does not help us very much.
    Mr. Franklin. No. It does not.
    Mr. Dicks. When we should have gotten a $600 million 
increase on the base funding, and so we have a $1.6 billion 
hole. I say that because Mr. Olver is a very powerful Chairman 
over here, and I want him to know that I am suffering here 
badly. So when he is fighting for his allotment, he will think 
of us. Okay. As a member of this Subcommittee.
    Mr. Franklin. Well, let me thank you for that now then, 
sir. Thank you.
    Mr. Dicks. He will be there. Anyway, go ahead. You have 5 
minutes.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

               CALIFORNIA RURAL INDIAN HEALTH BOARD, INC.


                               WITNESSES

JAMES ALLEN CROUCH
HON. RENO FRANKLIN
    Mr. Franklin. My name is Reno Keoni Franklin. I am the 
Chairman of the California Rural Indian Health Board, and I am 
a tribal council member for the Kashia Band of Pomo Indians.
    The California Rural Indian Health Board, CRIHB, was 
founded in 1969, by tribal governments in California to serve 
as the focal point for the planning, design, and implementation 
of the Indian-Controlled Health System in California. For the 
past quarter of a century CRIHB has operated under tribal 
resolutions as a tribal organization under the authorities of 
the Indian Self-Determination Act, providing all levels of IHS-
funded services in cooperation with six locally-operated tribal 
health programs. And just to note also is that all Indian 
health programs or Indian healthcare in the State of California 
operates under the PL93638 compacts and contracts.
    And before I go any further, I would like to introduce you 
to our Executive Director, Mr. James Crouch.
    [Statement of Reno Franklin follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Crouch. Thank you, Mr. Dicks. I would point your 
attention to line 4, paragraph 2 to get to the chase, the 
actual request.
    California Tribal Health Programs are seeking the expansion 
in the CHS funding. We are seeking that you fund for the very 
first time Section 211 of the existing Indian Healthcare 
Improvement Act for $2 million. That authorization is laying 
fallow for a number of years and has created lots of problems 
in California where all healthcare is provided through 
ambulatory clinics. There are no hospitals. California is one 
of four IHS areas that are described as being CHS dependent.
    What that means is we do not have access to inpatient care 
through IHS facilities, and it means, of course, we do not have 
access to those auxiliary services that exist in those 
facilities like laboratory and X-ray. And that causes extra 
expenses on our CHS budget.
    I gave you a lot of data about California area itself, but 
I wanted to point out that we did----
    Mr. Dicks. Why is that? Why is that? Why did that happen?
    Mr. Crouch. Our population is spread over a huge area, 
about 123,000 square miles, but we make up about seven-tenths 
of 1 percent of the state population. So we are a small 
population spread out over a large area. So----
    Mr. Dicks. Okay.
    Mr. Crouch [continuing]. We have Section 211 of the Indian 
Healthcare Improvement Act sets up what is known as an 
intermediate risk pool to fund costs that would be otherwise 
funded by the local tribal health provider, or if they were 
great enough, they would go onto the CHEF Fund. Last year you 
gave the CHEF fund 10 million additional dollars. None of those 
monies will show up in California if history proves itself 
again to be true.
    A few years ago we did a study looking at the IHS active 
users in California, about 70,000 of them, matching with all 
the Medicaid funded care, all the hospital discharge data in 
the State of California. And we identified that Medicaid pays 
for 40 percent of those discharges, Medicare pays for about 25 
percent, private pay pays for about 19, and 15 percent of all 
those discharges are left unfunded. IHS, by the way, pays for 
about 1 percent.
    The IHS data does not even show that we are getting to the 
hospitals. You have to go to state systems and match up the IHS 
and the state data to learn these things. That means there are 
about 2,800 hospital discharges annually and about 700 of them 
are unfunded. The value of those unfunded care is about $19 
million a year.
    That shortfall falls on individual Indians because their 
IHS is a discretionary system. If you do not have CHS funds, 
you simply deny care to those clients. In many places in 
California they provide no inpatient or specialty care.
    Turn your attention to the charts in the back of the 
document. Not only are we more dependent on CHS funding, but 
sadly because you all look at line items, and I do not know who 
really does oversight on the IHS, but when you look at other 
cuts in how IHS appropriations are distributed, you will find 
interesting dis-equity.
    In this chart on the top you see the non-CHS dependent 
areas in red. You see our sister areas like Portland, Bemidji, 
and Nashville in green, and then California in yellow. So we 
have consistently less CHS funding per capita than any other 
piece of the system, much less the other CHS dependent areas.
    That results in a secondary shortfall which is access to 
the CHEF Fund. The CHEF Fund should pay for high-cost cases 
over $26,000, but if your most generous program caps CHS 
coverage at $5,000 per inpatient event, you will never get into 
the CHEF.
    Consequently, you can see that California in yellow has 
almost no access to the CHEF. Comparative area, Billings, 
Montana, with about the same number of Indians, has 150 CHEF 
cases a year. California has five.
    So we would like you to fund Section 211 of the Indian 
Healthcare Improvement Act. It would not be an earmark because 
this is an existing authorization. It would put in play an 
opportunity for us to improve the coordination of care in 
California and meet another, a lot of other needs and free up 
CHS funding for other things.
    Is there anything that you would like to finish with?
    Mr. Franklin. Yes, if I may. Another interior 
appropriations issue is the Historic Preservation Fund. I serve 
as a tribal historic preservation for my tribe, Kashia Pomo 
Tribe.
    Mr. Dicks. Right.
    Mr. Franklin. And we would like to thank you for your 
support last year and hope that you would continue your support 
for our funding.
    There are eight tipples in your state, sir, that serve, and 
as for a need, you know, the Kashia Pomo Tribe last year was 
named as one of the 11 most endangered places, historic places 
by the National Trust for Historic Preservation. So we are the 
first actual tribal lands on that list.
    And the funds that we get for historic preservation, while 
they are definitely not adequate for what we need, it is a 
definite good starting place, and we would ask that you at 
least protect the amount that was enacted last year of 6.4 
million.
    Mr. Dicks. Okay. Thank you.
    Mr. Olver. May I----
    Mr. Dicks. Yes. Yes. Mr. Olver. Of course.
    Mr. Olver. I am a little bit curious. I think I understand 
you to say you have a couple hundred thousand Indian people in 
California, roughly that.
    Mr. Crouch. We are serving 77,000 IHS active users. Yes, 
sir. The actual census population would be greater than that, 
of course.
    Mr. Olver. And the contract, the CHS's contract services is 
everything that you do? Do you have specific clinics in----
    Mr. Crouch. We have, yes, sir.
    Mr. Olver. Where are the clinics?
    Mr. Crouch. We have a network of 30 clinics----
    Mr. Olver. Thirty clinics.
    Mr. Crouch [continuing]. In mostly rural counties from the 
southern border to the northern border, mostly along the 
Sierra, the backbone of the Sierra Riverside, San Bernardino, 
and San Diego.
    Mr. Olver. Now----
    Mr. Dicks. These are tribal. Right?
    Mr. Crouch. Tribally operated. Yes.
    Mr. Dicks. All right.
    Mr. Olver. Tribally operated. Thirty clinics.
    Mr. Crouch. Thirty. Uh-huh.
    Mr. Olver. I see. And the contract service is beyond those 
30 clinics?
    Mr. Crouch. Right. When you, right. What you can do direct 
care in those clinics is one source of funding. We have about 
50 cents on the dollar from that side, and then what you need 
to buy from other providers like rural hospitals, specialty 
practitioners, X-ray capacity, pharmacies, you buy with your 
CHS money.
    Mr. Olver. So what proportion of your money is in the 
support of the clinics, and what proportion in the contract 
service?
    Mr. Crouch. Overall California gets about $120 million a 
year for healthcare, of which a little less than about 19 
million is in CHS care.
    Mr. Olver. So----
    Mr. Crouch. So we are heavily invested in the clinic side 
and cannot help you when you really need it.
    Mr. Olver. Of those clinics, all those clinics have dental 
service in them?
    Mr. Crouch. Yes. It is fair to say all of them have dental 
services. All of them have some level of behavioral health and 
some level of medical care.
    Mr. Olver. Uh-huh.
    Mr. Crouch. But they do not have----
    Mr. Olver. The previous gentleman pointed out that, yes, 
the dental was particularly difficult. I understand that. We 
have worked on it in this Committee for the last couple of 
years in trying to upgrade that somewhat.
    Mr. Crouch. Absolutely and----
    Mr. Olver. You find the same thing?
    Mr. Crouch [continuing]. The dental healthcare program in 
California funded by the Medicaid Program is very much 
threatened as we speak.
    Mr. Olver. And do you have contract dental services as well 
or only medical services?
    Mr. Crouch. With the IHS money or with----
    Mr. Olver. With the CHS money.
    Mr. Crouch. CHS money we buy both dental and----
    Mr. Olver. And medical?
    Mr. Crouch [continuing]. Medical. For example----
    Mr. Olver. Mental health?
    Mr. Crouch [continuing]. Baby--some behavior health, the 
example of the dental care would be like baby bottle tooth 
decay. It is a very expensive procedure usually done with the 
child, you know, knocked out and in a hospital. And we do not 
have money, you know, some of those 700 hospitalizations would 
have been for that kind of service.
    Mr. Olver. And the 30 clinics do not include, there are 
urban centers, I take it, several urban centers.
    Mr. Crouch. Seven of those. There are seven of them.
    Mr. Olver. Seven of those.
    Mr. Crouch. Right.
    Mr. Olver. And those would be in the biggest metropolitan 
areas. But then yours are in the----
    Mr. Crouch. Rural.
    Mr. Olver [continuing]. Rural. But you, when you mentioned 
seven-tenths of 1 percent, that would be the Indian people in 
the whole state, in the whole population?
    Mr. Crouch. Exactly.
    Mr. Olver. Using both the urban centers and the CHS and----
    Mr. Crouch. In the tribal areas, the census population----
    Mr. Olver [continuing]. Rural clinics.
    Mr. Crouch [continuing]. Would be more like around 230,000 
of the 640 or so that are in the state. So we are----
    Mr. Dicks. How many recognized tribes are there in the 
state?
    Mr. Franklin. One hundred and nine.
    Mr. Dicks. One hundred and nine recognized tribes.
    Mr. Franklin. One hundred and nine beautifully recognized 
tribes in the State of California. There are, I believe 30 some 
odd number of unfederally recognized.
    Mr. Olver. And these are all indigenous to California 
tribes?
    Mr. Franklin. Yes. To California. Yeah.
    Mr. Olver. Wow. One hundred and nine.
    Mr. Crouch. So that is why we need a structure to 
coordinate healthcare statewide like California Rural Indian 
Health Board, and that is why the CHS Intermediate Risk Pool 
would have some quality impacts on everybody's practice.
    Mr. Olver. With that number of people and number of tribes, 
do you have any tribal colleges, or is the education system, 
since it is so extensive in California and ubiquitous to the 
state, your education comes there.
    Mr. Franklin. We do. We have a DQ University, which I think 
had lost its accreditation a couple of years back.
    Mr. Olver. What is DQ?
    Mr. Franklin. That is a word that I cannot pronounce. That 
is why we call it DQ.
    Mr. Crouch. Q is Quatsaquatal.
    Mr. Franklin. There you go.
    Mr. Olver. And the D is too complicated.
    Mr. Crouch. It is non-California----
    Mr. Olver. Okay. All right.
    Mr. Dicks. All right. Well, and I appreciate the gentleman 
probing further here, because I think it is very helpful 
because this is a unique system, and we need to understand.
    Mr. Franklin. Well, thank you very much.
    Mr. Dicks. Thank you. And----
    Mr. Crouch. Thank you for your questions.
    Mr. Dicks. And finally, Sally Smith, Chair of the National 
Indian Health Board.
    Hi, Sally. How are you?
    Ms. Smith. I am well. Thank you very much.
    Mr. Dicks. Yes. Welcome.
    Ms. Smith. Thank you. Good morning.
    Mr. Dicks. We will put your statement in the record, and 
you have 5 minutes to summarize.
    Ms. Smith. Thank you. I am an Eskimo from Alaska.
    Mr. Dicks. Oh, wonderful.
    Ms. Smith. And I understand that you are an avid fisherman.
    Mr. Dicks. Yes. I fish up in Alaska twice every year.
    Ms. Smith. Please come to the Bristol Bay area. We are the 
gateway to the Wood-Tikchik Park System. I extend a personal 
invitation to you.
    Mr. Dicks. I have fished that back bouncing for king salmon 
and did very well.
    Ms. Smith. Come back and do that again.
    Mr. Dicks. Yes. We had some great trips up there. I usually 
fish in southeastern.
    Ms. Smith. Oh, no. Come up to the southwest.
    Mr. Dicks. Sitka and out of Ketchikan to Coronation Island, 
where I got a 54-pound king salmon 3 years ago.
    Ms. Smith. We might be able to match or beat that in the 
southwest part.
    Mr. Dicks. You have some big ones up there, do you not?
    Ms. Smith. Yes, we do.
    Mr. Dicks. Oh, yes, you do. No doubt about it.
                              ----------                              --
--------

                                         Wednesday, March 12, 2008.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

H. SALLY SMITH
    Ms. Smith. Thank you. Today my testimony focuses on the 
President's fiscal year 2009 proposed budget regarding the 
Indian Health Service budget.
    The President's request for IHS is $3.3 billion, which is a 
$21 million increase from the fiscal year 2008 funding. The 
President's budget request is not adequate to address the high 
incidence of disease, behavioral health issues such as youth 
suicide and substance abuse. Certainly we have out-of-date 
healthcare facilities, vacancy rates, the list goes on.
    The National Indian Health Board recommends that this 
Subcommittee appropriate at least $4.2 billion to the IHS, 
which would restore funding for healthcare facility 
construction, alcohol and substance abuse healthcare 
professionals, restoration of the Urban Indian Programs, as 
well as other substantial increases requested by the tribes 
through the HHS budget, tribal budget consultation process 
happening today and tomorrow here in your great city.
    The request for the $4.2 billion made by NIHB, unlike the 
President's budget, does not include consideration of any third 
party collections. We believe that such consideration is 
contrary to Congressional intent.
    Certainly we are appreciative of the increases to certain 
line items such as the additional $9 million to contract health 
services; however, as you have heard, $9 million is not nearly 
enough.
    Additionally, contract support costs continue to be 
underfunded. The IHS estimates the shortfall at $150 million. 
If CSC is not fully funded, program funding is used to 
subsidize salaries, inflation, and population growth, resulting 
in diminishment of healthcare services to Natives and Indians.
    The high incidence of diseases and medical conditions in 
Indian Country supports an increase in funding. Native people 
continue to suffer from higher rates of disease. As you know, 
1.6 times higher in cervical cancer; in diabetes, three times 
higher; and, again, 1.6 times higher in suicide.
    The Administration defends the President's budget by 
claiming that program funding is reduced or eliminated in order 
to fulfill the IHS core mission of providing primary care to 
Indians on or near reservations blows my mind. But the 
President proposed decreases in funding to essential programs 
that represent vital components of the Indian Healthcare 
Delivery System.
    As a representative from Alaska, I appreciate the 
President's request to specifically continue construction of 
the Barrow Hospital Project. However, many more American Indian 
native communities are waiting to build their first facility or 
to modernize their outdated facilities.
    Mr. Dicks. How much is that Barrow one going to cost?
    Ms. Smith. It is going to cost, the construction costs are 
so high in Alaska. Eighty-six million. I am groping at that 
answer, but I will get you an accurate number.
    Mr. Dicks. We hear it is up to $135 million.
    Ms. Smith. No. It has gone up that high? You know, I live 
in Clarks Pointe. I live in Dillingham, but in Clarks Point we 
are building a facility there, a health clinic. At the time we 
were quoted at $329 a square foot, until it got delayed and 
delayed. A year later it was up to $1,000 a square foot. So I 
understand if it is going to 130 plus million. It is 
extraordinary. The costs are so high.
    Mr. Dicks. Is it in the budget?
    Ms. Smith. It is in the budget. It is in the budget. We 
thank you for that, but there are so many others that are 
outdated.
    Mr. Dicks. What year is this in the Barrow thing? Do you 
have any idea?
    Ms. Smith. I do not have----
    Mr. Dicks. Are they already under construction?
    Ms. Smith. Yes, it is. It is going through the PJDPOR 
process, and so it is under, it is moving through the system.
    Mr. Dicks. But it is not under construction yet?
    Ms. Smith. No. Actually, they will begin, hopefully begin 
construction this summer. So yeah. We invite you up there, too.
    Mr. Dicks. Yes.
    Ms. Smith. That would be great.
    The average U.S. hospital is 9 years old, and many of the 
existing IHS hospital facilities are over 30 years old. A 
decrease in facility construction, halting funding halts 
current projects, inhibits future construction, and results in 
higher construction costs as you have just described.
    The fiscal year 2009 President's budget reduced, requests 
to reduce health professions by $14 million will result in 
substantial reductions. It goes on, we already heard about the 
reduction or the diminishment that doing away with the Urban 
Health Program. The National Indian Health Board, of course, 
supports that.
    There is a big--I have Kitty Marx with me, who is the 
Legislative Director, and you know that the Medicare and 
Medicaid supplementary revenues should be absolutely kept 
separate from the Indian Health Services budget.
    And then, I wanted to say that the President's----
    Mr. Dicks. Now, explain that to me. How does this thing 
work?
    Ms. Marx. Well, as part of the President's budget----
    Mr. Dicks. Just pull it over.
    Ms. Marx. As part of the President's budget request they do 
request $3.3 million in appropriations, but in describing their 
operating budget and what they need to describe their program, 
we have interpreted that they are considering the Medicare and 
Medicaid collections in that calculation.
    Mr. Dicks. So--oh. Okay.
    Ms. Marx. Which we, I mean----
    Mr. Dicks. So you collect Medicare and Medicaid where you 
can.
    Ms. Marx. Right. I mean, the, it is estimated that it is 
$689 million for fiscal year 2007, that money is returned to 
the service units for the operation of the facilities to meet 
compliance standards with Medicare, Medicaid to pay for health 
professions, salaries, equipment, and X-ray. So this is vital 
money that the service units need.
    Mr. Dicks. Yeah.
    Ms. Marx. But the Indian Healthcare Improvement Act----
    Mr. Dicks. Same thing they do in the community healthcare 
clinics. So they are going to reduce the amount of money by 
689----
    Ms. Marx. Well, they are not quite----
    Mr. Dicks [continuing]. Because you are going to get these 
reimbursements?
    Ms. Marx. Yeah. They are not quite reducing it, and that is 
kind of, it is a matter of interpretation.
    Mr. Dicks. Well, what are they doing?
    Ms. Marx. Well, I think they are considering it in their 
budget request. If they are only asking $3.3 billion in 
appropriations, knowing that they are going to collect close to 
$700 million in----
    Mr. Dicks. Right.
    Ms. Marx [continuing]. Medicare, Medicaid that they 
recognize they need, then their full operating budget is $4.2 
billion. Well, if the Indian Health Service needs $4 billion to 
operate its program, they should ask for that.
    Mr. Dicks. And also collect the money.
    Ms. Marx. Yeah. And then have the 600, $700 million in 
Medicare and Medicaid supplement the program, which was----
    Mr. Dicks. Yeah.
    Ms. Marx [continuing]. Congress's intent back in 1976. And 
that is what our concern is, is that the Indian Healthcare 
Improvement Act----
    Mr. Dicks. Have you got any history on this? Do you know 
where the, can you get us a piece of paper on that?
    Ms. Marx. Yeah. We can do that. I mean, I think there is a 
long history of----
    Mr. Dicks. Yes.
    Ms. Marx [continuing]. The Administration----
    Mr. Dicks. Get us a piece of paper on that.
    Ms. Marx [continuing]. Doing this. Okay. We certainly will.
    Mr. Dicks. Thank you.
    Ms. Marx. Thank you.
    Ms. Smith. Thank you for the opportunity to----
    [Statement of H. Sally Smith follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Yes. Well, thank you very much, and Mr. Olver, 
do you want to ask any questions?
    Mr. Olver. I would like to ask just a couple of questions.
    Mr. Dicks. Go ahead. Go ahead.
    Mr. Olver. I am curious now. How much of an appropriation 
do you actually get? Maybe I missed that. To operate the 
National Indian Health Board.
    Mr. Dicks. Or are you financed by the tribes?
    Ms. Smith. Well, actually, we are a non-member, we are a 
member organization only in that we have representatives from 
all 12 areas, and we have----
    Mr. Dicks. These are BIA areas?
    Ms. Smith. Well, I suppose you could----
    Ms. Marx. Yeah. They are IHS.
    Ms. Smith. IHS.
    Mr. Dicks. Indian Health Service. Okay.
    Ms. Smith. Indian Health Service areas. BIA is a whole 
different--I am glad I am not involved with them, but, anyway, 
it is Indian Health Service, and we receive under a cooperative 
agreement with the Indian Health Service a very small sum of 
money, and then through tribal shares the tribes, if they elect 
to return the money back to the Indian, to the National Indian 
Health Board, that then becomes part of our budget.
    Mr. Olver. What is the amount that you get from the Indian 
Health Service?
    Ms. Smith. It is----
    Ms. Marx. It varies. I mean, we do that through a 
cooperative agreement, an inter-agency agreement. We are a non-
profit organization, and the Indian Health Service gives us 
money to carry out programs to support, you know, budget 
formulation, tribal consultation, various activities. So we are 
non-profit, and we receive money through them, but we are not a 
part of the Indian Health Services.
    Mr. Olver. Well, I am curious. What would be the Board's 
total budget?
    Ms. Marx. It is probably like close to----
    Ms. Smith. It is actually very small.
    Mr. Olver. Well, I guess it is a question, the reason I am 
asking is----
    Mr. Dicks. Can you just give us a ballpark number?
    Ms. Smith. Between 1.2 and some years in our heyday 3 
million, but I would say probably 1.2, 1.5 million.
    Mr. Olver. The whole budget of the Board?
    Ms. Smith. The whole budget of the National Indian Health 
Board.
    Mr. Olver. And you said a small piece comes from the Indian 
Health Service----
    Ms. Smith. Yes.
    Mr. Olver [continuing]. As a cooperative agreement.
    Ms. Smith. I believe $220,000.
    Mr. Olver. Two hundred and twenty thousand. So it is less 
than 10 percent of, or a little bit more than 10 percent, I 
guess.
    Ms. Smith. Yes.
    Mr. Olver. You said 1.2 million or did you say 3.2 million?
    Ms. Smith. One point two million dollars.
    Mr. Olver. Is the total. So it is a little over 10 percent. 
And how much do you get back from the tribes themselves?
    Ms. Smith. I will use Alaska as an example. There are 243 
tribes in Alaska, of which their tribal shares equivalency is 
approximately $55,000. So from those tribes in Alaska that is 
what they would return back to the National Indian Health Board 
to add to our budget.
    Mr. Olver. Are they one of the BIA areas? Just Alaska 
alone? One of the BIA areas?
    Ms. Smith. Well, no.
    Mr. Olver. Because there was, I am trying to build myself 
in my mind a roadmap of where this system, how this system, how 
general the system is. You have, you said you had members from 
each of the areas.
    Ms. Smith. The way the United States is broken up, there 
are 12 areas. So we have 12 regions, Alaska being one, and 
there are 11 others.
    Mr. Olver. And how much money comes in from other sources, 
from donations, from fundraising, or something other than what 
comes from either through the tribal allocations back to you 
and from the BIA?
    Ms. Smith. As of last week the National Indian Health Board 
Board of Directors made a determination that we will no longer 
be absolutely independent the resources of the Indian Health 
Service. We cannot. In order----
    Mr. Olver. You cannot be----
    Ms. Smith. We cannot be----
    Mr. Olver [continuing]. Dependent. You want to try to 
become independent.
    Ms. Smith. We want to become independent----
    Mr. Olver. Somewhat.
    Ms. Smith [continuing]. Which means----
    Mr. Olver. Do not be too sure about that. Take what you can 
get from them.
    Ms. Smith. Sure.
    Mr. Olver. Do not deny it.
    Ms. Smith. But we cannot live on what they give us, and so 
we need to become a fundraising----
    Mr. Olver. So you need to--
    Ms. Smith [continuing]. Organization.
    Mr. Olver [continuing]. Fundraise. You have not been doing 
that in the past.
    Ms. Smith. We will----
    Mr. Olver. We will do it in the future?
    Ms. Smith [continuing]. We must do it.
    Mr. Olver. How many of the recognized tribes actually make 
money available to you? They would have to recognize that there 
is some significant service of promotion and advocacy, and so 
forth that you as the Indian Health Board, National Board, 
provide----
    Ms. Smith. Yes.
    Mr. Olver. [continuing]. That is of service to them.
    Ms. Smith. All 563 tribes, I would say maybe 90 percent of 
the 563 tribes return their tribal shares back to the Indian 
Health Service. It takes a little arm twisting sometimes, but 
they return it back. So is there support out there? Yes, sir. 
There absolutely is support. So from the tribes. Some of those 
tribal shares that are coming back are small. As I would say 
$32 would be a tribal share, do as great as $35,000. So is 
there support? Absolutely. Do we need to do more? There is no 
question that as fundraisers we must now step into a new realm 
of going out and asking for money.
    Mr. Dicks. I think we better wind this up. I think it has 
been very useful. I thank all the tribes for coming today, but 
the Committee stands adjourned until 10:00 tomorrow.
    Ms. Smith. Thank you.
    Ms. Marx. Thank you.

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>


                                          Thursday, March 13, 2008.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                            PUBLIC WITNESSES

    Mr. Dicks. Welcome to the second of two days of public 
witness testimony. I need to remind our witness that we have 
many speakers scheduled to appear today. To ensure that we are 
able to accommodate everyone, I ask that our witnesses respect 
the five-minute time limit. A yellow light will flash with one 
minute remaining in your time in order to give you the 
opportunity to wrap up your statement. When the red light comes 
on, then your time has expired. Your prepared statement will of 
course be published for the record along with a transcript of 
your actual testimony.
    Mr. Tiahrt, do you have any opening comments?
    Mr. Tiahrt. No; I just want to thank you for conducting 
these hearings, and I realize you are a great advocate for 
Native Americans in the tribes and you have given special 
attention----
    Mr. Dicks. As you are.
    Mr. Tiahrt. You have given special attention to the tribes 
from Washington and I appreciate that very much because it is a 
challenging thing for all of them.
    Mr. Dicks. Thank you very much.
    Our first witness today is Virginia Thomas, president of 
the National Johnson-O'Malley Association, and the issue is the 
Johnson-O'Malley program, which last year our committee 
restored, as you know, after OMB and the White House brutally 
took it out of the budget. It is just one of those things that 
really upset me because they know we are going to put it back 
in so they take it out so that they make their budget look like 
it is less.
    Ms. Thomas. Stay upset.
    Mr. Dicks. Anyway, this is a very good program, and I am 
still upset, yes. You can proceed for five minutes, and we will 
put your entire statement in the record without objection.
                              ----------                              

                                          Thursday, March 13, 2008.

                 NATIONAL JOHNSON-O'MALLEY ASSOCIATION

                                WITNESS

VIRGINIA THOMAS
    Ms. Thomas. Thank you, Chairman. I am going to share my 
time later on with Mr. Harold Dusty Bull, but I am Virginia 
Thomas and I am president of the National JOM Association and I 
am here with three other board members that are here and we 
have been pounding the pavement the last week here with our 
issue with JOM, and I thank you for this time.
    I feel like I am preaching to the choir because I know that 
the support that this committee has given our program, and I 
need to let you know that within Indian Country, they know who 
you are, they know what you have done for this program and we 
thank you again for what you have been able to reestablish in 
the last few years to keep us going. But when the President 
zeroed us out this last year, we come back every year to the 
Hill to have to reiterate what our platform is. We have been up 
against several accusations that we have here that the program 
is not needed, that we are not monitored and that we duplicate 
other programs, and we are very alarmed about how this keeps 
coming up and we are so thankful that the committee has an 
ear----
    Mr. Dicks. Do you go down and talk to these people at the 
BIA and down at the White House?
    Ms. Thomas. I sure do.
    Mr. Dicks. I mean, it is OMB that kind of makes these 
decisions.
    Ms. Thomas. Yes, they are, and I had a discussion with OMB 
when we originally got our 16 and they cut us down to 12, and I 
did have a discussion with them. They actually told me I should 
be grateful that I did get the 12 and not the 16.
    But what we have here, when we had our not-needed programs, 
when they say that we are not needed, I have to let you know 
that I also am the manager of the Muskogee Creek National 
Johnson-O'Malley Program out of Oklahoma, and I serve nine 
counties within my area. I have 46 school districts and I 
counted in 1994, it is 10,919 students that I was originally to 
serve. I do not know why we did not count all of the school 
districts but I have over 70, so I have school districts five 
miles apart. One gets JOM, one does not. I have got 10,000 that 
was counted for. I serve over 16,000 with that same dollar that 
the Bureau is giving us. You know, I have been blessed, truly 
blessed out of Oklahoma that my tribe was able to assist us. 
But it is a trust responsibility. This is not a tribal 
responsibility. But our tribe has been able to assist us with 
this.
    This program here, when it says it is not needed, every 
child in Indian Country should have this need met. The law says 
it is a special and unique need. It does not say that we have 
to meet No Child Left Behind. It does not say we have to meet 
AYP. A lot of our students have withdrawn out of school so that 
the schools can meet AYP and meet the standards that we have 
here. And he also said that we were not monitored. We are self-
monitoring, according to regulations. We have to be self-
monitoring. We do our own needs assessment. We do an annual 
needs report along with our applications, and these all have to 
match. The problem is, we submit all these to the Bureau. The 
Bureau does not even look at them. We no longer have the office 
within the central office here. It was phased out years ago. 
There is one person standing in this nation left that knows 
anything about JOM within the line officers and that is Joey 
Martin out of Oklahoma City. When Gary Martin's position was 
phased out, I know that you kind of made a stand about what 
happened and why this happened and we are really concerned.
    When it says that we are duplicating our programs, we are 
not Title VII. We are not. The Title VII goes from the State to 
the school districts. JOM goes from the Bureau to the tribes to 
direct monitoring with the parents. This is----
    Mr. Dicks. Explain what you use the money for.
    Ms. Thomas. Well, I have 40 school districts and I have 40 
education plans. We have after-school programs. We have summer 
programs. We have tutoring programs, language programs, culture 
programs, everything----
    Mr. Dicks. This is for each student who has their own plan?
    Ms. Thomas. Each school district that we serve. Each school 
district has a parent committee that oversees it and those 
parent committees are the ones that are really evolved to make 
sure that this happens. The planning----
    Mr. Dicks. Now, do you send in a report of what you did 
with the money?
    Ms. Thomas. Yes.
    Mr. Dicks. But they only have one person to read all these 
reports from all over the country?
    Ms. Thomas. They do not have anybody.
    Mr. Dicks. Nobody? Now, remember, you only have one minute 
left. You better give it to your colleague.
    Ms. Thomas. I will give it over to Harold.
    Mr. Dicks. Harold.
    Mr. Dusty Bull. Greetings. My name is Harold Dusty Bull. I 
am also a member of the National Johnson-O'Malley Association. 
I come from the great State of Montana, Big Sky Country, where 
we have seven Indian reservations and 12 Indian tribes. These 
reservations are located in the most rural and isolated areas 
of Montana and the JOM programs are not subsidized. What you 
appropriate is what they receive for operation. It is a tragic 
reality that the standard of living in American Indian 
communities continues to be unmatched by any other group in the 
United States of America, characterized by the highest rates of 
poverty and morbidity, substandard housing and education. As a 
result, American Indian students lack many of the opportunities 
and resources available to other students elsewhere.
    The JOM program helps level the playing field by providing 
Indian students with programs that help them stay in school. We 
do not get extra. It just helps level the playing field. JOM 
serves only federally recognized Indian tribes and gives 
priority to programs that are on or adjacent to the Indian 
reservation. One of the samples I want to give you is that a 
parent came to my office last week, and this was a father, mind 
you, it was the father that came to my office last week to pick 
up a purchase order. This purchase order was for an incentive 
program that we are providing to our rural community school for 
students who met the school's academic standards and attendance 
and this father told me, Harold, we really appreciate this 
program. This is our program. This was a program that kept me 
in school and helped me keep my grades up as a young child 
because I knew that I was going to get to go on this trip or 
have this incentive activity. I was going to be involved in an 
incentive activity. So these are some of the things that JOM 
does that most people do not get to hear about but they do help 
our children stay in school.
    So on behalf of our Indian children across the United 
States, we thank you for this opportunity.
    [The statement of Virginia Thomas follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Mr. Tiahrt, do you have any comments?
    Mr. Tiahrt. No.
    Mr. Dicks. Thank you very much. We will try to do our best. 
I want you to know, the budget this year is $1 billion less 
than the budget last year, and we should have gotten a $600 
million increase to stay even, so we have a $1.6 billion hole 
that we have to fill. So every time we try to take care of 
something like this that is not in the budget, we have to take 
it from somewhere else. So it is very difficult. In the first 
year we had a few pots of money we could raid but they are 
gone.
    Ms. Thomas. We hold our faith in you.
    Mr. Dicks. We will do our best. This is going to take faith 
too, believe me.
    Ms. Thomas. Thank you.
    Mr. Dusty Bull. Thank you.
    Mr. Dicks. Nolan Colegrove, Sr., president of the 
Intertribal Timber Council, BIA Forestry. Nolan, welcome.
                              ----------                              

                                          Thursday, March 13, 2008.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

NOLAN COLEGROVE, SR.
    Mr. Colegrove. Thank you, Mr. Chairman. Good morning, 
members of the committee. My name is Nolan Colegrove. As you 
mentioned, I am the forest manager for the Hoopa Tribe and 
president of the Intertribal Timber Council here representing 
Indian Country in the name of BIA Forestry. Thank you for your 
help in the past. A year ago you helped us restore the $1 
million back to the Endangered Species program. That is helping 
us to revive some of our activities out at the field level.
    In 1991, the BIA ESA program was $1 million for spotted 
owl. Then additional listings came on for marbled murrelet. The 
funding reached $3 million in 2002. Since then the 
Administration though has cut that down until 2007 he restored 
it down to zero funding for field-level activities so there was 
nothing for the BIA. We do not understand why they do that and 
why they are so determined to cut the ESA. The United States 
has a trust responsibility for our lands and our resources but 
they still have not requested any, and we have urged them----
    Mr. Dicks. What do you use the money for?
    Mr. Colegrove. It is for mandated activities. When a tribe 
wants to do a project through the Bureau of Indian Affairs, you 
have to comply with NEPA, and ESA is a major component of that, 
and those mandates----
    Mr. Dicks. So you have to have a consultation under Section 
7?
    Mr. Colegrove. With the Fish and Wildlife Service and 
National Marine Fisheries Service so you have to go through 
the----
    Mr. Dicks. And the tribes do not have money to do that? 
That is what this money was used for was your efforts to comply 
with ESA on your tribal timberlands?
    Mr. Colegrove. Right, on tribal timberlands.
    In comparison, the BLM requests about $20 million. The Fish 
and Wildlife requests about $10 million, and some of that is 
used on tribal lands and stuff. If you are looking for a place 
to take it, I will give you a little hint. There is a good 
place to start. The tribes, this year the only pot of money 
they have is about $250,000 and that is really not going to go 
for any survey activity. It is going to go for some staff here 
at the D.C. office. The BLM request for ESA is about 8 cents an 
acre. To be fair, for tribes that would make the tribes on our 
56 million acres about 4.4 million. If that was restored and if 
there was money to find somewhere, we would ask that $2.2 
million be dedicated to bring the northern spotted owl and 
marbled murrelet effort back to its 2002 capacity. Those 
species are still listed and their management is still 
mandated.
    The second request I would like to make is the restoration 
of the $1 million to the Timber Harvest Initiative. This was 
started in the early 1990s and the initiative provided about 
$1.4 million to the Pacific Northwest regions to move timber 
into the market to partially offset the volumes that were 
reduced by the listing of the owl and murrelet. It has remained 
an important part of the Bureau's ability to administer the 
harvest in those regions, and the $1 million cut will reduce 
harvests by about 52 million board feet a year, significant in 
Indian Country. If the BIA cannot process that, tribal 
governments' revenues will fall. People will lose their jobs. 
Their mills may close. The forest health also deteriorates. So 
we ask that this committee again restore that $1 million to the 
Timber Harvest Initiative.
    Mr. Dicks. How much is in the budget for this?
    Mr. Colegrove. Right now in the Administration's budget, it 
is zeroed out for Timber Harvest Initiative.
    Mr. Dicks. So $1 million was all and that is gone?
    Mr. Colegrove. That is gone.
    Mr. Dicks. So it is zero?
    Mr. Colegrove. Zero.
    Mr. Dicks. Okay.
    Mr. Tiahrt. And again, the money that was in there was for 
compliance with the government----
    Mr. Colegrove. For government mandates.
    Next, we ask that $5 million be added to BIA Forest 
Development. Over the 6 million acres of trust commercial 
forest, there is a 1-million-acre backlog needing thinning and 
replanting. The BIA is not making any headway to reduce that 
backlog. These are the tribes' prime timber-producing lands and 
the BIA's failure to plant and thin directly reduces those 
lands' productivity and tribal prosperity far into the future. 
Over the past 13 years, two independent IFMAT reports document 
that the Bureau's forestry budget needs to be doubled and the 
$5 million for forest development would be helpful and a needed 
first step.
    Our fourth request is the full restoration of the land 
consolidation funding, $59.5 million. Indian land fractionation 
is a primary cause of the BIA administrative difficulties and 
will only get worse if not aggressively addressed and we do not 
know why the program should be eliminated. And to the best of 
our knowledge, tribes have not been contacted about any 
problems with land consolidation or any effort to find an 
alternative approach.
    Fifth, I am switching to fire. Please add $4.5 million for 
BIA preparedness. At the tribe agency level, preparedness has 
been eroding since the year 2000 and we believe that being 
proactive and adequately prepared up front will help diminish 
the severity and cost of wildfires.
    Mr. Dicks. And the lack of the thinning and all of that 
that you mentioned earlier, if that is not done in some areas, 
that makes the fires worse.
    Mr. Colegrove. Yes, the health of the forest gets worse and 
the forest becomes a tinderbox and unhealthy and lots of stuff.
    Last, we ask that our Indian Hot Shot Crews be funded out 
of suppression rather than preparedness. They are a national 
suppression resource serving all federal agencies and non-
federal partners and covering their costs out of BIA 
preparedness is an unfair burden to the Bureau and the tribes.
    So with that, thank you for your time.
    [The statement of Nolan Colegrove, Sr. follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Any questions?
    Thank you.
    Mr. Colegrove. I just want to add one more thing to the 
last presentation very fast is that I am a product of a JOM 
program about 25 to 30 years ago. It helped me go to school so 
I would like to put a plug in for that too.
    Mr. Dicks. All right. Thank you.
    Joseph J. Brings Plenty, Sr., chairman of the Cheyenne 
River Sioux Tribe. Welcome. We will put your entire statement 
in the record. It is good to see you again. You can summarize. 
You have five minutes.
                              ----------                              

                                          Thursday, March 13, 2008.

                       CHEYENNE RIVER SIOUX TRIBE


                               WITNESSES

JOSEPH J. BRINGS PLENTY, SR.
ELIZABETH HOWE
    Mr. Brings Plenty. Thank you. Good morning, Chairman Dicks, 
Ranking Member Tiahrt and honorable members of the 
subcommittee. Thank you for the opportunity to appear before 
this subcommittee to express the needs of my Lakota people and 
Cheyenne River Sioux Tribe. My name is Joseph Brings Plenty. I 
am chairman of the Cheyenne River Sioux Tribe. Allow me to 
express my appreciation for visiting South Dakota on October 9, 
2007, and meeting with several tribal members such as Robert 
Conoyer, the Yankton Sioux Tribe, Michael Janitor, who is 
chairman of the Lower Brew, John Steel Wallace, executive 
director, United Sioux Tribes. I wish to offer you and members 
of the committee an open invitation to visit South Dakota to 
meet with indigenous leaders of this nation.
    With regards to CRST TPA, the Committee on Natural 
Resources, Chairman Nick Rahall, issued a letter to 
Representative John M. Spratt, chairman of House Committee on 
the Budget, regarding views and estimates on the budget, 
concurred with Chairman Rahall the contract of Indian programs. 
Under Public Law 93-638, it is a great success. But we as 
tribes run programs with fewer resources. While funding for the 
Bureau of Indian Affairs has decreased, funding for the Office 
of the Special Trustee continues to spiral out of control. The 
office was set up to oversee trust fund management for reform 
throughout the department. It was never intended to administer 
Indian programs. In a move referred to as reorganization of the 
BIA, the Department unilaterally with no tribal consultation 
and virtually no Congressional oversight transferred numerous 
programs and almost $200 million out of BIA and into OST and it 
continues to increase budget authority. Many of the protections 
legislated for tribes by Congress or through the Bureau of 
Indian Affairs, for example, Schneider Act in 1921, authorizes 
regular appropriations for relief and distress and conservation 
of American Indians today. Aid to tribal governments for Tribal 
Priority Allocation, TPA, is an outgrowth of this legislative 
protection for Indians. I respectfully request an increase in 
TPA $10 million as requested for Cheyenne River Sioux Tribe in 
fiscal year 2009.
    Lastly, we respectfully request the fiscal year 2009 budget 
provide the Bureau of Indian Affairs with $2.274 billion in 
current budget authority which were enacted in fiscal year 2006 
levels for Indian programs. Moreover, we respectfully request a 
4 percent across-the-board increase to the Bureau of Indian 
Affairs, $2,365,240,800. It is requested for the Interior 
appropriations bill of 2009. In addition, the Bureau of Indian 
Affairs is currently undergoing another reorganization effort. 
I suggest this subcommittee consider funding a study for the 
National Academy of Public Administration to assess the 
organization and needs of the Bureau. The Bureau funded a study 
on itself in August 1999 which indicated significant material 
weaknesses in their agency. Seven hundred and fifty thousand 
dollars is requested to revise the study for fiscal year 2009.
    Cheyenne River Hospital, I must speak on healthcare. 
Cheyenne River, an independent study commissioned by the Indian 
Health Service in 2004, identified existing facility as having 
19 percent the need of size and 34 percent of the necessary 
staff to provide services for 11,583 tribal members. Urgent 
care patients wait in hallway for hours. We have our 200 
children who are born every year with no birthing unit or 
obstetrician on staff. These findings demonstrate the critical 
need to construct a new hospital facility, and short term to 
fund Cheyenne River Hospital, and $44,827,000 is requested to 
begin construction.
     A second healthcare issue is prairie dogs. In 2006, South 
Dakota Governor Rounds signed into law a South Dakota prairie 
dog program. Tribes are excluded. Rhapsody Journal states that 
South Dakota now has about 195,000 acres of prairie dogs 
outside Indian reservations. The tribes will come up with their 
own plan of dealing with the approximately 215,000 acres of 
prairie dogs on their land. In fiscal year 2003, Cheyenne River 
Tribe's prairie management was funded at $1.5 million. Cheyenne 
River prairie management program was cut in fiscal year 2007. 
One point five million is requested for fiscal year 2009.
    Indian reservation roads, IRR. Tribal roads are another 
critical infrastructure issue. The Cheyenne River 
Transportation Equity Act for 21st Century, TEA-21, Congress 
attempted to introduce increased funding levels.
    Law enforcement, another huge issue. The Department is 
responsible for public safety protection of residents of the 
Cheyenne River Sioux Tribe. The reservation law enforcement 
department is requesting $5,659,827 in fiscal year 2009 
appropriations. We have approximately 2.8 million acres, 96 
miles from department headquarters which makes it very 
difficult for response time for law enforcement officers to get 
to the locations and respond appropriately.
    I have with me 911 coordinator, which there are only two 
tribes in the United States basically at this point, that is 
coordinating these departments. I yield to her to give a short 
testimony.
    Mr. Dicks. Your time is expired. We will give you one 
minute, okay?
    Ms. Howe. My name is Elizabeth Howe. I am a member of the 
Cheyenne River Sioux Tribe. I am here today to ask for $640,000 
for my 911 program, 911 for emergencies. If you dialed 911 
before 2002 at Cheyenne River Sioux Tribe, no one would answer. 
The tribe took the initiative to go ahead, and we are the 
second tribe in the United States, like my chairman just said, 
to provide this for 18,000 residents on our reservation. We 
provide non-Indian and Indian service. We provide service to 
BIA law enforcement, fire, ambulance. We are dispatching 
basically for free for them. I need your help. My dispatchers 
are way overworked. I know that you visited our reservation. If 
you had choked, if you had been in an automobile accident, the 
dispatcher was under no obligation to answer the 911 phone. And 
also secondary----
    Mr. Tiahrt. Mr. Chairman, can I ask, how big is the area 
that you cover? You said 18,000 residents but it is over a 
large area, is it not?
    Ms. Howe. Two point eight million acres, sir.
    Mr. Tiahrt. So that is, what, like the size of Rhode Island 
basically?
    Ms. Howe. Yes.
    Mr. Tiahrt. And you have to cover all of that?
    Ms. Howe. Connecticut, yes.
    Mr. Dicks. And the State does not help you on this at all?
    Ms. Howe. No. The State receives property tax money to 
supplement their----
    Mr. Dicks. Have you looked at the Justice Department? Is 
there anything that you can get funded through the Justice 
Department?
    Ms. Howe. There are a few grants here and there but we need 
base funding. We need a 638 contract.
    Mr. Olver. May I ask a question?
    Mr. Dicks. Yes, Mr. Olver.
    Mr. Olver. I heard earlier the number 11,000 and then the 
number 18,000. Is the number of residents on the reservation 18 
or 11?
    Ms. Howe. Eleven is the tribal members.
    Mr. Olver. Tribal members?
    Ms. Howe. Yes.
    Mr. Olver. Enrollees?
    Ms. Howe. Yes.
    Mr. Olver. But you have 18,000 actually living on the 
reservation?
    Ms. Howe. Yes, that is non-Indian and Indian together.
    Mr. Olver. Is there a tribal college associated with 
Cheyenne River? You are right next to Standing Rock, are you 
not?
    Ms. Howe. Yes. I believe we have Ogallalas there. They have 
a secondary kind of sister college there and we also have 
Presentation College.
    Mr. Olver. Thank you.
    Mr. Dicks. Thank you.
    Mr. Brings Plenty. Also Chairman Dicks, I would like to say 
thank you for coming out to our reservation.
    Mr. Dicks. Yes I enjoyed that trip.
    [Statements of Joseph Brings Plenty and Elizabeth Howe 
follow:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>


    Mr. Dicks. Elbridge Coochise, Chief Justice, retired, of 
the Independent Review Team on Tribal Courts. Welcome.
                              ----------                              

                                          Thursday, March 13, 2008.

                INDEPENDENT REVIEW TEAM ON TRIBAL COURTS


                                WITNESS

ELBRIDGE COOCHISE
    Mr. Coochise. Thank you, Chairman. Good morning, Chairman 
and committee. Thank you for the opportunity to come before the 
Committee on Appropriations. We are addressing the fiscal year 
2009 budget under Public Safety and Justice in the BIA and the 
Department of the Interior, and first of all, I would like to 
thank you, Chairman, for your appropriations last year for 
additional money to the tribal courts. That is the first time 
in many years that there was any increase, and we appreciate 
that, and when you came to South Dakota and made that 
announcement, it was really pleasant.
    What we are asking in the 2009 budget, the President's 
budget proposed cut of $2.461 million, which includes that $2.3 
million that the committee appropriated last year, we would 
like to see that restored. Quickly numbers-wise, there are 156 
tribal courts that receive federal funds through the BIA 
Department of the Interior. There are 299 tribal court systems 
which includes CFR courts in Indian Country. And with the 558 
or so federal recognized tribes, you can see that only about 
half the tribes have their own court systems.
    The other request, the second and more important, is 
requesting on behalf of Tribal Courts additional new money of 
$50 million through the BIA Office of Justice Services Division 
of Tribal Justice Support. Our independent review team has been 
out reviewing tribal courts since fiscal year 2006. In 2006 we 
reviewed 25 courts, in 2007, two courts, and this year, seven 
courts, and we have not encountered any tribal courts that have 
sufficient funding from the Federal government. With that, we 
have found courts with as low as $12,000 per year to try to 
operate on, and it is highly unlikely that you have a good 
independent justice system when you do not have the--and with 
the budget increases for law enforcement, for the meth programs 
and detention issues, they all got increases and yet there are 
decreases in tribal court funding and all those entities, any 
arrest has to come through tribal courts. Any meth issues will 
have to be dealt with in tribal courts. And to get to 
detention, you have to get through tribal court system. So that 
is why we are making a request for and on behalf of tribal 
courts. And in our review process, the common denominator has 
been the lack of sufficient funding, including staff that are 
actually being paid lower than the income level, the poverty 
line. So with that, we had submitted last year, and I have 
another copy if you wish, the final report from the first 25 
courts, that we reviewed, and part of our testimony reiterates 
some of those same findings that we made in that first 25.
    And so with that, Chairman, we appreciate your support from 
the committee to address the funding shortages for tribes and 
their court systems, and if you have any questions--oh, I would 
like to introduce one of my colleagues on the team, Mr. Al 
Gonzalez.
    [The statement of Elbridge Coochise follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. No, we understand this is a shortage of funds 
and this is consistent with every other part of this budget. 
The thing that I want everybody to understand is, since 2001 
the Interior budget has gone down by over 16 percent, EPA 29 
percent, Forest Service 35 percent. And then this year between 
2008 and 2009, the President's budget cuts this area by $1 
billion so we can only do so much here because anything we add 
money to, we have to take it from somewhere else and we are 
scrubbing this budget to try to find places to do that but it 
is very difficult because these programs are all worthy 
programs. So, I just pledge to you that we will do our best 
with the resources we have. I think our allocation early on in 
the House will be good and we will be able to take care of some 
of these things, but at the end of the day we have to come down 
to the level of the President's budget to get a bill signed. We 
will be in deep trouble, I mean very serious problems.
    So I appreciate your good work and all the efforts you have 
made to evaluate the system, and we understand what is needed 
is additional resources and we will do our best.
    Mr. Coochise. Yes, and appreciate your considering, but 
again, if you increase the----
    Mr. Dicks. You are sitting here and you are hearing all the 
other needs are out there too: Education, housing, healthcare. 
I mean, you go right down the list. Every single area is 
underfunded.
    Mr. Coochise. Yes, and we support the increases for law 
enforcement and meth but it is not going to be dealt with 
unless----
    Mr. Dicks. The courts are there, unless you have a court 
system. We take that point. It is a serious point.
    Mr. Tiahrt.
    Mr. Tiahrt. No questions.
    Mr. Dicks. Clifton Skye, director of project management, 
the United Sioux Tribes Development Corporation. Welcome. We 
will put your statement in the record and you have five minutes 
to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

              UNITED SIOUX TRIBES DEVELOPMENT CORPORATION


                                WITNESS

CLIFTON SKYE
    Mr. Skye. Good morning, Chairman Dicks and Ranking Member 
Tiahrt and honorable members of this committee. I would like to 
thank you for the opportunity to appear before you here and I 
appreciate that you are submitting my testimony for the record.
    The United Sioux Tribes has four requests. Two of them are 
for the organization and two are for the U.S. Geological Survey 
and the Bureau of Indian Affairs for tribal stream gauge 
networks, and the other one is for the Bureau to restore the 
budget back to 2006 levels, and I understand the restraints on 
this body here regarding that.
    But before I continue, I would like to thank Members of 
Congress, this committee, the House and the Senate for 
authorizing legislation for Master Sgt. Woodrow Wilson Keeble, 
who won the Medal of Honor. The ceremony was held at the White 
House March 3. Master Sgt. Keeble won this during the Korean 
conflict and that man died January 29, 1982. At the same time 
that he was fighting in Korea, federal Indian policy was into a 
program for termination. This was between 1953 and 1964. The 
reason I bring that up is because the United Sioux Tribes is an 
organization that began out of that. It began in 1952 as a 
grassroots outfit that was organized to confront this policy.
    Mr. Dicks. Of termination?
    Mr. Skye. Of termination at the State level, and we were 
successfully able to prevent the State of South Dakota through 
a referendum, a successful public relations campaign, that 
prevented the tribes from coming under 280 law. Unfortunately, 
one of the members in Nebraska was able to get out of that in 
2006 and we were able to assist him in that effort.
    As far as other tribes that were affected, of course 
California and Minnesota and Wisconsin, my aunt was able to 
help the Menominee Tribe come out of the termination status in 
the Menominee Termination Act in 1954. Former President Nixon 
signed the Restoration Act in 1972.
    The importance of that is that the organization itself 
through the Wounded Knee incident in 1973 was able to get 
itself involved with the White House during those days. Out of 
that relationship with Erlichman and Haldeman, whose names are 
not very well thought of at that time, but we were able to put 
together a 638 law which is something that all the tribes 
benefited from nationally through basic tenets that we 
submitted to the White House and was later passed as the Self 
Determination Act.
    What we are asking for, for the organization, is to fund 
our EA, our Employment Assistance program. The EA provides job 
referral and job assistance to urban Indians. Sixty-four 
percent of Indians live off the reservation so it is an 
important program. The funding has always been about $450,000 
so its impact is in the regional area of North Dakota, South 
Dakota, Nebraska. But it is a national program. It has funded 
people beyond those borders. We have not been funded since 2006 
but if this committee finds funding for it, we are looking to 
leverage funds with the National Tribal Cultural Resources 
database. Now, it is hard to find vital statistics on tribes. 
The Reagan-era budget cuts eliminated a lot of those amenities 
for other federal agencies to provide that. So what we are 
looking for is $1.2 million for the National Tribal Cultural 
Resources database and we are also looking for $1.2 million for 
the Employment Assistance program.
    In addition to that, we are asking for $7 million for the 
Stream Gauge Network.
    Mr. Dicks. Yes, that is a very popular program. I think we 
will be able to help on that.
    Mr. Skye. And of course, we would like the Bureau funded 
back to its 2006 levels, and I thank you for your time.
    [The statement of Clifton Skye follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you very much. We appreciate your 
testimony.
    Any questions?
    Mr. Olver. I have one.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. Sir, the United Sioux Tribes Development 
Corporation, I think I understand that you operate in Nebraska, 
South Dakota and North Dakota. Do you represent all of the 
Sioux tribes in those three States?
    Mr. Skye. Well, the chairmen organized the corporation 
themselves back in 1952.
    Mr. Olver. Are all the Sioux tribes in those three States 
represented and served by the----
    Mr. Skye. Through the office of the chairman, yes.
    Mr. Olver. And are any tribes other than Sioux tribes 
involved in this development corporation?
    Mr. Skye. It is strictly Sioux.
    Mr. Olver. But you can operate throughout any of those 
three States?
    Mr. Skye. Right.
    Mr. Olver. Thank you.
    Mr. Dicks. Okay. Thank you very much.
    Roman Bitsuie, executive director of the Navajo-Hopi Land 
Commission Office. Welcome. We will put your entire statement 
in the record, and you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                   NAVAJO-HOPI LAND COMMISSION OFFICE


                                WITNESS

ROMAN BITSUIE
    Mr. Bitsuie. Thank you, Mr. Chairman. I have two members of 
the Navajo Nation Council that are out in the audience. Mr. 
Ramon Max and Mr. Elmer Pagaho are members of the Navajo-Hopi 
Land Commission.
    Thank you for this opportunity to provide testimony on one 
of the most vexing matters in modern federal Indian policy and 
a true tragedy for the Navajo Nation. I am the executive 
director of the Navajo-Hopi Land Commission Office, an entity 
of the Navajo Nation. I have spent my entire adult life working 
to resolve the Navajo-Hopi land dispute and the Bennett Freeze 
matters. The harsh impact of the federal action that created 
these two issues will be with the Navajo Nation for many more 
generations. Every day Navajo tribal members come into my 
office to tell me of the hardships that they have suffered 
because of the relocation law or the Bennett Freeze. For the 
first time ever, I have some good news to report, although I 
will again bring to the attention of the committee the need for 
additional resources to address the human toll of forced 
relocation of thousands of Navajo families as well as the 
Bennett Freeze. I also want to report on two positive 
developments which offer real hope for a brighter future of 
these families.
    First, the Navajo nation has begun development of the 
Paragon Resources Ranchlands in New Mexico. These lands were 
provided to the Navajo as part of the relocation law. The 
Navajo-Hopi Land Commission Office is developing large-scale 
renewable energy generating capacity on these lands. As a 
matter of federal law, the net income from the use of these 
lands will go exclusively towards addressing the impacts due to 
federal relocation law, creating a vital new source of funds 
that will be available to address the ongoing harsh impacts of 
the relocation law and the various construction fees. The 
Paragon Ranchlands have highly favorable characteristics for 
large-scale concentrating solar generating capacity. As a part 
of phase I development, we have already completed initial 
assessments and signed MOUs with two large solar companies. We 
ask that this committee help us help ourselves by providing 
$1.5 million for phase II of this project out of the budget of 
the Navajo-Hopi Indian Relocation Office which should be 
increased overall for this purpose.
    The second piece of good news is that all of the key legal 
issues between the two tribes have been fully resolved, leading 
to after more than 40 years the lifting of the federally 
imposed Bennett Freeze in the western portion of the Navajo 
Nation which has had no significant development for more than 
40 years. As a result of this construction freeze, the Bennett 
Freeze Navajos have become the poorest of the poor. In 2006, 
after a settlement agreement was reached between the Navajo and 
the Hopis, the freeze was lifted with most of the area having 
been found to belong to the Navajo Nation. For the thousands of 
Navajo families who live there, this means that the freeze 
served no real purpose other than to bring them misery and 
hardship. We ask that the committee support the lifting of the 
Bennett Freeze through establishment of the rehabilitation 
program for the Bennett Freeze area with a first year funding 
level of $10 million out of the BIA resources. After all, this 
was imposed by the Secretary of the Interior back in 1966.
    In conclusion, I urge the Congress to live up to its 
responsibility to the many people adversely affected by the 
land dispute and the Bennett Freeze in a way that is fair and 
humane and not let the costly mistakes of the past force a 
decision today that results in an even greater human toll.
    Mr. Dicks. Have you brought this to the attention of the 
Natural Resources Committee in the House and the Senate Select 
Committee on Indian Affairs?
    Mr. Bitsuie. Yes, we did that yesterday, Mr. Chairman.
    Mr. Dicks. That is good.
    Mr. Bitsuie. The Navajo Nation is willing and open to 
working with the committee to identify the most effective and 
practical ways of moving forward. I thank the committee for 
this opportunity to provide testimony on these matters.
    [The statement of Roman Bitsuie follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. We appreciate your good work and your commitment 
to helping resolve this very tragic situation.
    Mr. Tiahrt.
    Mr. Tiahrt. No questions.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. No questions.
    Mr. Dicks. Thank you.
    Mr. Bitsuie. Thank you.
    Mr. Dicks. Terri Weaver on behalf of the American Lung 
Association and the American Thoracic Society. We will put your 
statement in the record and you have five minutes to proceed.
                              ----------                              

                                          Thursday, March 13, 2008.

        AMERICAN LUNG ASSOCIATION AND AMERICAN THORACIC SOCIETY


                                WITNESS

TERRI WEAVER
    Ms. Weaver. Good morning, Chairman Dicks and members of the 
subcommittee. My name is Terri Weaver. I am the past chair of 
the National Board of the American Lung Association. I am also 
a past board member of the American Thoracic Society and I am 
grateful for the opportunity to provide a statement on behalf 
of the American Lung Association and the American Thoracic 
Society.
    What I would like to discuss with you today is the need for 
increased funding for EPA's fiscal year 2009 budget for its 
Clean Air program activities to improve public health and more 
effectively protect those with lung disease who suffer from the 
adverse effects of air pollution. We oppose the 
Administration's proposed budget cuts to Clean Air programs. 
The proposed budget cuts for fiscal year 2009 by the 
Administration would cut overall funding for goal one, clean 
air and global climate change, by $33.5 million. The biggest 
share of these cuts, $27 million, was for Healthier Outdoor Air 
programs. In light of the fact that the EPA has fallen behind 
on measures to reduce emissions that contribute to air 
pollution, the proposed cuts are really ill-timed and ill-
advised. We oppose the Administration's cut of $9 million to 
the Global Climate Change program. We know the health and other 
benefits achieved by reducing ozone and fine particulate air 
pollution are really quite large. In fact, the EPA conducted a 
study of the Clean Air Act from 1970 to 1990 and found that the 
benefits to health and the environment of this program was $22 
trillion. The Administration's budget cut then we feel, given 
the tremendous health and environmental benefits, is a classic 
example of pennywise and pound foolish strategy.
    We strongly recommend an increase in EPA's Clean Air 
budget. The National Ambient Air Quality Standards for ozone 
and particulate matter will require many measures by EPA and 
State and local pollution control agencies to design, adopt and 
enforce reduction programs that will lower mobile and 
stationary emissions. We recommend starting with a 10 percent 
increase, which is $64 million, in the Healthy Outdoor Air 
Program. We urge the subcommittee to request an assessment from 
EPA of the resources that it needs to properly implement the 
National Ambient Air Quality Standards. We support increased 
funding for State and local agencies. In fiscal year 2008, 
State and local agencies received section 103 and 105 grants 
from EPA totaling $185.3 million. The agencies have calculated 
based on their assessment that they need grant funds in the 
amount of $270.3 million. We support the increased funding for 
the same reasons that I have mentioned previously for EPA's 
Clean Air programs.
    We also request support and increased funding for DERA. We 
know that researchers have found that families that live in 
areas where there are busy roadways have increased lung disease 
and problems with lung health. Children are especially 
vulnerable who live very close to traffic-related air 
pollution. The EPA has provided for federal grants for diesel 
fleet replacement and retrofit programs pursuant to the Diesel 
Emission Reduction Act of 2005 called DERA. According to the 
OMB, this program to date has yielded one of the great cost-
benefit ratios of any Federal government program. The 
Administration's fiscal year 2009 budget contains funding for 
DERA at the same level appropriated by Congress in fiscal year 
2008, $49 million. However, we believe that the urgency of need 
and the proven effectiveness of this program justifies an 
increase in the level of funding for DERA to the full 
authorization which was set for DERA at $200 million per year.
    Again, I thank the subcommittee for the opportunity to 
appear today and discuss the funding needs of EPA's Clean Air 
programs. Thank you very much.
    [The statement of Terri Weaver follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. I just want to bring it to your attention that 
since 2001, EPA's budget has been cut by 29 percent, and we 
strongly support having more funds in this area. In fact, the 
budget allocation that we approved the last two years will 
provide that, but we get faced with a situation where at the 
end of the year the President says you have to come down to the 
level I requested or he will veto the bill, and there is no 
negotiation. I mean, this is just hard ball, and I think you 
are pointing out the price we pay, a huge price we pay for 
cutting these programs.
    Ms. Weaver. Well, we pay for it in the end.
    Mr. Dicks. Yes, we all pay for it in the end. Thank you 
very much.
    Ms. Weaver. Thank you.
    Mr. Dicks. Heather Taylor-Miesle is deputy director of the 
National Resources Defense Council. Heather, how are you?
                              ----------                              

                                          Thursday, March 13, 2008.

                   NATURAL RESOURCES DEFENSE COUNCIL


                                WITNESS

HEATHER TAYLOR-MIESLE
    Ms. Taylor-Miesle. A whole bunch of stuff, although Energy 
Star is more focused on in the written testimony of course than 
the oral.
    Thank you for the opportunity to testify. My name is 
Heather Taylor-Miesle. I am the deputy legislative director of 
the Natural Resources Defense Council. Every day we learn more 
about the ways in which global warming is already damaging our 
planet and its ability to sustain us. The U.N. 
Intergovernmental Panel on Climate Change, the IPCC, found that 
11 of the past 12 years are among the 12 hottest years on 
record. More wildfires, like the disaster that just hit 
California, more heat waves, more droughts and floods are 
predicted to occur as global warming continues unabated. Even 
our very own Centers for Disease Control, when not censored by 
the White House, calls global warming a threat to public 
health. Everywhere one looks, the impacts of disrupted climate 
are confronting us.
    First and foremost, NRDC supports those in Congress who are 
working to immediately authorize legislation that will cut 
global warming emissions by 80 percent by 2050. As we wait for 
the legislation to be finalized, the Appropriations Committee 
is in a unique position to be able to take action immediately 
to lay the groundwork for future policy and to put our country 
on a path toward a cleaner energy future.
    The Energy Security and Independence Act passed in late2007 
gave federal agencies several tools in which to address climate change. 
Although NRDC supports many programs in environmental agencies, today's 
testimony will focus on newly authorized programs that support a new 
renewable fuel standard, accelerate the use of carbon capture 
sequestration technology and help our land and health agencies address 
a newly evolving environment.
    First, NRDC urges the Appropriations Committee to provide 
$25 million in fiscal year 2009 for EPA to research, create and 
implement a renewable fuel standard. The oil that powers our 
vehicles accounts for two-thirds of our total oil use and 
generates one-third of the U.S. carbon dioxide emissions that 
cause global warming. Biofuels offer some hope but only if we 
create and implement regulations that are scientifically sound 
and sustainable. Reaching this goal will be no small task and 
will require that the EPA coordinate across federal agencies 
and in some cases with other countries. The regulations that 
they establish must take into consideration a huge laundry list 
of things that include everything from forestry and crop 
development, water quality, supply, pesticide use and disposal, 
soil erosion, habitat destruction, air pollution, public lands 
protective and invasive species. Once that regulation is done, 
they have to consider infrastructure associated with 
transportation and storage of new fuels and they have to take 
appropriate actions to ensure that there are no negative health 
and environmental impacts. This ambitious to-do list can only 
be completed with proper long-term federal investment.
    Next, NRDC urges the committee to consider adding an 
additional $5 million more to the President's request for the 
EPA to finish their proposed rules for regulating geological 
sequestration of carbon dioxide and $6 million for the 
Department of the Interior to carry out carbon dioxide 
sequestration capacity assessment. More than 50 percent of the 
electricity consumed in the United States is produced from 
coal. Coal has a high uncontrolled carbon dioxide emission rate 
and is responsible for 33 percent of the carbon dioxide 
released into the atmosphere. Coal gasification with carbon 
capture technologies is essential if continued use of coal is 
to be reconciled with preventing dangerous global warming. 
These technologies can present 1 billion tons of carbon dioxide 
from escaping from coal plants in the next 50 years but the 
technology must be regulated in order to ensure that 
sequestration is done in a safe and effective manner. These 
funds will help the agency finalize this important rule and 
will provide them with a map in which to get the technology off 
the ground.
    And finally, environmental agencies are facing a new 
challenge that they have never encountered before due to global 
warming. It is imperative that the Department of the Interior 
receive $15 million to incorporate climate change 
considerations into their resource management planning process 
and the Center for Disease Control and Preparedness receive $20 
million to address health impacts of climate change. These 
agencies are literally on the front lines of global warming and 
their meager resources are not keeping up with the demand of a 
totally new problem.
    The latest IPCC report predicts an increase of as much of 
12 to 13 degrees in the United States by 2100. An upcoming 
report by several prominent think tanks and universities will 
project the cost of inaction to be about $1.9 trillion annually 
in the same time period. This relatively small federal 
investment now can help us start to address climate change and 
avoid some of the enormous costs in the future. Thank you.
    [The statement of Heather Taylor-Miesle follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, one of the things you mentioned here about 
carbon dioxide sequestration capacity assessment, I have been 
in talks with Mark Myers at the USGS. He says that we have very 
little science about how we are going to do this except on oil 
and gas lands, that there we have some understanding of how 
putting this carbon dioxide into the ground is going to work, 
but there is very little real scientific information about how 
you do this in other areas which are not oil and gas lands, so 
I think you have touched on something. We think we are just 
going to go do this and there are going to be a lot of issues 
about how do you do this and we have to do it. So----
    Ms. Taylor-Miesle. And we keep hearing from Congress that 
coal, coal, coal is going to be a part of this and we have to 
accept the realities in the environmental community, at least 
this is what I have been told, that coal is going to be a part 
of us becoming more energy independent and therefore we are 
going to have to address it in the context of climate change, 
and I think the technology that is possible through coal carbon 
sequestration is going to be really important and we have to 
make sure that we do it the right way, though. That is our big 
thing.
    Mr. Dicks. Last year we had a hearing with the federal 
agencies. They came in and told us about what they see on the 
ground already in terms of the impacts of climate change, so 
there is a lot more going on with the scientific level and the 
agencies than sometimes people think.
    Ms. Taylor-Miesle. Absolutely.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Yes. Thank you, Mr. Chairman.
    I think that there is a lot of science out there that we 
have not addressed yet and I think we ought to have a hearing 
about it. For example, in Arizona, there is a plant that burns 
coal to generate electricity but they recycle the carbon. They 
use it to create algae. It is just an experimental project now 
but they grow algae and use the carbon and algae to burn again 
to create more electricity and then they again grow some more 
algae and so they are recycling the carbon. It is a form of 
sequestration in that it does not get out in the atmosphere but 
it is new technology that we are just seeing. We are worried 
about burying it in the ground or inserting it back into the 
ocean or something like that for sequestration but probably the 
best solution is recycling it.
    Ms. Taylor-Miesle. There are a lot of exciting technologies 
out there that we can look at through science but it is 
important to note that the environmental agencies are operating 
at a funding level that is the equivalent of levels that they 
received in 1985. So the research that needs to happen in the 
environmental agencies is enormous and they need the federal 
investment in order to find those creative new ways to make 
sure that we can address global warming.
    Mr. Dicks. Mr. Udall.
    Mr. Udall. Let me say I agree with you. Do you have any 
sense on what you think is the magnitude of investment that 
needs to be made in areas like carbon sequestration and those 
kinds of areas? I mean, some people have said with carbon we 
should be investing $1 billion a year for the carbon and coal 
and sequestration, $1 billion a year for the next five years to 
find out if we are going to be able to use our coal or not, so 
that would give us an indication of which direction we should 
move in. Do you have any recommendations?
    Ms. Taylor-Miesle. You know, we would have loved to come in 
and make those kinds of requests but of course I think that the 
chairman might have laughed at me.
    Mr. Dicks. But we did add $5 million last year for the work 
on this.
    Ms. Taylor-Miesle. Yes, you did.
    Mr. Dicks. So we know this is a problem and we also have a 
center at the U.S. Geological Survey for the impact on 
wildlife. People have not thought about the consequences to 
wildlife. We know about the polar bear and other species on our 
own lands here in the United States and of course the polar 
bear is part of that in Alaska.
    So thank you very much. We appreciate your testimony.
    Ms. Taylor-Miesle. Thank you.
    Mr. Dicks. Bill Becker, executive director of the National 
Association for Clean Air Agencies. We will put your entire 
statement in the record, and you have five minutes to 
summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

              NATIONAL ASSOCIATION FOR CLEAN AIR AGENCIES


                                WITNESS

S. WILLIAM BECKER
    Mr. Becker. Thank you, Chairman Dicks. Good morning, 
Ranking Member Tiahrt. I am Bill Becker. I am the executive 
director of the National Association of Clean Air Agencies. We 
are an association representing 53 States and territories and 
more than 165 local air pollution control agencies around the 
country. These agencies are directly responsible for protecting 
the health and welfare of citizens in every State of the 
country.
    Today there are more than, according to EPA statistics, 
20,000 to 40,000 people who die every year from air pollution. 
Twenty thousand to 40,000 people die every year from air 
pollution in this country. Millions live in areas exceeding the 
health-based air quality standards for smog or fine particulate 
commonly referred to as soot and/or live in areas where 
exposure to toxic air pollution exceeds what EPA believes is an 
acceptable threshold. And of course, we must attend to the 
pervasive haze problem threatening not only our national parks 
but most other regions of the country.
    As you know, Mr. Chairman, State and local air pollution 
control agencies in every State in this country receive grants 
under sections 103 and 105 of the Clean Air Act to help their 
implementation programs so that they can mitigate these 
problems. These agencies use these funds for people and 
equipment, for developing emissions inventories, for adopting 
regulations, drafting State implementation plans, monitoring 
enforcement, permitting. The list goes on. These grants are 
their lifeblood. The President for the----
    Mr. Dicks. Do the States put up any money or the local 
government?
    Mr. Becker. Yes. Well, it is interesting that you ask. The 
Clean Air Act requires EPA to put up 60 percent and the States 
to put up 40 percent. Over the past probably 10 to 15 years, 
the States have put up close to 75 percent and the Federal 
government only 25 percent, and that gap has widened.
    Mr. Dicks. Every year.
    Mr. Becker. Every year.
    The President for the third straight year has proposed 
devastating cuts to the State's grants program. In fiscal year 
2009, the President has proposed cutting our grants by $31.2 
million, or over 15 percent of the total funds we receive from 
Congress. That is 15 percent. Last year you were gracious, Mr. 
Chairman, in restoring these cuts and all of my members want to 
thank you very much for that. That was very helpful.
    Our request this year is that you not only restore the 
$31.2 million cut in the President's budget but you also 
provide an increase of approximately $50 million, which is a 
fraction of what is actually needed to protect the health and 
welfare of people in every State in this country, and I want to 
quickly break these two requests down.
    First, restoring the cuts. We have analyzed the impacts of 
these cuts State by State and we found that if these cuts go 
through, agencies will have to lay off valuable staff or leave 
current vacancies unfilled. Many agencies would be forced to 
shut down their monitoring networks and curtail important 
monitoring programs. Inspection and enforcement programs would 
be impaired. Some local agencies would need to be closed and 
regional planning organizations would not be able to deliver 
important technical services to their constituencies. So 
clearly we need that money restored.
    Secondly, what would we do with the additional $50 million? 
Today State and local agencies face many new and important 
challenges and among them are the following. We are smack dab 
in the midst of developing State implementation plans for haze, 
for ozone, or smog, and for fine particulate, or soot. These 
activities which we describe in our testimony are time 
consuming, they are labor intensive and they are very costly. 
Additionally, as recently as yesterday, EPA has tightened its 
health-based air quality standards, yesterday for ozone, less 
recently for fine particulate. And we will need to expand our 
monitoring capacity, both people and equipment, to address 
those new standards. And we will also need to regulate 
thousands of smaller sources of pollution, meaning, among other 
things, hazardous air pollutants, and the list goes on.
    Let me close with two final comments. First, we are part of 
an important coalition of over 200 industry, environment and 
health groups and State and local agencies who are not only 
supporting our request for increased funding for State and 
local air pollution control agencies but also supporting $70 
million for diesel retrofit projects under the Diesel Emission 
Reduction Act. I know you are familiar with the program and the 
ALA representative also supported that. And secondly and 
finally, we are concerned, irrespective of how much money you 
give us, that EPA has begun to earmark our grants for purposes 
that they, not State and local agencies, believe are important. 
Recently in discussing the fiscal----
    Mr. Dicks. So they are taking money out of 103 and 105 and 
then saying it has to be used for this purpose?
    Mr. Becker. Correct. And to your all's credit, the 
Appropriations Committee in the past several years ago had 
admonished EPA about this and they seem to have forgotten this 
instruction, and it has become a very significant issue this 
year. We have better purposes for spending the money than they 
have outlined for about maybe $5 to $10 million and it would be 
very helpful if you could provide some guidance in your 
legislation to address this problem.
    Thanks again for your help last year and we hope you can 
help us again this year.
    [The statement of S. William Becker follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    From your title, you are a national association. Have you 
worked internationally at all? Because China now surpassed us 
last year as a leading contributor to not only carbon but also 
pollutants. Every five days they open a new old-technology 
coal-fired electrical generation plant and it seems like all 
this stuff that we are doing is going to be undone in a matter 
of months. So is there any effort to extend beyond the 
boundaries of the United States and try to bring the 
international community into some form of standard or 
compliance?
    Mr. Becker. Well, our association is consisting primarily 
of State and local and territorial air pollution control 
agencies. However, we are very much aware of the international 
problem. We attend all the international conferences. We are a 
small staff but some of our members go, and we and many other 
State officials are trying to work internationally to address 
this, but you are absolutely right. Both the developed and the 
developing countries need to do more to address this problem 
and we cannot do it alone. We would say the domestic response 
should not be conditional on China and others acting. We need 
to show leadership, but they do need to do their fair share.
    Mr. Tiahrt. We do need to bring them along.
    Mr. Becker. I agree.
    Mr. Dicks. All right. Thank you very much.
    Mr. Becker. Thank you.
    Mr. Dicks. Next we have Dr. Soliman, the Association of 
Minority Health Professions Schools.
                              ----------                              

                                          Thursday, March 13, 2008.

           ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

MAGDI SOLIMAN
    Dr. Soliman. Mr. Chairman, committee members, thank you 
very much for giving me the opportunity to come and testify 
today in front of you. My name is Magdi Soliman. I am a 
professor of toxicology and director of the graduate programs 
at Florida A & M University. I am also the program director of 
the environmental health research program at the Association of 
Minority Health Professions Schools.
    The AMHPS, or Association of Minority Health Professions 
Schools, is a consortium of 12 historically black health 
professions schools. Collectively, we have educated nearly 50 
percent of all the Nation's African-American physicians, 60 
percent of its African-American pharmacists and 80 percent of 
its African-American veterinarians. Since 1992, AMHPS had a 
cooperative agreement with the Agency of Toxic Substance and 
Disease Registry to study the impact of the toxicity of 12 
priority hazardous substances. The main objective of this 
cooperative agreement is to understand the linkage between 
exposure to these hazardous substances such as lead, zinc, 
mercury and manganese on the negative health impacts. The idea 
was to try to fill in very important data gap in the scientific 
knowledge about the toxicity of these hazardous substances. By 
trying to fill in these important data gaps, we will be able to 
contribute in decreasing the uncertainties of public health 
assessment and providing the most effective measures to prevent 
or mitigate the human health effect of these toxic substances. 
This research has produced an impressive body of knowledge 
which has been reported in more than 120 presentations at 
scientific national and international meetings as well as more 
than 80 manuscripts published in very renown, prestigious peer 
review journals.
    An additional benefit of this cooperative agreement is the 
training of minority students in the areas of toxicology and 
environmental health. We have trained not only graduate 
students but also professional medical, public health and 
pharmacy students. We have also recently produced a document 
detailing all of our accomplishments for the past 15 years of 
this cooperative agreement. This cooperative agreement with 
ATSDR should continue to allow AMHPS to apply findings of the 
previous 15 years of environmental health research to improve 
public health, especially in low-income underserved and 
minority communities.
    I come to you today to respectfully request that this 
subcommittee fully fund this cooperative agreement at the level 
of $5 million per year. In fiscal year 2003, we were funded at 
$4 million. Our funding, however, in the last years has not 
been that robust. It actually has been decreased considerably.
    Mr. Dicks. Have you tried to apply to EPA for----
    Dr. Soliman. We are applying with ATSDR. It is a 
cooperative agreement with ATSDR.
    Mr. Dicks. All right.
    Dr. Soliman. And like I said, we have been cut drastically 
in recent years. However, due to the commitment of our member 
institutions, we are continuing to provide the research in a 
very good way and try to do world-class research. However, we 
find that this is straining the resources of our institutions 
and we find it very increasingly hard to produce first-class 
research on a very low budget.
    Therefore, in addition to the $5 million for our 
cooperative agreement, we request that you also fund the ATSDR 
with CDC at the level of $85 million per year, an increase of 
about $10.9 million in fiscal year 2008. This is a very small 
investment in view of the fact that this research will 
increasingly help the society to deal with some of the 
environmental health problems that we are seeing today. The 
increased need is not only to fund our agreement but also to do 
additional research. As you very well know, recently CDC report 
described potential health threats that are near the 26 
polluted Great Lake areas. Also, we cannot forget the effects 
of Hurricane Katrina and we really need to assess the 
environmental impact of this hurricane and its effect on 
environmental health.
    [The statement of Magdi Soliman follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you very much.
    Dr. Soliman. Thank you very much for your time.
    Mr. Dicks. Brian Pallasch, American Society of Civil 
Engineers. Welcome.
                              ----------                              

                                          Thursday, March 13, 2008.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

BRIAN PALLASCH
    Mr. Pallasch. Thank you. Mr. Chairman, Congressman Tiahrt, 
good to see you again. Members of the subcommittee, I am Brian 
Pallasch. I am the managing director of government relations 
and infrastructure initiatives for the American Society of 
Civil Engineers. I am pleased to be here today on behalf of 
ASCE and to discuss key components of the Environmental 
Protection Agency's budget and the USGS budget for fiscal year 
2009.
    In the EPA's budget, ASCE urges among other things that the 
subcommittee fund the Clean Water State Revolving Loan Fund 
Program at $1.5 billion for fiscal year 2009. Last year you 
were able to provide $689 million. Unfortunately, that was a 
reduction of $395 million, or 36 percent, from the fiscal year 
2007 level. It was the lowest federal commitment to the fund in 
more than a decade.
    Mr. Dicks. What do you do with their argument? The EPA 
argues that the States have enough money now in their revolving 
funds and they can revolve and take care of the problems that 
are needed in each State. How do you deal with that?
    Mr. Pallasch. Well, you counteract that with the fact that 
the EPA's own gap analysis which they do over time says that 
there is about $390 billion in needs out there in the 
wastewater area to replace the infrastructure, and admittedly, 
the Federal government does not pay for all of these needs and 
the State and local governments, in fact, the utilities pay for 
90 percent of that activity.
    Mr. Dicks. There is very little outright grant money.
    Mr. Pallasch. Absolutely. This is primarily a loan program. 
That is correct. So it is all repaid into the system.
    Mr. Dicks. And so in many areas of the country, it is very 
difficult to do these projects because you have to pay back the 
loans so the ratepayers have to pay the rates and if it is too 
high, they will not do the projects. They are politically 
unsustainable.
    Mr. Pallasch. It becomes a difficult process, yes.
    The President's budget unfortunately this year continues 
this, if you will, retreat by proposing a budget of $555 
million for the State Revolving Loan Fund and again that is 
just a further reduction from what you all were able to do last 
year.
    I talked about the EPA gap analysis that put the needs at 
$390 billion. ASCE does a report card, as you are well aware. 
In 2005 we did a report card for American's infrastructure. 
When we talk about the needs and the shrinking federal 
investment, we gave wastewater systems a grade of a D minus, 
not a very good grade, sir. Meanwhile, the funding levels 
continue to go down.
    The other area within EPA is the Safe Drinking Water Act 
State Revolving Loan Fund. Those dollars have remained 
relatively constant. We feel the subcommittee should 
appropriate $1 billion for the Safe Drinking Water Act State 
Revolving Loan Fund in 2009. This would be a modest increase of 
$150 million. The President's budget is at $850 million in 
fiscal year 2009. He has maintained that budget for a number of 
years. And this is necessary to continue to provide funding for 
critically needed upgrades to the Nation's 54,000 water 
systems, not to mention some of the mandates that have been put 
on them by EPA to get the contaminants out of the water.
    With regards to the U.S. Geological Survey----
    Mr. Dicks. Now wait a minute. You have another gap here of 
$151 million on drinking water. Those are not part of the 390.
    Mr. Pallasch. Correct. Drinking water has a similar gap, 
correct.
    Mr. Dicks. A hundred and fifty-one million.
    Mr. Pallasch. It should be billion, I think.
    Mr. Dicks. Billion. Excuse me.
    Mr. Pallasch. We talk in billions usually on 
infrastructure.
    Mr. Dicks. So this is well over half a trillion?
    Mr. Pallasch. That is correct, sir.
    And we are working with Mr. Oberstar and Mr. Blumenauer to 
come up with some more different ways to fund this rather than 
just straight out of the federal budget as a general 
appropriation.
    With regards to USGS, as you know, the mission is to 
collect and analyze and disseminate geological, topographic and 
hydrologic information that contributes to the wise management 
of the Nation's natural resources and promotes the health, 
safety and welfare of folks. USGS received a little over $1 
billion last year. That was the first year you were able to do 
that and we strongly support that, and thank you for those 
efforts. This year the budget has been proposed at about $968.5 
million, which is a modest decrease of $38 million. However, 
our concern is the largest reduction is going to come in the 
agency's water resources budget, which is proposed for about 
$140.7 million, which is down from $151.4 million in 2008. Part 
of this a decrease in the National Water Quality Assessment 
Program, which would take a cut of $10 million, which is a 15 
percent reduction. This program collects long-term data on 
groundwater quality and drinking water supplies. The reduction 
will effectively eliminate the assessments of water quality at 
10 of the Nation's 20 largest aquifers and end the assessment 
of drinking water quality at almost 200 community water systems 
in California, Arizona, Utah, Massachusetts, New Jersey, 
Louisiana and Alabama.
    We recommend that the subcommittee restore the budget for 
the National Water Quality Assessment Program to the fiscal 
year 2008 level to avoid the loss of this cortically important 
water quality data. I have heard others today mention the 
Stream Flow Information Program. We are pleased with the budget 
increases that were received last year. There is a small 
increase in the President's budget this year up to $23.8 
million, up from $20.1 million. This new money will allow USGS 
and other agencies to continue operating almost 200 stream 
gauges in 31 States, and that has provided about 70 years' 
worth of data in some of these areas.
    Last but not least is the Earthquake Hazard Reduction 
Program. ASCE is concerned that the President's request in 
fiscal year 2009 for the program is at $53 million, which is a 
$5 million cut from 2008 and it is about $2 million below the 
fiscal year 2007 level. This component at USGS was authorized 
in the bill at $88.9 million. I know you know about 
earthquakes.
    [The statement of Brian T. Pallasch follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Yes, in the Northwest we have our share. Thank 
you.
    Mr. Tiahrt. Mr. Chairman.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. I am a little curious why when we have a loan 
fund that always costs us money, but when the banks loan money 
it does not cost us money. It seems like to administer the 
loans, we pay a lot of money and it seems like with the 
interest they ought to pay for themselves. So I am a little 
curious how that works. I also note that Brian has been very 
active in raising money for a lot of good charities through a 
basketball game they play once a year, and I played in that 
basketball game and I think he has actually blocked my shots 
and I want to register a formal complaint.
    Mr. Pallasch. I may have. And I believe, Mr. Chairman, we 
actually won this year, which one out of nine is not so bad.
    Mr. Tiahrt. You did win, and it was fair and square.
    Mr. Dicks. Thanks for coming in.
    Debrah Marriott, executive director, Lower Columbia River 
Estuary Partnership, Association of National Estuary Programs. 
Hi, Debrah. How are you?
    Ms. Marriott. Well, thank you. How are you, sir?
    Mr. Dicks. I am holding up, all this bad news.
                              ----------                              

                                          Thursday, March 13, 2008.

                ASSOCIATION OF NATIONAL ESTUARY PROGRAMS


                                WITNESS

DEBRAH MARRIOTT
    Ms. Marriott. Thank you. Good morning, Chairman Dicks, 
Ranking Member Tiahrt and members of the subcommittee. My name 
is Debrah Marriott. I am the executive director of the Lower 
Columbia River Estuary Partnership in Oregon and Washington, 
and I am here today representing the Association of National 
Estuary Programs. I thank you very much for the opportunity to 
speak with you this morning. I do have to say, my 11-year-old 
was giving me speaking prep last night and he suggested I 
smile, look you in the eye but not smile so hard I made you 
giggle, so I will try really hard not to make you giggle, 
although you might need it.
    We appreciate very much your continued support of the 
National Estuary Program. Last year you invested $600,000 in 
each of the 28 programs, helping to restore and protect some of 
our most threatened and economically vital bays and estuaries. 
We include 42 percent of the Nation's shoreline and over 50 
percent of the Nation's population lives in our coastal areas. 
These areas are huge recreation and cultural draws. They are 
transportation hubs and sources of major commerce. Their 
fishing industry alone equals about $1.9 billion nationwide.
    In 1987, you took a very bold step creating the National 
Estuary Program to protect and restore these estuaries and 
their economic, environmental and cultural importance. You 
asked at that time that there be no federal cookie cutter 
approach, no exhaustive planning. You wanted us to be locally 
driven, to cross political boundaries, to work with diverse 
parties, use science and to get actions on the ground. You 
asked us to empower citizens in our local communities to take 
responsibility and to be accountable to you and to future 
generations. We each developed action plans with very specific 
environmental targets and we are now implementing them.
    Twenty-one years later, you only have to look around the 
Nation's coast to see that you did the right thing. Every NEP 
is giving you environmental results from Casco Bay, Maine, who 
has reduced bacteria levels and opened thousands of acres of 
shellfish beds, to Sarasota Bay, Florida, which has reduced 
nitrogen loading inputs by 50 percent, to our home base in the 
Columbia River where we have restored over 4,000 acres of 
habitat for threatened and endangered species. We have engaged 
14,000 citizens planting and restoring at 18 sites. We have 
engaged 81,000 children in our applied learning programs, 
helping Oregon and Washington teachers meet their benchmark 
requirements. Nationally, the 28 programs have restored over 1 
million acres of habitat.
    Something else has happened also along the way. All those 
partners, all that collaboration has brought you a great deal 
more money for your investment. For every dollar you have given 
us as National Estuary Programs, we have given you 16 back. We 
have raised 16 additional dollars----
    Mr. Dicks. For every dollar?
    Ms. Marriott. For every dollar, showing a very real 
commitment at the local level by citizens from the public 
sector, the private sector, corporations and even some kids 
donating their bottle-return money to us a few years ago. In 
the Columbia River, we have raised $20 million new cash to 
communities, thanks to your NEP funds. We give 90 percent of 
that back to our local communities for them to do restoration 
projects, toxics reduction projects and the outdoor education 
for kids. We are aiding resolution of public health issues, 
environmental health issues and economic issues.
    The per-program minimum you set for each NEP is critical. 
It guarantees that the funds go to the local 28 programs, the 
local districts, getting you the results and leveraging our 
funds. In the Columbia River, we are using the additional funds 
you gave us this year to host more pesticide take-back programs 
to get thousands of pounds of DDT out of barns and garages. One 
site was held upriver above Bonneville Dam recently. It cost 
$30,000 to host the site. They took 17,000 pounds of DDT out of 
garages, so it is still out there, fortunately not in the 
water.
    Would we like more? Well, absolutely. After listening 
today, you have some amazingly difficult decisions ahead of 
you. But there is a lot more to do. In the Columbia River, we 
have lost 300,000 acres of habitat since 1880. There is no 
monitoring of toxic contaminants. We know they are in the 
sediment, the fish tissue and the water but we do not know 
where they are coming from or where they are moving. We know 
some of these contaminants are actually altering the 
chromosomal makeup of fish within their lifetime, changing 
males to females within their own lifetime. And of the children 
we do reach, it is only 6 percent of the kids in our school 
districts, and one of our school districts has dropped science 
from its curriculum to focus on math and reading scores.
    The urgency has never been greater.
    Mr. Dicks. No Child Left Behind.
    Ms. Marriott. Something like that.
    The Joint Oceans Commission has said that the oceans and 
marine resources of the Nation are in serious trouble. In the 
Columbia River, we have 12 threatened and endangered species of 
salmon. Our Native American populations consume those fish at 
nine times the rate of other populations. And as I said, the 
toxics in the system are increasing and moving and changing.
    We appreciate very much your efforts. We know that the 
decisions in front of you are monumental. We can promise you 
that we will continue to work your money as hard as we have. We 
will continue to leverage them. You have 21 years of evidence, 
28 great examples around the country, assuring you that your 
investment is in fact cleaning our Nation's waters and 
restoring our habitat. In the Columbia River, we like to say 
that the stewardship we build lasts a lifetime.
    We thank you for the opportunity----
    [The statement of Debrah Marriott follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, we appreciate what you are doing, and I 
must say, Puget Sound, you know, the second largest body of 
water in the United States, was only getting $600,000. I mean, 
I cannot imagine how much good you do with so little money. I 
just hope you can continue to fix this until we can hopefully 
get back into a financial situation where we can do more for 
these programs. I really think this is one of the best programs 
we have and it is just woefully underfunded. I mean, you have 
the Tampa Bay, you have got the Narragansett. You can just go 
down the line of all these estuaries. They are huge bodies of 
water with all kinds of local support for this and we are doing 
$600,000.
    Ms. Marriott. Well, we appreciate that. We obviously hope 
there is more but that $600,000 is sort of the----
    Mr. Dicks. It is critical.
    Ms. Marriott. Bottom of the pyramid that teeters, so thank 
you for that.
    Mr. Tiahrt. In your district in southwest Washington and 
northwest Oregon, what is the farthest east you go?
    Ms. Marriott. Mr. Chairman, Representative Tiahrt, we work 
from Bonneville Dam, which is about river mile 146 on the 
Columbia out to the Pacific Ocean. We cover 31 communities in 
Oregon and Washington. Thank you very much.
    Mr. Dicks. We are also trying to do a lot of the Mitchell 
Act hatcheries and trying to reform the hatcheries and I know 
you are getting some help probably from the Salmon Recovery 
Fund.
    Ms. Marriott. A little bit.
    Mr. Dicks. Well, they cut that in half too so we have to 
try to get that restored.
    Ms. Marriott. Thank you very much, sir.
    Mr. Dicks. Thank you for your good work.
    Sue Gunn, Washington State representative on behalf of the 
Washington Watershed Restoration. How are you, Sue?
    Dr. Gunn. I am doing pretty good, Mr. Dicks.
    Mr. Dicks. Welcome.
                              ----------                              

                                          Thursday, March 13, 2008.

              WASHINGTON WATERSHED RESTORATION INITIATIVE


                                WITNESS

SUE GUNN
    Dr. Gunn. Good morning, Mr. Tiahrt. Good morning, Mr. 
Hinchey. It is nice seeing you all again.
    I would like to thank you for continuing this lovely 
opportunity for the public to testify. It is noble of you to do 
this for two days. I am testifying today as a Washington state 
representative for Wild Lands CPR. It is an organization that 
works to revitalize wild lands and we are based out of 
Missoula, Montana.
    But I am also speaking today as a coalition director for 
the Washington Watershed Restoration Initiative and we are here 
to thank you for two things, one, for your leadership over the 
last decade in watershed restoration and salmon recovery, and 
also for the $40 million that was provided last year for the 
Legacy Roads and Trails Remediation Initiative. That funding is 
incredible for our problems in Washington State and also it 
complements the work that is being done with Puget Sound 
Restoration Initiative because this way we can clean up the 
water quality at the upper end of the watershed and complement 
the work being done at the base of the watershed. It is also 
important nationally to bring down the backlog in Forest 
Service road maintenance.
    So this year we would like to repeat our request from last 
year for $30 million for Washington State and also ask for $75 
million for the Nation because for Washington State to get a 
portion, the Nation needs to get their share. Washington has 
22,000 miles of roads, and in 2000 there was a MOA created with 
the State and the Forest Service because of violation of the 
Clean Water Act. In 2005, they said that the cost would be $300 
million to address the roads problems and at the rate of 
funding it would take 100 years to do this. We are hoping that 
maybe it will only take a decade at $30 million annually.
    We also have an annual maintenance problem for which we are 
appropriated $3 million but our need is about $11 million, so 
as you can see, each year we go further and further into the 
hole, and with the powerful storms that are coming through 
every winter, in 2006 and 2007 we saw $40 million worth of 
additional damage so our backlog for roads maintenance just 
increases annually, and this reflects that is happening at a 
national level. There are 380,000 miles of roads in the Forest 
Service and estimates range between $4.5 billion and $8.3 
billion to address the backlog, depending which administration 
did those numbers.
    So we would like to suggest that addressing this backlog 
and the recommendation that the Forest Service has made to 
decommission nearly half of their roads is important for water 
quality, improved habitat, connecting fragment to the 
ecosystems. And I have to tell you, this funding has struck a 
chord across the Nation and you are going to see organizations 
from many western states make requests of their delegation to 
continue this funding this year and in the future because----
    Mr. Dicks. You also have to make a request of the 
Administration and the people who are not putting the money in 
the budget so that we can deal with these problems. That is the 
big problem. If the money was in the budget, we could do 
something but the President cut this whole budget by $1 billion 
below last year's level, and we should have gotten a $600 
million increase to stay at the current services baseline. So 
that is a $1.6 billion gap right there. And the Forest Service 
has been cut by 35 percent without Fire. If you put Fire in, 
Fire has gone from 1991 at 13 percent to 48 percent of the 
budget. And in the Forest Service, you do not go to FEMA when 
you have one of these great big fires like everybody else does 
in disasters. They borrow the money from all these accounts. So 
what is bad even gets worse because sometimes that money does 
not get paid back. So it is an unbelievable problem. We had $40 
million in there for the whole country under this Legacy Roads 
Program and Washington State got a small amount of that. I 
mean, the Forest Service, what can they do? They do not have 
the money.
    Dr. Gunn. I know.
    Mr. Dicks. I hate to say it, but maybe you guys are going 
to have to sue the Forest Service, and maybe you will have to 
take them to Court.
    Dr. Gunn. Yes.
    Mr. Dicks. And get a legal decision on this. I do not know 
how else we are going to get the money.
    Dr. Gunn. I would certainly----
    Mr. Dicks. The next Administration is going to be a lot 
more generous than the one we have.
    Dr. Gunn. Yes, I would agree, and you know, the tribes just 
won a case against the state on culvert repairs so maybe the 
tribes would join us in a suit against the feds.
    Mr. Dicks. I, you know, I do not know how else we are going 
to get there.
    Dr. Gunn. Yes. Well----
    Voice. Next year.
    Dr. Gunn. Next year.
    Mr. Dicks. We hope so.
    Dr. Gunn. New leadership and maybe your bill will pass with 
Mr. Rahall.
    Mr. Dicks. Yes. Yes. That is right. We are working on that.
    Dr. Gunn. Yes. I understand that.
    Well, I would like to just close by saying that this 
funding is needed. It has the potential to birth the 
restoration economy.
    [The statement of Sue Gunn follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. The other thing we have to do is next year where 
we go, in 2009, we are going to have reauthorization of 
SAFETEA-LU or whatever we call that thing.
    Dr. Gunn. Yes.
    Mr. Dicks. The Highway Trust Fund.
    Dr. Gunn. Yes.
    Mr. Dicks. And the Forest Service has never been in that 
pot, and I am talking to Mr. Oberstar about that. That would 
get us a significant amount of money, you know, the Park 
Service gets what, 250----
    Dr. Gunn. Two hundred and forty.
    Mr. Dicks [continuing]. 240 million. The Forest Service 
gets zero, I think, or very little.
    Dr. Gunn. I just found out yesterday I was talking to the 
Chief of Staff of Resources, and when they reauthorize that, 
they amended it to allow 20 million for forest highways 
maintenance, but I do not know the details, and I am going to 
research that more, and I do not----
    Mr. Dicks. One billion?
    Dr. Gunn. Twenty million.
    Mr. Dicks. Twenty million.
    Dr. Gunn. Yes. It is not much, but it is in there, and all 
we could find was a press release from 2005. I did not find the 
language in the bill, but I am researching that.
    Mr. Dicks. Shocking isn't it?
    Dr. Gunn. Yes. Yes. But we could use your help.
    Mr. Dicks. Well, we are going to work on it.
    Dr. Gunn. Yes. So I would just like to say----
    Mr. Dicks. Those are some of the things----
    Dr. Gunn [continuing]. We are going to work on it.
    Mr. Dicks [continuing]. We can work on together.
    Dr. Gunn. And thank you for your leadership.
    Mr. Dicks. Right. We will keep it up. We will keep 
fighting, you know.
    Dr. Gunn. All right.
    Mr. Dicks. Bill Imbergamo, Director of Forest Policy, 
American Forest and Paper Association. How are you, Bill?
    Mr. Imbergamo. Very good, Mr. Chairman.
    Mr. Dicks. We will put your statement in the record, and 
you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                  AMERICAN FOREST & PAPER ASSOCIATION


                                WITNESS

BILL IMBERGAMO
    Mr. Imbergamo. Thank you very much. Mr. Tiahrt, Mr. 
Hinchey, thank you for the opportunity to present the views of 
the American Forest and Paper Association. We represent the 
Nation's forest, paper, and wood products industry, 
collectively represent over a million employees and 6 percent 
of U.S. manufacturing output.
    First I would like to thank the Committee for the 
leadership you have shown in support for active forest 
management and the Forest Products Program, particularly in 
these difficult budget times. We have five main points that we 
hit in our written statement, and I will summarize briefly 
here.
    Our top priority is fixing the way the Forest Service 
budgets and pays for fire suppression costs. As you were just 
discussing, Mr. Chairman, fire suppression is paid for largely 
out of borrowed funds from other land management accounts after 
suppression funds are exhausted, and these transfers are 
rarely, or at least not always repaid.
    The FLAME Act, H.R. 5541, is an important step towards 
addressing this problem, and we thank you for your leadership 
as an original cosponsor of that legislation which seeks to 
create a clear break between fire suppression costs for large 
fires and land management programs.
    Clearly, the agency's cost containment efforts have not 
been sufficient to address this problem. Budgetary reforms are 
needed.
    Second, adequate funding for active forest management is 
vital to our forests and to my industry. The Forest Service 
continues to harvest far less timber than dies annually from 
fires, insects, and other natural causes on national forests, 
and stocking levels remain unsustainably high in many areas. 
Accounts such as K-V and the Salvage Sale Fund, which directly 
fund reforestation habitat and forest management activities, 
have been depleted by fire transfers over the last several 
years.
    Funding the forest products line item at 338 million, a 5 
percent increase, and repaying the 159 million transferred from 
K-V in fiscal 2006, is vital to prevent erosion in the program 
this fiscal year.
    We appreciated language included in the fiscal 2008, 
Omnibus that placed a high priority on regional capability and 
the distribution of forest products funding and would encourage 
similar language in this year's bill.
    We strongly encourage you to hold the agency accountable 
for claimed savings in administrative costs which would make 
substantial resources available for land management. The agency 
claims it can save 30 million from administrative efficiencies. 
They should be directed to report to Congress on how these 
savings were directed to the field for actual land management 
projects.
    Third, we strongly support efforts to reduce hazardous 
fuels on the national forest. Reducing fuel loads helps protect 
watersheds, communities, and adjacent non-federal timberlands. 
The forest products industry can play a constructive role in 
this regard.
    The cost of treating hazardous fuels is much lower in areas 
that still have a strong forest products industry presence. We 
support an increase of 15 percent above the enacted level with 
a strong emphasis on mechanical treatment of forest and acres.
    We continue to be concerned about the Forest Service's use 
of acres treated as the sole measure of success in this 
program. Congress should provide guidance directing them to 
treat higher priority forest condition class three acres using 
mechanical methods and to more fully utilize all of their legal 
authorities such as the Health Forest Restoration Act to 
achieve these goals.
    Fourth, we are concerned about proposed cuts to programs 
such as Cooperative Forest Health----
    Mr. Dicks. When you say mechanical, what does that mean?
    Mr. Imbergamo. It can mean harvest, it can mean thinning, 
it can mean brush hogging, and harvest is definitely a 
component of it.
    Mr. Dicks. Just clearing out the under story so that when 
the fire occurs, it is not as intense and----
    Mr. Imbergamo. Yes.
    Mr. Dicks [continuing]. Severe.
    Mr. Imbergamo. And it is not just under story. It stems per 
acre and a lot of forest types of stems per acre, too high.
    Mr. Dicks. Well, and that is the thinning. In other words, 
you should----
    Mr. Imbergamo. Right.
    Mr. Dicks [continuing]. Thin the forest and get the 
separation, the fires are less intense.
    Mr. Imbergamo. Correct.
    Mr. Dicks. Okay.
    Mr. Imbergamo. As I was saying, we are concerned about the 
proposed cuts to Cooperative Forest Health, Cooperative Fire, 
Forest Legacy, and Forest Legacy Roads. These programs help 
protect valuable private timberlands from fires, insects, and 
hazards, and poor-maintained road systems and upper watersheds. 
There programs should be funded at continuing levels to ensure 
that these hazards are adequately addressed.
    Threats such as these do not respect property lines, and 
individual landowners cannot effectively combat them on their 
own.
    Fifth, research programs including Forest Inventory, the 
Agenda 2020 Technology Alliance, and the Forest Products 
Laboratory are critical to the long-term health of our forests 
and a competitiveness of our forest products industry. 
Continued funding for FIA at $65 million is vital to our 
understanding of long-term trends in our forests and is one of 
the most widely-supported programs run by the agency.
    Agenda 2020 supports development of sustainable bioenergy 
supplies at existing wood and paper facilities, and the Forest 
Products Lab supports cutting-edge research including 
nanotechnology that helps ensure efficient use of wood fiber 
and helps develop uses for small diameter trees. These programs 
are run in a cooperative fashion with states, universities, and 
the forest industry, giving the opportunity to leverage scarce 
federal dollars.
    Thank you, again, Mr. Chairman, for the opportunity to 
testimony, and we appreciate the support of this Committee.
    [Statement of Bill Imbergamo follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Very good and I appreciate your good work.
    Mr. Tiahrt.
    Mr. Tiahrt. Mr. Hinchey.
    Mr. Hinchey. I thank you very much for the points that you 
have made, and I think that they are very good. And I also want 
to thank the two women who preceded you for a number of things, 
including the assertion on the fact that an investment of a 
small amount of money produces a large comeback, which I think 
is very significant. So thank you very much for all the work 
that you are doing.
    Mr. Dicks. Okay. Thank you. And now we will have Deborah 
Gangloff, Executive Director of the American Forests.
    Dr. Gangloff. Thank you, Mr. Chairman. How are you today?
    Mr. Dicks. Good, Deborah. How are you? Welcome.
    Dr. Gangloff. I am doing good.
    Mr. Dicks. We will put your entire statement in the record, 
and you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                            AMERICAN FORESTS


                                WITNESS

DEBORAH GANGLOFF
    Dr. Gangloff. I appreciate the opportunity, Mr. Tiahrt, Mr. 
Hinchey, to be here today.
    You know, the members and supporters of American Forests 
are somewhat amazed by this Forest Service budget. We represent 
people from individuals to non-profit groups to major 
corporations that support good tree conservation.
    Mr. Dicks. We thought we were the only ones.
    Dr. Gangloff. And I think you clearly outlined what the 
external pressures are, let us say, on the Forest Service 
budget, and what I really want to talk about are the way they 
have sorted through the funds internally.
    We believe that the Forest Service has a responsibility to 
help all Americans enjoy the benefits of healthy forests both 
in the national forest and elsewhere. And the services we get 
from forests; clean air, clean water, and assistance with the 
global warming issue as well, are going to be significantly 
reduced with this President's budget.
    The Forest Service has a broad mission but a very narrow 
and misguided budget we think, especially this year. Even their 
own strategic plan and the initiatives of the Chief are not 
being met under this budget.
    As mentioned earlier by other folks, the introduction of 
the FLAME Act we think is going to go a long way in dealing 
with the suppression problems and budgetary problems coming 
from the small amount of emergency wildfires that eat up the 
great amount of the land and the budget.
    But we cannot cut the hazardous fuels reduction part of 
this budget either. That is what lets us get ahead of the fire 
risk, and cutting that down, we need to have that back and 
restored at the $310 million level.
    Similarly, in the BLM, those projects cannot be cut, 
because they help us get ahead of the fire risk. Burned area 
rehab and plant conservations are also important for the BLM.
    We also call for 50 million for state assistance in fire. 
This President's cut of 27 percent is unacceptable there and 
also state and private forestry needs to have at least $40 
million to deal with hazardous fuels reduction.
    We are puzzled by the elimination of rehabilitation and 
restoration dollars. The agency consistently cuts this out, and 
the President cuts it out. This is where American Forests and 
our members and supporters interact greatly with the national 
forests. Every year we raise private sector dollars to plant 
millions of trees on national forests. We leverage that small 
amount of funding in that budget line item many times over to 
plant trees, and the need is greater and greater every year for 
replanting our national forest. So that needs the $10 million 
restored.
    Finally, I want to talk about state and private forestry. 
This is where the expertise of our Nation's foresters is made 
available to the benefit of all Americans everywhere. The 
President's budget cuts state and private forestry by nearly 60 
percent and coop forestry programs by 81 percent. The agency 
can no longer help keep forests as forests with that kind of 
budget slashing.
    Economic Action Programs provides rural communities with 
the opportunities to develop economies that actually make the 
forest healthier. We talked about thinning earlier and fuels 
reduction. There are products that can come out of those 
forests where an economy can be built on it, justify the cost 
of taking those trees out individually one by one, and have a 
healthy economy that is interdependent with the forest. So 
Economic Action Programs, we ask for the $40 million 
appropriation there.
    Forest stewardship, again, helps private forestland owners 
keep their forests in forests. That was slashed under the 
President's budget 83 percent. We would like to see that 
restored to the $35 million level.
    And, again, the Forest Legacy Program has been mentioned by 
others, cannot be sustained with a 76 percent cut in the 
budget, and it should be maintained at that $75 million level.
    International Programs, too, where we share our expertise 
around the world, what we know about forests and the benefit to 
humans, should be funded at the 7 million and not cut 73 
percent as proposed in this budget.
    And finally, a topic very near and dear to me is Urban and 
Community Forestry. I believe the House of Representatives 
knows better than anyone the value of that program out in the 
states and in the local communities. It is cut 82 percent in 
this budget down to $5 million, which is outrageous. Last year 
you were successful in getting that restored back to about $27, 
$28 million. We are asking for at least $50 million for this 
program. Urban forests provide essential clean air and clean 
water benefits, can help be a part of the answer to the global 
warming issue. Trees planted around homes and buildings can cut 
energy use significantly, and that means less pollution in the 
air, less CO<INF>2</INF> in the atmosphere.
    I know the Chairman is familiar with our work on the Puget 
Sound and in Tacoma----
    Mr. Dicks. Right.
    Dr. Gangloff [continuing]. The value of trees for water 
quality in the Puget Sound. That happens all across the 
country, that kind of work, through this small Urban and 
Community Forestry budget. We have planted trees in many of the 
cities in upstate New York, Binghamton, actually happens to 
have a pretty good tree canopy compared to Buffalo or 
Rochester, but those are important programs, and that expertise 
goes right down into the communities. Kansas, of course, was an 
early developer and adaptor of urban forestry science and 
practice. This program cannot be cut. It is too important for 
Americans.
    And I----
    Mr. Dicks. Thank you.
    Dr. Gangloff [continuing]. Thank you very much.
    [The statement of Deborah Gangloff follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. You did an excellent job, covered a lot of 
territory.
    Dr. Gangloff. Thank you very much.
    Mr. Dicks. Thank you very much.
    Martin A. Bartels, Outdoor Alliance.
    Mr. Bartels. Good morning, Mr. Chairman.
    Mr. Dicks. Yes. We will put your statement in the record, 
five minutes to summarize.
    Mr. Bartels. Thank you very much.
    Mr. Dicks. Yes.
                              ----------                              

                                          Thursday, March 13, 2008.

                            OUTDOOR ALLIANCE


                                WITNESS

MARTIN A. BARTELS
    Mr. Bartels. I am Martin Bartels, Executive Director of the 
American Canoe Association. I am testifying today on behalf of 
the Outdoor Alliance, a coalition of six national membership-
based organizations devoted to conservation and stewardship of 
our Nation's public lands and waters through sustainable human-
powered outdoor recreation.
    Our collective direct membership is over 100,000, and we 
have a network of almost 1,400 clubs covering every state in 
the union. We are, in other words, the Nation's paddlers, 
climbers, back country skiers, hikers, and mountain bikers. The 
aim of the Outdoor Alliance is much more than to maintain 
federal lands and waters for recreation. We believe firmly that 
responsible use of these lands engrains responsible care for 
our environment.
    Further, businesses associated with the enjoyment of 
America's great places contribute billions to the national 
economy. With that in mind, we are offering a few budget 
recommendations under understandably challenging circumstances.
    The Forest Service has come up a lot today. We are 
proposing a $285 million expenditure for recreation management, 
heritage, and wilderness. Importantly, I think it is important 
to note that Outdoor Alliance figure will help leverage 
partnerships and passionate volunteers from the human-powered 
community. In my former job I was Director of Communications 
for the Appalachian Trail Conservancy. I think many of you are 
familiar with that. I saw firsthand how more than 5,000 
volunteers contributed almost 200,000 hours of service each 
year. If nothing else, this relative microcosm of the massive 
forest and park system is a resounding endorsement by Americans 
that our outdoor spaces matter deeply.
    We are also recommending a 12 percent increase for capital 
improvement in trails maintenance and $75 million for the 
Legacy Roads and Trails Remediation Program.
    Having spent a good deal of my youth at 9,800 feet above 
sea level in Colorado, I gained a great respect for the work of 
the BLM. Outdoor Alliance has suggested $70 million will pay 
for additional rangers and field staff, finance monitoring and 
restoration programs, and support BLM's volunteer core.
    We also favor creating specific budget subactivities for 
all the specially designated places in the Conservation System, 
including Wild and Scenic Rivers and the National Scenic and 
Historic Trails.
    We are happy about the increased funding proposed in fiscal 
year 2009, for the Park Service, but I think we all know that 
key National Park Service programs are too often overlooked, 
including the Rivers, Trails, and Conservation Assistance 
Program.
    RTCA contributes greatly to the quality of life for 
millions of Americans who do not live near iconic parks. An 
appropriation of $12 million in '09, would end a decade of 
neglect and would enable the program to serve the growing needs 
of communities throughout the country.
    Also, through the Land and Water Conservation Fund more 
than 40,000 local and state park recreation and conservation 
projects have been completed in almost every county across the 
U.S. Outdoor Alliance supports increased funding for LWCF and 
categorically opposed the Administration's recommendation to 
terminate stateside LWCFs, a program critical to ensuring and 
enhancing close-to-home recreation opportunities for all 
Americans.
    Lastly, the National Wildlife Refuge System protects myriad 
species and critical habitat, provides recreational 
opportunities on approximately 2,500 miles of land and water 
trails for nearly 40 million visitors annually.
    Mr. Dicks. This Subcommittee last year added 39 million----
    Mr. Bartels. Yes, sir.
    Mr. Dicks [continuing]. To the Refuge System because we 
recognized that it was on a disastrous downward course, and we 
have a refuge caucus in the House led by Ron Kind, and he 
testified, and it was a great group of people and just saying, 
we have to stop this. And I actually took it to the Secretary 
and told him, you know, we are very supportive of your Parks 
Initiative, but we also think refuges are very important.
    And fortunately, that money stayed in the budget. A lot of 
these things we tried to fix were dropped back to----
    Mr. Bartels. Sure.
    Mr. Dicks [continuing]. Last year's levels. But that was 
one we are pleased about. But you have to still add $15 million 
to stay even.
    Mr. Bartels. Just to keep it at no net loss.
    Mr. Dicks. Yes.
    Mr. Bartels. Exactly. And I should point out, the work of 
this Subcommittee in particular has been exemplary. We really 
appreciate the work you have done and have a great respect for 
you.
    Mr. Dicks. We are trying to do the best with what we have 
got, and it is tough. It is a tough time.
    Mr. Bartels. Thank you very much, sir.
    [The statement of Martin Bartels follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you. Appreciate you being here.
    George Lea, President, Public Lands Foundation.
    Mr. Lea. Mr. Chairman, good to see you again.
    Mr. Dicks. We will put your statement in the record, and 
you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                        PUBLIC LANDS FOUNDATION


                                WITNESS

GEORGE LEA
    Mr. Lea. Thank you. Yes. I am George Lea. I am the 
President of the Public Lands Foundation. The foundation is an 
organization of basically retired BLM people, and as such we 
represent a vast knowledge of, and experience in public land 
management.
    It is important that the Committee understand that while we 
support the Bureau's programs, we are independent in our views. 
We do not have to feed our children any longer, and we often 
disagree with some of the policies and programs that are 
undertaken.
    It is also significant that the Committee understand that 
the Bureau of Land Management will return $6.2 billion in 
receipts in 2009.
    Mr. Dicks. Billion.
    Mr. Lea. Billion. Yes.
    Mr. Dicks. Yes.
    Mr. Lea. That is not a mistake. That is billion.
    Mr. Dicks. Yes.
    Mr. Lea. With 44 percent of the receipts being returned to 
the states and counties to support roads, schools, and other 
community needs. We are unaware of any other agency that 
returns those kind of receipts.
    We basically support the budget before you, however, we 
have identified certain short fallings, shortcomings, and the 
need for additional funding.
    The Healthy Lands Initiative is a very important program, 
Mr. Chairman. There is a lot of real good work being done on 
the ground for this program. And as you know, it is directed at 
compensating for the, some of the damage done by energy 
development and fire, particularly in the sagebrush zone area, 
and there the target is basically trying to prevent the 
sagebrush grouse from being listed. So that is a very important 
program, and we certainly suggest that it be increased.
    I would like to turn next to selling of public lands. The 
budget before this Committee, again, proposes that the Federal 
Land Transportation Facilitation Act be amended to allow BLM to 
sell all lands identified suitable for disposable in all 
updated management plans. FLPMA, of course, the Federal Land 
Policy Management Act, already provides this authority to the 
Bureau.
    However, the budget proposal would direct that the, that a 
portion of the proceeds from the selling of BLM lands be made 
available for other agencies to acquire in-holdings such as the 
Forest Service, Park Service, and Fish and Wildlife Service. We 
object to using the Bureau of Land Management lands as a cash 
cow. BLM lands have the same integrity and importance as the 
Forest Service and the Park Service lands. And they should be 
treated as such.
    As a matter of fact, each agency has the need to dispose of 
lands that they can no longer manage; the Forest Service, Park 
Service, and they need their own authority to sell lands and to 
use some of their proceeds to acquire in-holdings.
    Next I would like to return, to turn to renewable energy. 
With increase in the cost of energy and the need for 
alternative energy sources, the number of applications for wind 
and solar facilities of the public lands has mushroomed. 
Currently BLM has the backlog of 137 solar and 173 wind 
applications waiting BLM actions. The BLM needs funding to 
process these applications, and we suggest that the BLM be 
given the authority to retain the receipts from, the fee 
receipts from renewable energy application as it has in the 
case of some of the other energy activities such as oil and gas 
and geothermal.
    Mr. Chairman, you discussed here on a couple of cases this 
morning the need to make some changes in the Firefighting 
Arrangements Funds.
    Mr. Dicks. Right.
    Mr. Lea. And, again, I want to impress upon the Committee 
the need to do that. BLM fortunately has been able to borrow 
from carryover funds so that they are able to use those funds 
and to be reimbursed later by Congress. Forest Service, the 
poor devils, they do not have carryover funds, and they have to 
shut down their field operations or their----
    Mr. Dicks. Right. Right.
    Mr. Lea [continuing]. Other forest managers to pay the fire 
funds. So you are just shutting down the agency during the 
field season, and they have no ability to use borrowed funds. 
So, again, we suggest that----
    Mr. Dicks. We are trying to get that fixed.
    Mr. Lea. We would appreciate that.
    Mr. Dicks. Chairman Rahall and I are working together on 
that.
    Mr. Lea. That is my summary, Mr. Chairman, and I appreciate 
the opportunity and want you to know that we are sincere in our 
efforts to see that the public lands are well managed.
    [The statement of George Lea follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, thank you. We appreciate the good work you 
do and your independent look at the budget, and we will take a 
look at all your other comments you had to make.
    Mr. Lea. Thank you.
    Mr. Dicks. Thank you.
    Gregory Miller, President, American Hiking Society.
    Dr. Miller. Good morning, Mr. Chairman.
    Mr. Dicks. Yes. We will put your statement in the record.
    Dr. Miller. Hello, Mr. Hinchey.
    Mr. Dicks. You have five minutes to proceed.
                              ----------                              

                                          Thursday, March 13, 2008.

                        AMERICAN HIKING SOCIETY


                                WITNESS

GREGORY MILLER
    Dr. Miller. Well, I thank you for this opportunity to 
testify and applaud your resilience in going without a break. 
As noted, I am Gregory Miller, President of American Hiking 
Society. We are a national organization that promotes and 
protects foot trails and the hiking experience across the 
country. We represent thousands of members and speak for the 75 
million Americans who hike. We are also a member, as noted by 
Mr. Bartels, a member of the Outdoor Alliance, as he testified 
a moment ago.
    We greatly appreciate the Subcommittee's past support for 
trails and recreation and urge you to support strong trails and 
recreation funding in fiscal year '09.
    I would like to ask the Committee, and frankly, everyone in 
the room to take a moment and imagine your favorite trail and 
how it shaped your outdoor experience. Now, take that trail and 
picture that it is gone or that it is so poorly maintained that 
you no longer have access to it, you and your family and 
friends.
    Hiking our Nation's trails offers a lifelong and enjoyable 
way to deepen one's connections to nature, people, and places 
and can also motivate people to protect those places, places 
that they love, places that they wish to preserve for future 
generations.
    Now, I am here on behalf of hikers, and I want to highlight 
just briefly five key funding priorities from our written 
testimony that we believe are critical investments towards the 
health and well-being of American society.
    First area is around the National Forest Service, and we do 
believe, in fact, that the forest system is threatened. 
American hiking is deeply concerned about the Administration's 
proposed cuts to the Forest Service Recreation and Trails 
Programs. These cuts are unacceptable and would result in 
devastating program and staff reductions, adversely impact 
recreation opportunities, and compound maintenance backlogs.
    For example, in Olympic National Forest estimates that only 
17 percent of the 308-mile trail system is today in passable 
condition. So we seek minimum appropriations of 285 million for 
the Forest Service recreation and 85 million for Forest Service 
capital improvement and maintenance for trails to enable the 
Forest Service to provide safe, high-quality recreational 
experience for millions of America's hikers.
    As we know, the Bureau of Land Management stewards more 
than 13 percent of America's surface area and manages trails in 
the fastest-growing states in America, whether it is the 
soaring heights of the Pacific Crest Trail in Oregon or the 
depths of the Paria River Canyon in Utah. Frankly, these lands 
are in demand.
    Recreation use is increasing dramatically, and the fact is 
more than 23 million people live within 25 miles of BLM lands. 
The President's fiscal year '09 budget would, however, deal a 
crippling blow to the BLM's mandate to respond to massive 
public demand for safe, diverse recreational opportunities.
    However, Congress can help in three ways. First, insist 
that the BLM create a budget subactivity for national scenic 
and historic trails. Second, provide adequate funding for the 
National Landscape Conservation----
    Mr. Dicks. Well, we would have to get the authorizers to 
help us on that, would we not?
    Dr. Miller. Absolutely.
    Mr. Dicks. I mean, are you----
    Dr. Miller. Absolutely, Mr. Chairman.
    Mr. Dicks [continuing]. I hope you are going to take that 
over to Mr. Rahall, because I think that is a great idea.
    Dr. Miller. We are busy doing that on several other fronts. 
Thank you for recognizing that.
    We really want to see adequate funding for the National 
Landscape System.
    Mr. Dicks. Cap says we can do that.
    Dr. Miller. We can do that.
    Mr. Dicks. Yeah.
    Dr. Miller. And let us work together to get that done. 
Absolutely.
    Mr. Dicks. I stand corrected.
    Dr. Miller. And they are, they are working on it.
    Finally, the BLM's recreation management subactivity must 
be adequately funded. I just give you a brief example in, near 
Phoenix, Arizona, at the Agua Fria National Monument, where 
there is only one developed hiking trail despite the fact that 
it is next to the second-fastest growing city in America. We 
cannot continue to have Americans disconnected from our 
national patrimony.
    We applaud the Administration's proposed increase for 
National Park Service operations and request 12 million for the 
Rivers and Trails Conservation Assistance Program. This is 
willfully unfunded and has extraordinary high leverage.
    In addition, as hikers we strongly oppose the 
Administration's recommendation to zero out the Land and Water 
Conservation Fund, Stateside Program, and request 125 million 
for Stateside, 220 million for the federal program, including 
land acquisition.
    As you know, this year marks the 40th anniversary of the 
National Trails System Act, and we endorse the funding request 
submitted by the Partnership for National Trails System, of 
which American Hiking is a member. Our organization coordinates 
volunteer vacations and National Trails Day, nationally 
recognized programs that engage hundreds of thousands of 
volunteers are citizen stewards and trail advocates. We 
leverage hundreds of thousands of hours of sweat equity that 
are literally worth millions of dollars to the public lands.
    While volunteerism is essential to trails and recreation, 
volunteers on public lands must not be perceived as a panacea 
to declining agency budgets. Congress must invest in trails as 
they are the gateway to our nature, our Nation's rich natural 
heritage.
    Again, we appreciate very much the tremendous work that you 
all are doing on the Subcommittee, for your past support for 
trails and recreation, and we look forward to working side by 
side with you all to continue this strong support.
    Thank you very much for your time.
    [The statement of Gregory Miller follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. All right. The Committee is going to stand in 
adjournment for a few minutes here while we go vote. We are 
going to come back, and we are going to finish this.
    [Recess.]
    Mr. Dicks. Yes. Brian Moore, the National Audubon Society.
    Mr. Moore. Good morning, Mr. Chairman.
    Mr. Dicks. Okay. We will put your statement in the record, 
and you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                        NATIONAL AUDUBON SOCIETY


                                WITNESS

BRIAN MOORE
    Mr. Moore. Great. Thank you, Mr. Chairman and Mr. Tiahrt. I 
will be brief.
    First, on behalf of the million supporters of Audubon, 
thank you for the opportunity to express to your Committee our 
recommendations for the fiscal year 2009, funding for the 
Interior and the EPA.
    Audubon has been protecting birds and other wildlife and 
habitat that supports them for over 100 years. Our national 
network of community-based nature centers and chapters, 
scientific and educational programs, and advocacy on behalf of 
areas sustaining important bird population engages millions of 
people of all ages and backgrounds in positive conservation 
experiences. The purpose of our testimony today is to recommend 
levels of funding for specific programs that are vital to our 
mission.
    But first let me express to you Audubon's gratitude, not 
only to the members of this Committee, but also to the staff. 
We believe that the bill produced by this Committee for fiscal 
year 2008, represented a significant and positive change in the 
funding of the important conservation efforts of the Federal 
government, and Audubon looks forward to working with the 
Committee to continue this trend in 2009, and the subsequent 
years to come.
    In June of 2007, Audubon issued a report called, Common 
Birds in Decline. This report indicated a severe drop in the 
populations of 20 common species of birds over the last 4 
decades, and on average populations of common birds have 
declined about 70 percent in 40 years since 1967.
    The overwhelming factor in this alarming trend is a loss of 
habitat, including wetlands, forests, and native grasslands 
which support common birds and other wildlife.
    The Administration's budget request for fiscal year 2009, 
includes an initiative called Birds Forever. Birds Forever 
proposes a combined $8 million, $8 million in needed increases 
to the Fish and Wildlife Services Migratory Bird Management 
Program, as well as a Joint Ventures Program.
    Audubon is encouraged by the Birds Forever proposal, but at 
the same time we are troubled to see the Administration's 
request for other proven programs that protect birds and 
habitat, like the Neotropical Migratory Bird Act, which the 
Administration requests a $.5 million less than the 2008, 
appropriated amount, and $1.5 million less than the authorized 
amount.
    Even more concerning is the Administration's request for a 
70 percent reduction in the Land Acquisition Funds. Adding and 
adequately managing habitat for birds and wildlife is critical 
in reversing the current trends. In this aspect the Birds 
Forever Program is, in our view, inadequate. We hope to work 
with this Committee and the Administration to improve this 
proposal, but we are concerned that the focus has been to move 
some money around to a few programs and ignore the larger issue 
of habitat loss for birds and wildlife with the drastic cuts in 
the Land Acquisition Funds.
    Mr. Dicks. Well, we have seen this as a pattern of adding 
two or three or four initiatives from each of the departments 
but then cutting everything else in the world in order to make 
room for these things. And I think you point out the 
contradiction there very nicely.
    Mr. Moore. Yeah. We support $403 million for the Land and 
Water Conservation Fund, with $125 million of it going to the 
Stateside Program. We think this program is imperative to 
combat the rapid, rabid rates of habitat loss threatening 
America's native birds and wildlife.
    In particular, Audubon supports land acquisition projects, 
including but not limited to additional acquisition in the 
Silvio County National Wildlife Refuge, and we appreciate the 
Committee funding an acquisition last year. The same with the 
Stewart McKinney National Wildlife Refuge in Connecticut, and 
we also appreciate the funding last year.
    We also support acquisitions in the Rachel Carson National 
Wildlife Refuge, the Patoka River National Wildlife Refuge, the 
Cash River National Wildlife Refuge in Arkansas, and a larger, 
multi-tiered acquisition of the San Pablo Bay National Wildlife 
Refuge in Northern California. So we see the Land and Water 
Conservation Fund as instrumental in adding land back to the 
land mass for birds and habitat as instrumental for us.
    The State Wildlife Grants is also a valuable program that 
provides matching grants that design and implement habitat and 
wildlife conservation plans and allows states to conserve and 
restore declining native species to, so it is no longer 
necessary to list them as threatened or endangered. The 
Administration's request of $74 million for State Wildlife 
Grants is welcome, giving the severe budget constraints facing 
the Congress, but it still shortchanges what we think are 
important conservation goals served by this program. And we 
support funding this program at $85 million for 2009.
    The National Wildlife Refuge for us is also key for habitat 
and recreation. America's National Wildlife Refuge System faces 
a massive multi-billion dollar backlog of operations and 
maintenance needs that is widely recognized as a handicap to 
the Fish and Wildlife Services' efforts to conserve and protect 
the systems' more than 94 million acres of prime habitat for 
more than 2,000 bird and wildlife species. Increasing funding 
is needed to provide adequate services for the millions of 
birdwatchers, sportsmen, and others who enjoy the outdoors of 
their local wildlife refuges.
    So we call on the Committee to once again increase funding 
just as you did last year for the National Wildlife Refuge. 
This year we think a number of $514 million, which is about an 
$80 million increase over the fiscal year 2008, enacted level, 
but we think this Committee last year in your bump up of that 
account was the best work we had seen on the Wildlife Refuge 
System in a long time, and we certainly----
    Mr. Dicks. Thank you.
    Mr. Moore [continuing]. Appreciate it.
    A couple more projects that Audubon supports and works on 
are ecosystem based. One is the Long Island Sound Restoration 
Act and the Long Island Sound Stewardship Act. These acts 
strive to protect and restore the environmentally and 
economically vital resources of the Sound. In 1985, the Sound 
was one of the first three estuaries recognized under the 
National Estuary Program because of its, because it provides 
feeding, breeding, nesting, and nursery areas for a diversity 
of plant and animal life and contributes an estimated $5.5 
billion per year to the regional economy from commercial 
fishing, sports fishing, and recreation activities. More than 8 
million people live in the Long Island Sound watershed, and the 
resultant development has led to increasingly poor ecosystem 
health.
    So we thank the Committee for funding the Long Island Sound 
Restoration Act for the first time last year in fiscal year 
2008, and encourage additional funding to the authorized 
amounts for both the Long Island Sound Restoration Act of the 
$40 million, and the Long Island Sound Stewardship Act of $25 
million for fiscal year 2009.
    Audubon has also a long history of working on the National, 
on the Everglades National Park, and we are grateful to this 
Committee for its longstanding support of the Everglades 
restoration through the appropriations process.
    Mr. Dicks. I think your time has expired.
    Mr. Moore. Okay.
    [The statement of Brian Moore follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. You have got it pretty well covered here.
    Mr. Moore. Okay. Well, thank you, Mr. Chairman.
    Mr. Dicks. Except you forgot the Puget Sound----
    Mr. Moore. Well----
    Mr. Dicks [continuing]. Restoration activity.
    Mr. Moore  [continuing]. No, that was implied.
    Mr. Dicks. Well, you thought I would take care of that. 
Right? All right.
    Mr. Moore. Thank you very much.
    Mr. Dicks. Tom Cassidy, Director of Federal Programs, The 
Nature Conservancy. Tom, good to see you.
    Mr. Cassidy. Thank you, Mr. Chairman.
    Mr. Dicks. We will put your statement in the record. You 
have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                         THE NATURE CONSERVANCY


                                WITNESS

TOM CASSIDY
    Mr. Cassidy. Mr. Chairman, Mr. Tiahrt, I appreciate this 
opportunity to present The Nature Conservancy's funding 
recommendations. My name is Tom Cassidy. I am director of 
Federal Programs at the Conservancy.
    And the Puget Sound is in our written testimony, Mr. 
Chairman.
    Mr. Dicks. Good. Well, we appreciate that.
    Mr. Cassidy. The Conservancy is a large international, non-
profit conservation organization working around the world to 
protect econologically important lands and water for nature and 
people. My oral testimony will highlight six program areas 
described more fully in my written testimony.
    First, on climate change. Mr. Chairman, we appreciate your 
leadership in highlighting the need for increased investments 
in climate change science through the National Global Warming 
and Wildlife Science Center. We support a robust increase in 
funding for this and other programs that will guide science-
based investments necessary to meet the critical needs of fish 
and wildlife adaptation in a world whose climate is changing. 
We look forward to working with the Subcommittee as it 
addresses this increasingly vital conservation challenge.
    Second, the Land and Water Conservation Fund. Thank you for 
your action last year to reverse the decline in funding for key 
conservation programs, including LWCF. We look forward to the 
Subcommittee providing far greater support for this program 
than is proposed in the President's budget, which was one of 
the lowest requests for federal land acquisition funding in 
decades.
    We recommend a funding level of $278 million for the 
federal side of LWCF. This year we are proposing 17 
biologically rich projects. Priorities include completing the 
BLM's component of a large multi-year project in Montana's 
Blackfoot Watershed and continuing large-scale projects in the 
Silvio O. Conte National Fish and Wildlife Refuge, and 
Montana's Rocky Mountain Front Conservation Area.
    We are also pleased to be working on a new project in 
Willapa National Wildlife Refuge in the Evergreen State.
    Mr. Dicks. Wonderful.
    Mr. Cassidy. The third program is forest legacy. This year 
states submitted 87 projects to the Forest Service with a total 
funding request of $200 million to protect nearly 400,000 
acres, yet the Administration has proposed only three projects. 
We strongly support $120 million for this program and are 
proposing 16 projects, including the Northern Cumberlands 
Project, which is the largest conservation deal in Tennessee 
since the creation of Great Smoky Mountains National Park. The 
state has provided $82 million towards this partnership 
project, while private equity investors and philanthropy have 
leveraged an additional 45 million.
    The fourth area is wildland fire management. Chairman 
Dicks, you have observed that existing fiscal trends threaten 
to transform the Forest Service into the Fire Service. Wildfire 
costs continue to rise with continued residential growth and 
forested and fire-prone areas, coupled with a lengthening fire 
season in a warmer climate. The Conservancy recommends focused 
investments of 10 percent over last year's enacted in four 
Forest Service and DOI fire programs, including Hazardous Fuel 
Reduction, State Fire Assistance, and the Rehabilitation and 
Restoration Program.
    Fifth, endangered species. The Conservancy supports an 
increase for the Cooperative Endangered Species Fund to at 
least $96 million. Our request reflects the unmet funding needs 
of the program and recognizes the important role the states, 
municipalities, and non-federal partners have in conserving 
threatened, endangered, and at-risk species on non-federal 
lands.
    For example, program funds have been used to provide 
permanent habitat protection for Washington's Tieton River 
Canyon, ensuring intact habitats remain in place for numerous 
listed species.
    Finally, the Conservancy as part of an alliance of 
conservation groups, supports the International Conservation 
Budget, which calls for $12 million to the Fish and Wildlife 
Service Multinational Species Conservation Fund, and increased 
funding for both the Fish and Wildlife Service and Forest 
Service International Programs.
    Thank you for the opportunity to present our 
recommendations for the Interior, Environment and Related 
Agencies Appropriations Bill.
    [The statement of Tom Cassidy follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, thank you, and we appreciate the great 
work you do all over the country and actually the world. And we 
deeply appreciate your good work, and we want to work with you, 
and we are very concerned about the cuts that you have 
mentioned in this particular budget.
    Mr. Cassidy. Thank you, Mr. Chairman. It is a pleasure 
working with you.
    Mr. Dicks. Thank you. Okay.
    We are going to skip ahead here. I have Congressman Brad 
Miller from North Carolina here, and he wants to introduce Jay 
Vogt, President of the National Conference of State Historic 
Preservation Officers. We are going to move to that.
    Brad, glad to have you here, and why don't you introduce 
your constituent or friend or whatever.
    Mr. Miller of North Carolina. Friend, I think.
    Mr. Dicks. Okay.
    Mr. Miller of North Carolina. The State Historic 
Preservation Offices, of course, their first preference was to 
send the Historic Preservation Officer for Puget Sound.
    Mr. Dicks. No. She is here.
    Mr. Miller of North Carolina. She did want me to say that 
she hopes you would be especially nice to her colleague today.
    Mr. Dicks. Well, I will. I will do my best.
    Mr. Miller of North Carolina. And I do appreciate this 
opportunity to come before the Committee.
    I am co-Chair of the House Historic Preservation Caucus. 
Mike Turner from Ohio is the other co-Chair, and I want to 
thank you, Chairman Dicks, and all the Committee members for 
your commitment to historic preservation and your efforts to 
save and increase appropriations for our Nation's core historic 
preservation programs.
    Key to the success of those programs is the work at the 
State Historic Preservation Offices. I have heard the acronym 
for that pronounced both SHPO and SHPO. But it is my pleasure 
to introduce Jay Vogt----
    Mr. Dicks. You better be careful how you say that, too. 
Okay?
    Mr. Miller of North Carolina. Well, I think if you got even 
a slight lisp by saying SHPO----
    Mr. Dicks. You would be in trouble.
    Mr. Miller of North Carolina [continuing]. It is kind of 
hard. Mr. Vogt is the current President of the National 
Conference of State Historic Preservation Officers in the state 
and the South Dakota State Historic Preservation and South 
Dakota State Preservation, Historic Preservation Officer. He 
has dedicated his career to the preservation of our Nation's 
historic heritage and has served as the South Dakota State 
Historic Preservation Officer since 1996, and been Directorof 
the South Dakota State Historic Preservation Society since 2003.
    He is currently a member of the Advisory Council of 
Historic Preservation and recently co-chaired the Preserve 
America Expert Panel on improving the preservation program 
infrastructure. He has authored many publications, including 
Picturing the Past, South Dakota's Historic Places.
    Mr. Chairman, I am sure that Mr. Vogt will discuss the 
National Academy of Public Administration's recently-released 
report on our historic preservation programs and found that 
they were a very successful federal, state partnership. They 
were very effective, and they needed additional resources.
    So I look forward to working with you, Mr. Chairman, and 
the members of your Committee, as well as with Mr. Vogt and 
others from the historic preservation community to secure 
funding for the foundation of our Nation's historic 
preservation programs.
    So thank you, again, Mr. Chairman----
    Mr. Dicks. Right.
    Mr. Miller of North Carolina [continuing]. For this 
opportunity to introduce Mr. Vogt.
    Mr. Dicks. And thanks for being here, and thanks for being 
co-Chair of the Caucus. Jay, you are up. Five minutes and we 
are not even going to count Miller's time.
                              ----------                              

                                          Thursday, March 13, 2008.

      NATIONAL CONFERENCE OF STATE HISTORIC PRESERVATION OFFICERS


                                WITNESS

JAY VOGT
    Mr. Vogt. Thank you for the introduction, Congressman, and 
as Representative Miller said, I am Jay Vogt, President of the 
National Conference of State Historic Preservation Officers, 
and on behalf of my 57 state historic preservation officers, 
and we will say SHPO for short----
    Mr. Dicks. Yes.
    Mr. Vogt [continuing]. From across the country, including 
the District of Columbia and the U.S. territories, I would like 
to thank you, Chairman Dicks and Ranking Member Tiahrt and the 
members of the Subcommittee for championing the increased 
funding for the State Historic Preservation Officers and the 
opportunity to testify today.
    Oftentimes when we think about history, we think about 
people. But because human life is short, in part of what we 
understand about the past comes from what people made and what 
they left behind, such as historic buildings and structures.
    Now, thanks to a National Historic Preservation Program 
people from rural communities to large metropolitan cities can 
walk down a street and point to a particular house or building 
and recognize that those structures are more than just bricks 
and mortar. Rather they are icons to our past.
    Mr. Chairman and members of the Committee, I realize 
Congress has been operating out of fiscal constraints, and the 
SHPOs are most grateful for having experienced recent modest 
increases in our funding. However, we are still trying to get 
back and preferably beyond the amount of funding we received in 
1979, which was a little over 47 million.
    Last year because of your efforts we came close. This 
Subcommittee and the House of Representatives agreed to fund 
the SHPOs at $45 million, but after conference and an across-
the-board cut, our amount was reduced to just over $37 million. 
For fiscal year 2009, we are requesting $50 million from the 
state, for the State Historic Preservation Officers.
    The National Historic Preservation Program is an 
outstanding example of federalism, with the National Historic 
Preservation Act setting the policy and the states through the 
SHPOs administering the program, which has flourished for the 
past 42 years. To strengthen my case, I am pleased to share 
with the Committee that in December the National Academy of 
Public Administration or NAPA, released an independent 
evaluation of our program which stated that the National 
Historic Preservation Program, ``Stands as a successful example 
of effective federal, state partnership and is working to 
realize Congress's original vision to a great extent. And while 
the Program's basic structure is sound, it continues to face a 
number of notable challenges.''
    Mr. Chairman, NAPA confirmed that the SHPOs have been 
performing admirably while experiencing funding constraints, 
workload increases, and changes in the field that are straining 
the capacity and limiting our effectiveness. Since 1980, 
inflation has outpaced funding for SHPOs, and meanwhile, steady 
increases in the number of Section 106 cases and tax credit 
reviews have intensified the funding squeeze.
    For example, the number of rehabilitation tax credit 
application reviews is on the rise. This is a double-edged good 
news, because many communities use this program to, as a 
primary economic development driver. They are using it to 
revitalize downtowns, generate jobs, create affordable housing, 
and build local property tax bases.
    In 2007, the Federal Rehabilitation Tax Credit stimulated 
$4.35 billion in private investment, produced over 6,500 low 
and moderate income housing units, which is a 17 percent 
increase over 2006, and created an estimated 40,755 jobs. That 
is historic preservation at work.
    However, NAPA agrees that the sheer success of the program 
and the amount of the federal reviews have left many SHPOs 
operating in a reactive mode unless able to forge creative 
partnerships with other agencies and the private sector to keep 
the preservation field vibrant. NAPA identified eight 
recommendations to insure the continued success of the program, 
and we are working in concert with the National Parks Service 
to strategize on implementing the recommendations in the most 
cost-effective ways.
    However, Mr. Chairman and members of the Committee, without 
additional funding these recommendations are not achievable.
    Again, thank you for your commitment to historic 
preservation, and I ask your consideration of $50 million for 
the states. Through our partnership with the Federal 
Government, State Historic Preservation Officers will be able 
to continue to identify, protect, and nurture what Congress 
declared in 1966, that, ``The spirit and direction of the 
Nation are founded upon and reflected in its heritage, historic 
heritage.''
    And thank you very much.
    [Statement of Jay Vogt follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you. Thank you very much. Appreciate your 
testimony. We will do the best we can.
    Mr. Vogt. Thank you.
    Mr. Dicks. Mary Beth Beetham, Director of Legislative 
Affairs, Defenders of Wildlife.
    Ms. Beetham. Mr. Dicks.
    Mr. Dicks. Hi, Mary Beth. How are you?
    Ms. Beetham. Fine.
    Mr. Dicks. Good to see you.
    Ms. Beetham. Thank you, Mr. Tiahrt. Thank you for----
    Mr. Dicks. We will put your statement in the record, and 
you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                         DEFENDERS OF WILDLIFE


                                WITNESS

MARY BETH BEETHAM
    Ms. Beetham. Okay. Thank you for the opportunity. I am Mary 
Beth Beetham, Director of Legislative Affairs with Defenders of 
Wildlife. With over 1 million supporters across the Nation, 
Defenders is dedicated to the protection and restoration of 
wild animals and plants in their natural communities.
    I would like to begin by expressing our deep appreciation 
for the outstanding fiscal year 2008 House bill with its 
historic increase for the National Wildlife Refuge System and 
for the successful effort to include important increases in the 
final negotiated Omnibus bill, including funding to establish 
the National Global Warming and Wildlife Science Center.
    Unfortunately, the President's budget again cuts funding 
for lands and wildlife. Bright spots such as safe borderlands 
and wildlife and Birds Forever are paid for by cuts in other 
programs, with the result a net conservation loss. While 
funding provided in the fiscal year 2007, and fiscal year 2008, 
bills has begun to stabilize our land and wildlife programs, we 
continue to be greatly concerned that budgets under this 
Administration have left the Fish and Wildlife Service and the 
wildlife-related programs and the other natural resource 
agencies without the capability to carry out their mission.
    Significant additional amounts and careful oversight will 
be needed in coming years to continue to reverse the damage to 
make the agencies once again whole and to equip them to deal 
with the growing crisis of climate change.
    We urge the Subcommittee to continue to rebuild the Fish 
and Wildlife Service career workforce, which has suffered 
substantial losses. Just a few examples here. The Endangered 
Species Program staff is down 30 percent, the National Wildlife 
Refuge System has lost 300 staff, as you know. The all-
important Office of Law Enforcement is down to 191 special 
agents, down from a high of 238 in 2002.
    Similarly, we ask continuation of your good efforts to 
address fixed costs. The Refuge System, as you know, has been a 
poster child for this need. The increase provided in the fiscal 
year 2008 bill has provided the Service with the breathing room 
to put on hold massive staff downsizing, but without continued 
increases the Refuge System will slide backward once again.
    Yet even the inflation-adjusted fiscal year 2004 level of 
466 million would still not make the Refuge System whole. 
Defenders supports the recommendation by the Cooperative 
Alliance for Refuge Enhancement for a yearly level of 765 
million by 2013. To make progress toward that goal we recommend 
514 million in fiscal year 2009.
    Likewise, we ask the Subcommittee to turn its attention to 
rebuilding the Endangered Species Program. Currently, 280 
candidates await proposal for Endangered Species Act 
protection, and the loss of staff has left the Service without 
the needed biological capability to oversee recovery of listed 
species and meet other obligations.
    We ask continued restoration of the Land and Water 
Conservation Fund. The Administration has proposed just 50 
million in its fiscal year 2009 budget, a 67 percent cut. 
Protection of habitat will be one of the most important things 
we can do to help in the battle to help wildlife adapt to 
global warming. Important wildlife-related programs in the 
other land management agencies also are at the breaking point.
    We thank you for efforts to limit appropriated dollars 
devoted to energy development on BLM lands and to address the 
diversion of resources from wildlife to support energy and 
other programs. We ask you to continue this strong oversight 
and effort to refocus BLM on multiple use.
    We further urge the Subcommittee to reject the 
Administration's proposed $14 million cut to Forest Service 
Wildlife and Fish Habitat Management and to restore the 
integrity of the USGS Cooperative Fish and Wildlife Research 
Unit.
    We thank the Subcommittee for direction and funding in the 
fiscal year 2008 bill to address impacts of illegal immigration 
and related enforcement on sensitive land and wildlife 
resources along the southwest border, and we urge continued 
oversight and increases. In particular, we ask the Subcommittee 
to work with the DHS Appropriations Subcommittee to insure that 
a devastating wall planned through the lower Rio Grande Valley 
National Wildlife Refuge is not allowed to proceed before 
completion of a thorough assessment and full mitigation plan.
    Last but certainly not least, we thank the Subcommittee for 
its leadership on climate change and, in particular, for 
establishment of the National Global Warming and Wildlife 
Science Center. We ask for $10 million to fund the center in 
2009. We also ask the Subcommittee to include funding and 
specific direction for the development of a national strategy 
to insure a coordinated interagency framework to address impact 
of climate change on wildlife and habitat.
    Mr. Dicks, Mr. Tiahrt, thank you very much for the 
opportunity, and we look forward to continuing to work with you 
this year and in the coming years.
    [Statement of Mary Beth Beetham follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, thank you for a very comprehensive 
statement, and we have enjoyed working with you and your staff, 
and again, I just wish we could do more on these programs. And 
it is just we are at a very difficult budgetary situation.
    Ms. Beetham. And we understand that, and we have been----
    Mr. Dicks. Yeah.
    Ms. Beetham [continuing]. Working to try to get the numbers 
up in the----
    Mr. Dicks. And you did a good job over there.
    Ms. Beetham [continuing]. Budget resolution and----
    Mr. Dicks. Spratt keeps coming up to me and saying, can you 
get those environmentalists off my back. So you did good.
    Ms. Beetham. So we will continue to try to do that and help 
you out.
    Mr. Dicks. John can handle it. Okay.
    Ms. Beetham. Thank you very much.
    Mr. Dicks. Thank you.
    Don Barry, Executive Vice President, the Wilderness 
Society, and a former senior official in the Clinton Interior 
Department.
                              ----------                              

                                          Thursday, March 13, 2008.

                         THE WILDERNESS SOCIETY


                                WITNESS

DON BARRY
    Mr. Barry. Mr. Chairman----
    Mr. Dicks. Good friend.
    Mr. Barry [continuing]. And I have to say that I have 
waited a long time to be able to formally say that to you.
    Mr. Dicks. Yes.
    Mr. Barry. Last year when I showed up at the Subcommittee's 
hearing, I brought my kneepads, and I did not bother to put 
them on, but if you think it will enhance my chances of getting 
what I am asking for, I am more than willing to do that.
    Mr. Dicks. Yes. Those look pretty nice, too. Blue and gold. 
My high school colors.
    Mr. Barry. When I came last year, what I did was I wanted 
to use as a comparison the budget that I last testified on 
behalf of, in the year 2000, the last year that I came up as 
the Assistant Secretary for Fish, Wildlife and Parks. And I was 
using it as a measuring stick to compare last year's 
President's budget, and as bad as the numbers were last year, 
the numbers are much, much, much worse this year.
    Let me just use a couple of examples. When I appeared in 
front of this Subcommittee in April of 2000, I was able to 
request for the Land and Water Conservation Fund $413 million 
for the Administration. This year it is one-tenth of that, 
about $43 million.
    On behalf of the National Park Service and Fish and 
Wildlife Service, I was able to come up here and testify on 
behalf of Land and Water Conservation Fund appropriation 
request of $240 million. This year it is down to $32 million 
for those two agencies, one-eighth of what I was asking for 8 
years ago.
    In terms of what the Appropriations Committee was able to 
do in terms of actual appropriations for the Park Service and 
Fish and Wildlife Service in the year 2000, you appropriated 
$150 million for those two agencies. Again, by comparison what 
this Administration is asking for is one-fifth of that amount 
for those two agencies, and that does not even include the 
operational, I mean, the operational costs of running that 
program are rolled inside that number. So the actual amount of 
land acquired is going to be much, much, much, much less.
    Forest legacy, the same thing. Two-fifths of what the 
Administration, we were asking for something much, much higher. 
The Administration is asking for two-fifths of what we asked 
for, and when you take a look at the way the Land and Water 
Conservation Fund numbers have been slashed from last year's 
appropriated amounts, it is stunning. The only way I can 
describe this----
    Mr. Dicks. This was one of the big things he touted in his, 
we are going to have full funding of the Land and Water 
Conservation Fund.
    Mr. Barry. Absolutely, and he was going to take care of the 
park backlog on maintenance, too, and that never happened.
    The only way I can describe what has happened with the Land 
and Water Conservation Fund appropriations process is that this 
is a bread and water starvation diet for those agencies. And, 
you know, the Forest Service's amount has been slashed by 85 
percent, the Fish and Wildlife Service by 71 percent, Park 
Service by 51 percent, BLM by 50 percent.
    Let me show you a chart. This shows the history of 
appropriations in the Land and Water Conservation Fund for the 
last 30 years, but more importantly is this chart. This shows 
the more recent history, and you can see that the diagonal line 
is heading down in the wrong direction. If this trend 
continues, this line is going to punch through the crust of the 
earth and pop out in Beijing in time for the Olympics.
    And you get to a point really where you have to sit there 
and say to yourself, what is the point of having the program 
anymore if that is the trend line that we are going to be 
facing for all these different agencies.
    Along with the dramatic slash in appropriated funds, what I 
am equally worried about is what is happening with the staffs 
of these agencies. The Fish and Wildlife Service stands to lose 
half of their reality officers with this budget. We have 
already heard a number of people mention the cuts that would 
happen in the Refuge System. I find the----
    Mr. Dicks. What do the realty officers do?
    Mr. Barry. They are the ones who actually go out and 
acquire the lands for the Fish and Wildlife Service or the Park 
Service. So they are key to the Land Acquisition Programs.
    But the thing that I find probably most distressing of all 
is what the Administration has proposed to do with the National 
Wildlife Refuge System. The reason I find this really 
distressing is just 2 years ago the Administration had a big 
celebration for the 100th anniversary of the National Wildlife 
Refuge System, 2 years ago, had a big commission set up.
    Mr. Dicks. Yes.
    Mr. Barry. The current number of unstaffed wildlife refuges 
today is 188. Under the President's budget that has been put to 
this Subcommittee, that is projected to go up to 221 national 
wildlife refuges without a single staff person, almost half. We 
are starting to approach half of the entire Wildlife Refuge 
System without a single staff person to man them. Two years 
after the big celebration for the 100th anniversary. So I find 
that just an amazing way to celebrate the creation of such a 
fabulous system.
    Mr. Dicks. Do you remember back when you were the Secretary 
how many of them were unstaffed?
    Mr. Barry. Well, I could get you that----
    Mr. Dicks. Just to give you a baseline.
    Mr. Barry [continuing]. Number, but it was not even 
approaching that remotely. I mean, I just know that Jamie Clark 
and I worked extremely hard to get the numbers done. I know 
that there was a period there where the very first wildlife 
refuge in the country had no refuge manager, had nobody on the 
ground. And over time we were able to----
    Mr. Dicks. That is down in Florida. Right?
    Mr. Barry. Yes. Yes. We were able to take care of that. So 
I can get you that number, Norm, but I cannot----
    Mr. Dicks. Yes.
    Mr. Barry [continuing]. Give it to you right off the top of 
my head.
    Mr. Tiahrt. Was it all of them?
    Mr. Barry. No. No. No. I would not be trying to say that. 
There have always been staffing problems on refuges, but it has 
just been magnified to a level that I have never seen before.
    You know, I think when you take a look at----
    Mr. Dicks. You are talking about some of these just have 
one person. I mean, it is not like there----
    Mr. Barry. Or one person managing multiple units, too.
    Mr. Dicks. Yes.
    Mr. Barry. And, you know, there is one other thing I notice 
on this big chart here on the history of the Land and Water 
Conservation Funding, if you go back to 1981, which was when 
Jim Watt was Secretary of the Interior, 28 years ago, he got 
155 million acres, excuse me, $155 million for Land and Water 
Conservation Fund 28 years ago.
    Mr. Dicks. And that was a lot more money when you figure 
out inflation.
    Mr. Barry. Yes. And despite your best efforts you had to 
eventually settle for 156 last year.
    Mr. Dicks. Right.
    Mr. Barry. You know, and we appreciated that.
    Mr. Dicks. Yes.
    Mr. Barry. But in effect, you were able to provide way less 
than Jim Watt had 28 years ago.
    Mr. Dicks. Now you really make me feel bad.
    Mr. Barry. Yes. I just wanted to put it into historical 
perspective.
    Mr. Dicks. You know, one time James Watt attacked me 
because I did something in the Committee, I cannot remember 
what it was, and he said, I am going to go out there and debate 
Norm Dicks, and so I put out a press release saying, I will 
send he and his wife first class tickets to Seattle, because I 
want to go, I want to have this debate. Well, he never showed 
up.
    Mr. Barry. He never showed up.
    Mr. Dicks. Never showed up.
    Mr. Barry. Let me just close by saying that there was a 
time when I first arrived in this town 34 years ago when 
conservation was considered to be a conservative virtue.
    Mr. Dicks. Right.
    Mr. Barry. Conservation was considered to be a conservative 
virtue. I think we have lost those times. When the Wilderness 
Act was going through Congress in 1964, the chief proponent of 
that Act in the House of Representatives was a conservative 
Republican Congressman from Pennsylvania, John Saylor. He 
believed that we ought to conserve and save things, and so he 
was a strong proponent of the Wilderness Act. I would just urge 
this Committee on a bipartisan way to support our public lands 
because these are resources that are truly of tremendous value 
to all Americans. There is not such a thing as a Republican 
park or a Democratic wildlife refuge.
    Thank you very much.
    [Statement of Don Barry follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you very much, and we appreciate your good 
work and your lifetime of commitment to these issues. And we 
will continue to work with you and do the best we can.
    Laura M. Bies.
    Ms. Bies. Bies.
    Mr. Dicks. Bies. Sorry.
    Ms. Bies. That is all right.
    Mr. Dicks. The Wildlife Society. And you are Associate 
Director of Government Affairs. We will put your statement in 
the record, and you may proceed for five minutes.
                              ----------                              

                                          Thursday, March 13, 2008.

                          THE WILDLIFE SOCIETY


                                WITNESS

LAURA M. BIES
    Ms. Bies. Okay. Thank you for the opportunity to testify. 
My name is Laura Bies, the Associate Director of Government 
Affairs for the Wildlife Society.
    The Wildlife Society represents nearly 8,000 professional 
and wildlife biologists and managers who are dedicated to 
excellence in wildlife stewardship through science and 
education.
    I will just talk briefly about some of our priorities for 
the fiscal year 2009 budget now.
    I will start with the Fish and Wildlife Service. Funding 
assistance for state wildlife agencies is one of the highest 
priority needs for wildlife, and State Wildlife Grants Program 
meets this need. With the completion of the Congressionally-
Mandated Comprehensive Wildlife Conservation Plans, it is 
critical this program receive adequate funding to assist the 
states with implementation of on-the-ground actions associated 
with the plans.
    As part of the team with Wildlife Coalition, we recommend 
that $85 million be appropriated for the State Wildlife Grants 
Program in '09.
    Equally essential for Wildlife Action Plan implementation 
is a Landowner Incentive Program, which acts in a unique way to 
bring a source of funds to landowners. Funds invested in this 
program today mean potential savings of millions in the future 
by preventing species from declining to a point that it 
requires listing under the Endangered Species Act.
    We urge you to restore this program to $23.7 million, which 
was the fiscal year 2007, enacted level.
    Another key program for the Society is the National 
Wildlife Refuge System. We are part of the Cooperative Alliance 
for Refuge Enhancement or CARE.
    Mr. Dicks. Right.
    Ms. Bies. A diverse coalition of 22 organizations 
representing over 14 million members and supporters. CARE has 
determined that the National Wildlife Refuge System needs $765 
million in annual appropriations by 2013, to properly 
administer its nearly 100 million acres. Years of stagnant 
budgets have increased the operations and maintenance backlog 
to $3.5 billion and forced plans for a dramatic 20 percent 
downsizing of the workforce.
    Refuge visitors often show up to find roads and visitor 
centers closed, observation platforms and hiking trails in 
disrepair, and habitat restoration and education programs 
eliminated.
    As part of CARE we respectfully request that you provide 
$514 million for the Refuge System in '09, and I do want to say 
that we truly appreciate the budget increase that we saw in 
'08, and really hope we can try and build upon that again this 
year, because as we all know, the Refuge System really needs 
that funding.
    Next I would like to address the Bureau of Land Management. 
BLM manages more public land than any other federal agency. 
However, its programs to manage fish and wildlife are 
chronically understaffed. The BLM has only one biologist per 
591,000 acres.
    Given the significant underfunding of BLM's wildlife 
programs, combined with the tremendous expansion of energy 
across the BLM landscape, an increase to $52 million for the 
BLM Wildlife Management Program is warranted.
    Also within BLM, their Threatened and Endangered Species 
Management Program would suffer a significant cut over, under 
the Administration's request. The current budget is already 
woefully inadequate for BLM to meet its current 
responsibilities in Endangered Species Recovery Plans.
    In addition, the budget request ignores the agency's March, 
2001, report to Congress which called for a doubling of the 
current budget in that program to $48 million and an increase 
of 70 staff positions over 5 years.
    In view of this gross inequity between the resource needs 
of the agency and the current funding levels, we strongly 
encourage that funding for this program be increased to $33.5 
million.
    Finally, I would like to touch on a few key programs within 
the U.S. Geological Survey. As a member of the USGS Coalition 
we support overall funding of $1.3 billion for USGS in fiscal 
year 2009. This would enable them to meet new challenges which 
continuing to provide essential data for land use management, 
sustainable natural resource development, and enhanced security 
from natural and manmade hazards.
    We are concerned that the proposed budget includes only 82 
percent of uncontrollables for the biological resources 
discipline. We strongly recommend that to the best of your 
ability to fully fund these uncontrollables to prevent further 
erosion to essential programs and services within the BRD.
    We also support increased funding for the Cooperative Fish 
and Wildlife Research Units. Fiscal year 2001, was the last 
time Congress could fully fund those Co-op Units, and that 
allowed the unit productivity to rise to record levels.
    However, since then budget shortfalls have caused an 
erosion of available fiscal resources, resulting in a current 
staffing vacancy of 23 researcher positions, which is nearly 
one quarter of the professional workforce of the units.
    The fiscal year 2009 budget for the Co-op Unit should be 
increased to $19.1 million to help stop this funding shortfall.
    Finally, I want to say that Wildlife Society really 
supports the funding provided last year for the National Global 
Warming and Wildlife Science Center. This is a huge issue for 
the Society and really we appreciate the recognition of the 
need to address this as soon as possible.
    However, we feel additional funding is needed in fiscal 
year 2009, to continue establishment of the center, begin to 
fund key research priorities that have been identified, and 
enable USGS and its partners to develop a comprehensive plan 
for moving forward to address the impacts of climate change on 
wildlife.
    Therefore, we recommend that the National Global Warming 
and Wildlife Science Center be funded at $10 million in fiscal 
year 2009.
    Thank you very much for considering----
    Mr. Dicks. Thank you.
    Ms. Bies [continuing]. The views of wildlife professionals, 
and we look forward to working with you.
    [Statement of Laura Bies follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Very nice.
    Ms. Bies. Thank you.
    Mr. Dicks. Appreciate your good work.
    Yes. Tom Kiernan, President of the National Parks 
Conservation Association. Hi, Tom. How are you?
    Mr. Kiernan. Doing well, sir.
    Mr. Dicks. Sorry for the delay, but we were all stuck in 
the same, the staff schedules. It is a torture drill for the 
members. But we love it. We are glad you are here.
                              ----------                              

                                          Thursday, March 13, 2008.

                NATIONAL PARKS CONSERVATION ASSOCIATION


                                WITNESS

THOMAS KIERNAN
    Mr. Kiernan. Thank you very much, Mr. Chairman, Mr. Tiahrt, 
for the opportunity to speak today on behalf of NPCA's 340,000 
members. Before talking about '09, I would like to take a 
moment and thank you deeply, sincerely for the extraordinary 
leadership in the '08, budget. The $122 million increase in the 
operating budget for the Park Service, as well as the $25 
million increase in the Centennial Challenge, was an 
extraordinary catalyzing budget as we enter this 10-year window 
leading up to the Centennial of the National Park Service. The 
opportunity that we have to reach an extraordinary potential 
for the National Parks at their 100th, you have been able to 
get going with this budget. And we thank you.
    Before talking about '09----
    Mr. Dicks. Appreciate that.
    Mr. Kiernan Appreciate your leadership. I do want to say 
upfront that we very much recognize and acknowledge the 
extraordinary budget challenges that you do have in this coming 
year. We, along with many others, have been talking to Mr. 
Spratt, and others on the Budget Committee, as well as the Full 
Appropriations Committee to increase the allocation to this, to 
your Committee.
    In '09, we do want to add our strong support to the 
Administration's $161 million proposed increase in the 
operating budget. NPCA launched an effort many years ago with 
our Endangered Rangers Report, Mr. Chairman, that you know 
well, and we have built on that report, showing and analyzing, 
articulating the decline well over a decade, the decline in 
seasonal rangers, the decline in the number of programs, the 
ability of the Park Service to keep its toilets clean, its 
visitor centers staffed.
    So the increase we hope will continue what you did in '08, 
that began reversing the over-a-decade-long trend. The recent 
challenges we have had on the park police we think are just one 
more indication or example of the problem in the fundamental 
operating needs of the parks.
    While we strongly support that operation increase of $161 
million, it did come at the cost of other important Park 
accounts that we do think need to be----
    Mr. Dicks. Construction in particular.
    Mr. Kiernan. Exactly. Construction account, the propose a 
drop of $46 million, down to about $170 million. That is, that 
would end up being about one-half of what the construction 
account was 5 years ago, and there is no way we can make 
progress against the $6, the $12 billion backlog if we are at 
those levels.
    I will point out, though, that we do support the $10 
million Tamiani Trail----
    Mr. Dicks. Yes.
    Mr. Kiernan [continuing]. Increase, as well as the $20 
million increase for the Oha River; two extraordinary, 
important projects.
    Another account that took a huge hit is the Land 
Acquisition Account. Park Service currently has a $1.9 billion 
backlog of priority land purchases. The Park Service portion of 
this, the Administration is proposing be cut from $44 million 
last year to $21 million this year. That is a dramatic cut. We 
strongly oppose. In fact, we think the $44 million increase 
needs to be increased up to--or $44 million from last year 
needs to be bumped up to $94 million this coming year to begin 
to address that significant backlog of in-holdings.
    I would also like to say a word about the Great Lakes. 
There are a number of national parks up there, and I have the 
honor of being co-Chair of the Great Lakes Heliar Waters 
Coalition and would hope the Committee would consider 
increasing both the Great Lakes Legacy Act Accounts as well as 
the Great Lakes Fish and Wildlife Restoration Accounts.
    Lastly, because we know this Committee cares deeply about 
the Centennial Challenge, did want to let you know that we are 
continuing our work with the Authorizing Committee----
    Mr. Dicks. Yes. This is critical. We have got to get the 
authorizers to come up with something. Now, somebody was 
talking about maybe a stamp. Have you heard about this?
    Mr. Kiernan. Yes. As----
    Mr. Dicks. A stamp that would go, instead of, what is it, 
38? What is that? Forty-one. Would go up to 50 cents. They do 
this, I think, on some health issues.
    Mr. Kiernan. Yes.
    Mr. Dicks. And maybe we could look at that. That might be 
a, might not be a bad idea.
    Mr. Kiernan. We think that is a good idea and one of a 
couple of ideas that if you package them together----
    Mr. Dicks. Might get us there.
    Mr. Kiernan [continuing]. Exactly. Could get the entire 100 
million there. We believe----
    Mr. Dicks. Take awhile to get the stamp revved up, but I 
mean, I mean, you could have a great stamp. You could have, you 
know, pictures of various parks and that. I think it would be--
--
    Mr. Kiernan. And it is clear that the----
    Mr. Dicks. Would be a huge audience for that, I think.
    Mr. Kiernan. Very much so. And the private sector is 
stepping forward in their potential support for these projects. 
So we would have private sector----
    Mr. Dicks. Yes.
    Mr. Kiernan [continuing]. Funding and----
    Mr. Dicks. We have a great amount of money available. We 
just do not have the 100 million that we were supposed to have 
in mandatory spending.
    Mr. Kiernan. Right. And I think----
    Mr. Dicks. And we put the 25 million in just to kick start 
the thing.
    Mr. Kiernan. And I think we will see this spring and summer 
the results of that kick starting, because we are already 
seeing some of the projects. Hopefully the Park Service will 
announce in the next week or so is our understanding that list, 
and we will see the benefits this next year.
    So in close, national parks are not just about our past. 
They are about our future, and we have got the Centennial 
coming up.
    Mr. Dicks. Well, it is one of the most important things to 
the American people, and you have done a great job. 
``Endangered Ranger'' really caught my attention and many 
others up here, and you know, this is the one really positive 
thing in the entire budget and then as you said, they made cuts 
in other areas within the Park Service budget to plus up 
operations. But we have to have operations or you are not going 
to have a decent experience.
    Mr. Kiernan. Absolutely. And now is the time to continue 
the increase that you launched in '08, to continue successive 
increases as we head towards the Centennial so at the 
Centennial we have got a national park system the entire 
country can be proud of.
    Thank you.
    [Statement of Thomas Kiernan follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you for your good work.
    Evan Hirsche, President of the National Wildlife Refuge 
Association. Evan, how are you?
    Mr. Hirsche. I am very well.
    Mr. Dicks. Good to see you.
    Mr. Hirsche. How are you? Thank you, Mr. Chairman----
    Mr. Dicks. We are holding up.
    Mr. Hirsche [continuing]. And Mr. Tiahrt.
                              ----------                              

                                          Thursday, March 13, 2008.

                  NATIONAL WILDLIFE REFUGE ASSOCIATION


                                WITNESS

EVAN M. HIRSCHE
    Mr. Hirsche. Thanks so much for the opportunity to testify 
on National Wildlife Refuge System priority funding. Like 
others before me I would like to thank you, Mr. Chairman, and 
the rest of the Subcommittee for tremendous work on the fiscal 
year 2008 budget to increase funding for the National Wildlife 
Refuge System. Your proposed budget of 56 million was truly 
phenomenal, and while we were certainly disappointed with the 
number that came out of conference, the enacted 39 million was 
greatly needed, and your support truly meant all the 
difference.
    Mr. Dicks. Thank you.
    Mr. Hirsche. I did want to take a moment to convey the 
special appreciation of National Wildlife Refuge Friends Groups 
across the country. The National Wildlife Refuge Association is 
comprised of a membership of current and former refuge 
professionals but also more than 150 refuge friends 
organizations who serve as affiliates and work locally to 
support the refuges through volunteer and community outreach 
and other activities. And you really do a tremendous amount of 
lifting for the Refuge System. And we have heard from all 
across the country, from Refuge Friends, how appreciative we 
are of the Committee for these increases.
    As you probably know 20 percent of the work conducted on 
the National Wildlife Refuge System is done by friends and 
volunteers, and I think that is fairly----
    Mr. Dicks. That is good.
    Mr. Hirsche [continuing]. That is probably unprecedented.
    Mr. Dicks. Congratulations to your group for doing that.
    Mr. Hirsche. So----
    Mr. Dicks. That is vitally important.
    Mr. Hirsche. Thank you. I mean, they are doing a phenomenal 
job, and so it is important to recognize and support these 
efforts through continued and consistent funding increases.
    All right. To that end, the NWRA Friends Groups across the 
country and the CARE Group respectfully request operation and 
maintenance allocation of $514 million for fiscal year 2009. 
Now, you have heard from previous speakers about some of the 
needs, and your comments earlier were certainly appreciated, 
but let me put it in context.
    Even with the increase that was received in fiscal year 
2008 we are seeing tremendous challenges throughout the system. 
For example, in Washington State alone you have got 360 high-
priority refuge projects that amount to $48.9 million alone. At 
Kirwin National Wildlife Refuge, which is in Kansas, they used 
to have eight full-time staff and three seasonal workers. They 
are now down to three staff.
    We were talking earlier, I think, with Don Barry about 
unstaffed refuges. Well, if you look at the Shawangunk National 
Wildlife Refuge in New York State, they have no staff. They are 
complexed under the Wallkill River Refuge, which straddles 
between New Jersey and New York State. And in fact, Wallkill is 
scheduled to lose their refuge manager as well. So not only are 
we losing staff at complexed refuges, we are actually losing 
staff at the lead refuges for those complexes.
    Now, while we certainly have challenges in managing the 
National Wildlife Refuge System, in interesting perspective 
looking at refuges, particularly in the lower 48 states, is 
that they are small in scale. And fundamentally, if you look at 
land use patterns over the last 20, 30 years, refuges that 
formerly were rural are now urban or suburban. In 2005, we 
released a report called, Beyond the Boundaries, which sounded 
a clarion call to the need to conserve refuge buffer zones and 
corridors.
    Indeed, Dr. Michael Scott of the University of Idaho, has 
talked about how the vast majority of refuges in the lower 48 
are unable to meet their core conservation mission, unless we 
are working to protect buffer zones and corridors.
    To that end, the National Wildlife Refuge Association 
requests that the Subcommittee allocate $55.1 million for the 
partner Fish and Wildlife Service, Partners for Fish and 
Wildlife Program, of which $2 million be allocated specifically 
to conduct strategic habitat conservation around national 
wildlife refuges that involves refuge friends and other 
national, regional, and local interests, that work with states, 
countries, and municipalities to identify, prioritize, and 
implement land and water conservation opportunities.
    Mr. Dicks. Do they get some money, some mandatory spending? 
Is there a mandatory account that they get for land 
acquisition? Fish and Wildlife Service?
    Mr. Hirsche. Duck Stamp dollars do go to acquiring refuge 
habitat.
    Mr. Dicks. How much is it? Just refuge habitat. But they 
cannot do----
    Mr. Hirsche. That is correct. Yeah.
    Mr. Dicks. Thirty-four million.
    Mr. Hirsche. Thirty-four million----
    Mr. Dicks. So, yes.
    Mr. Hirsche [continuing]. In the fiscal year 2008. That is 
correct.
    Mr. Dicks. Thank God we have that.
    Mr. Hirsche. That is a good thing.
    Mr. Dicks. Yes.
    Mr. Hirsche. Absolutely. And these strategies using the 
partners' money are really vital to conserving buffer habitats 
and wildlife corridors, and it is really a strategic approach 
to conserving habitat that engages communities and results in 
communities that are both economically and environmentally 
sustainable.
    We also thank the Committee for its tremendous support of 
volunteers and invasives on refuges, and once again, request 
that the Committee support a $1 million allocation to this 
effect. Just looking at some of the numbers, since the 
Committee and Congress allocated its first round of funding in 
fiscal year 2003 the program has enabled 2,750 volunteers to 
contribute more than 49,000 hours to the treatment, inventory, 
and restoration of over 211,000 acres of refuge lands. In 
fiscal year 2006 a total of 917 volunteers contributed 22,000 
hours for the restoration and inventory of 73,909 refuge acres. 
So truly phenomenal commitment and a great leverage of federal 
resources.
    Talking----
    Mr. Dicks. That is really outstanding.
    Mr. Hirsche. It is wonderful.
    Mr. Dicks. It is amazing.
    Mr. Hirsche. It is incredibly inspiring.
    Mr. Dicks. Leveraging of, for funds. I mean, that is 
fantastic.
    Mr. Hirsche. Absolutely. And we thank the Committee for 
that support. It has made all the difference.
    Refuge system land acquisition backlog is estimated to be 
more than $4 billion. We have got over 15 million acres 
remaining to be acquired just within approved refuge 
boundaries. And to that end, the Refuge Association supports 
$100 million allocation for land acquisition for refuges. I 
realize it is a large request, but there is an enormous need 
out there as we have discussed.
    I would also encourage the Subcommittee to resist zeroing 
out the President's, the Refuge System's construction budget in 
the President's budget, and instead allocate $25 million to 
that end. The Fish and Wildlife Services identified over $1 
billion in construction projects, and in many cases these are 
going to replace quickly-deteriorating structures. And that is 
adding up costs to that end.
    Mr. Dicks. Your time has expired. We will look at the rest 
of your statement, and we appreciate your good work.
    Mr. Hirsche. Great. Thank you, Mr. Chairman.
    [Statement of Evan Hirsche follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. LuAnne Kozma, Michigan Director, Defense of 
Place.
    Ms. Kozma. Thank you.
    Mr. Dicks. Yes. Welcome.
    Ms. Kozma. Thank you very much.
                              ----------                              

                                          Thursday, March 13, 2008.

                            DEFENSE OF PLACE


                                WITNESS

LUANNE KOZMA
    Ms. Kozma. Yes. I am the Michigan Director of an 
organization called Defense of Place, which works to assure 
that parks remain protected in perpetuity.
    I have been advocating for the protection of Michigan's 
public parks for nearly a decade and have been working with 
grassroots community groups and individuals doing the same as a 
citizen advocate myself. I appreciate this opportunity to 
testify today about the Land and Water Conservation Fund 
administered by the National Park Service.
    I urge you to restore and expand funding for this program, 
and in particular that you absolutely require the 
administrative oversight of the stateside part of the program. 
We must vigorously enforce the protection this Act provides for 
the approximately 40,000 local and state parks around the 
Nation.
    I support the funding level of $125 million for the 
statewide LWCF, and I believe that this is actually a modest 
amount for what is really needed, and it is only, of course, a 
fraction of what is authorized.
    I am greatly troubled by the request in the President's 
budget that calls for stripping away the oversight function of 
this program. What oversight provides is the main purpose, the 
accountability and the legacy of the Act to ensure that these 
parks in their entirety are still here for our future 
generations.
    This is more critical than ever before, because our parks 
are, have become the targets of increasing attacks by private 
interests and governmental attempts to take public parkland out 
of public use and essentially rob the fund. The funding is 
needed for the Department to ascertain if a proposed conversion 
is a legitimate one and to fend off those that are not.
    I have two Michigan examples that I would like to share 
with you about this disturbing trend and that show why we must 
continue funding this program.
    One is Jean Klock Park in Benton Harbor, Michigan. It was 
gifted as a public park over 90 years ago for the community and 
children of Benton Harbor. The Land and Water Fund contributed 
to the park's amenities. The state spent $1.7 million in 
addition, and there were, of course, 90 years of local support. 
This park is priceless. It is on Lake Michigan, has a half-mile 
of Lake Michigan lakefront and dunes that provide a beautiful 
view of the lake.
    A few years ago residents sued to save part of the park 
from a luxury home development, and in exchange for allowing 
some of the homes to go in, settled on an agreement, thinking 
that they had, once again, achieved permanent protection for 
the rest of the park. But little did the residents and city 
leaders know that the park was Land and Water protected, and 
that this was actually the beginning of a long-time plan, 
private development plan, to take over most of the park for 
three holes of a high-end, privately owned golf course, 
combined with 700 homes, a hotel, and a water park.
    This plan is being driven by private entities created by 
Whirlpool Corporation and its chief executives, but the park 
belongs to the people of Benton Harbor.
    NPS has already once rejected this profoundly flawed 
proposal and when it does deny a conversion such as this, it 
goes up against powerful developers with millions of dollars to 
spend. And in fact, these same developers are continuing the 
attack on Jean Klock Park, putting this, essentially with the 
same well-funded proposal, and they are putting the park in 
grave danger of, you know, forever being stolen from the 
community.
    The staff of the Park Service, of course, as you know, is 
professional and committed to protecting public parks, but they 
have few resources with which to doublecheck and verify the 
claims made in these very elaborate plans, which are assembled 
by those who have an interest in the theft of the public 
assets.
    Just by way of illustration, a total of $126 million of 
Land and Water money has gone to Michigan parks, about 2,000 
parks over the past 40 years. If one private entity is allowed 
to liquidate a park like Jean Klock Park, even at conservative 
estimates valued at about $15 million, and we believe that is 
probably off by an order of magnitude, then it essentially is 
robbing the Federal government of a huge portion of the 
investment of all of Michigan's parks through this program.
    And Proud Lake State Recreation Area is my second example. 
For the past 4 years a citizens' group in Michigan has been 
waging a grassroots campaign against the State of Michigan's 
decision to sell about 560 acres of Proud Lake State Park. By 
the time the state made an offer to sell this parkland to a 
local township for $13 million plus a $1.4 million transaction 
fee, the Michigan DNR had already, behind the public's back, 
gone to the Park Service to administratively change the 
boundaries of the park to exclude the acreage so that it could 
be sold.
    The park had at least six Land and Water grants in it, and 
each time the state pledged to encumber the entire park, the 
state has now violated that agreement by claiming that this 
acreage was never inside the boundaries.
    To summarize, the fund, to fund the Land and Water Program 
at meager amounts, at $30 million even, is a disservice to the 
mission of this program and to the Nation. What is most at 
stake is not the few dollars that we put in now to developing 
and acquiring new parks, but what is really at stake is how it 
fails to protect the existing parks----
    Mr. Dicks. Yes.
    Ms. Kozma [continuing]. The vast majority. It is like kind 
of putting water into a bucket--am I done?
    Voice. You are done.
    Ms. Kozma. Okay.
    Mr. Dicks. But you did a good job.
    Ms. Kozma. Okay.
    [Statement of LuAnne Kozma follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. And make sure you talk to your members of your 
Congressional delegation from Michigan about these things.
    Ms. Kozma. We do. Yeah.
    Mr. Dicks. Good.
    Ms. Kozma. They certainly know about it.
    Mr. Dicks. Good.
    Ms. Kozma. Okay.
    Mr. Dicks. Thank you very much.
    Ms. Kozma. Thank you very much.
    Mr. Dicks. Right.
    Joe Kessler, President on behalf of the Friends of the 
Virgin Islands National Park. Joe, how are you? Welcome.
    Mr. Kessler. Nice to see you again.
    Mr. Dicks. Yes.
                              ----------                              

                                           Thursday, March 13, 2008

                FRIENDS OF VIRGIN ISLANDS NATIONAL PARK


                                WITNESS

JOE KESSLER
    Mr. Kessler. And I would like to thank you before we get 
started for your visit to study the problems and the issues 
facing the park in the Island.
    Mr. Dicks. And Donna got her bill passed, which is good.
    Mr. Kessler. She did.
    Mr. Dicks. Yes. Well, we are glad to have you here.
    Mr. Kessler. Well, thank you very much, sir, and----
    Mr. Dicks. Put your statement in the record, and you have 
five minutes to summarize.
    Mr. Kessler. Great. We appreciate the opportunity to 
provide testimony on behalf of an important land acquisition 
funding need for the Virgin Islands National Park, an 
appropriation of $4.5 million from the Land and Water 
Conservation Fund as requested in fiscal year '09, to begin 
Park Service acquisition of the unique Maho Bay property.
    I represent the Friends of Virgin Islands National Park, a 
501C3 non-profit organization, whose members are bound by our 
dedication to the protection and preservation of the natural 
and cultural resources of Virgin Islands National Park, and it 
is promoting the responsible enjoyment of this unique national 
treasure.
    While we have considerable participation of Virgin 
Islanders, we are not just a local organization. Our members 
come from every state in the Union and several foreign 
countries. In fact, 40 percent of our members come from the 
home states of the members of this Committee.
    Virgin Islands National Park is a Caribbean jewel and the 
crown of the National Park Service. Those of you who had the 
opportunity of visiting the park, such as yourself, sir, can 
attest to the incomparable beauty of the Virgin Islands 
National Park.
    I would like to take this opportunity to thank you for 
visiting firsthand and studying those problems. As you can also 
attest----
    Mr. Dicks. Excuse me.
    Mr. Kessler. No problem.
    Mr. Dicks. I thought I had it off. Go ahead.
    Mr. Kessler. As you can also attest, the Maho Bay area is 
one of the most beautiful parts of the park, stretching inland 
from the Maho Bay and its white powdery sand beach to the 
surrounding thousand foot ridge line. There is a virgin green 
watershed, extremely rich in botanic wonders and historic 
treasures.
    I am sure this Committee has heard about the many technical 
details concerning this appropriation. I hope you have heard 
about how this property divides the park in two and hampers 
effective management and protection of the park's resources, 
about the flora and fauna, both terrestrial and marine, which 
are threatened by development, and about the remarkable 
historic structures on the property that do not enjoy 
protection from the park and already many important artifacts 
have been looted.
    What I would like to talk about today is what Maho Bay 
means to the people who live on St. John, both native St. 
Johnians and those who have chosen to make St. John their home, 
as well as the millions of visitors a year who come annually to 
experience and enjoy this remarkable place.
    Most residents, visitors, and even some MPS staff go to 
Estate Maho Bay was part of the park. It looks like a park, 
smells like a park, and feels like a park, but it is not. It is 
a private in-holding within the park, which until recently was 
owned in common by 11 heirs. Family disagreements over the 
future of the land prevented any development to this area, and 
we were all navely able to enjoy the peace and serenity of this 
remarkable place.
    Maho Beach is the most accessible beach on the Island and 
one of the most popular. Due to its close proximity to the 
road, the nearly flat beach and the shallow water, it is 
particularly popular with families with small children, people 
with mobility concerns, non-swimmers, and of course, those who 
just love a beautiful beach.
    This beauty and serenity was shattered in 2005, with the 
news that the land was being purchased by a stateside 
developer. Despite his statements that part of the land would 
be preserved, the full threat became clear with his plans to 
build a dock 120 feet out into the bay, drain the wetlands 
behind the beach, and divert the road inland.
    This threat galvanized the community and those who love 
Maho Bay. The Friends played an important role of informing and 
motivating the community about the issues related to the 
preservation of Estate Maho Bay and the threat this development 
portended. But motivation was hardly needed. The preservation 
of Estate Maho Bay and ensuring unimpeded access to the 
spectacular area draws near unanimous support among native St. 
Johnians' residents and visitors alike. No easy feat for a 
community that prides itself on its diversity of opinions.
    Eventually the letters to the editor and pieces appeared in 
local papers, and more than 1,000 E-mails and letters were 
received by the National Park Service, urging the director to 
stand fast in opposition to this development. The will of the 
people prevailed, and the developer backed away from his plans 
that would have destroyed this wonderful place.
    This lauded land preservation organization with whom we 
work in partnership to step in and acquire the land with the 
aim of conveying it to the Park Service. It is only by 
conveyance to the Park Service that this land can be truly 
preserved and the threats averted.
    And now we have the unique opportunity to preserve this 
spectacular place and make Virgin Islands National Park whole. 
This property is being made available to the National Park 
Service for a total of $9 million over 2 years, about half of 
its appraised value, with the balance to be provided through 
private donations of cash and land value.
    This year an appropriation of $4.5 million is needed from 
the Land and Water Conservation Fund towards the purchase of 
the first phase. This preservation effort has been the result 
of the dedication and hard work of many parties. We are 
grateful to the expertise and persistence of the Trusts for 
Public Land in shepherding this project through its many 
hurdles, to the owners of the land for their commitment to the 
preservation of their heritage, and to our delegate to 
Congress, the Honorable Donna Christensen, Donna Christensen 
for her tireless support.
    Mr. Chairman and distinguished Committee members, the fate 
of Estate Maho now rests with you. I want to thank you for this 
opportunity to testify on behalf of this important land 
preservation effort, and on behalf of the residents of St. John 
and over the 1 million visitors to the park each year, I 
appreciate your consideration of this funding.
    [The statement of Joe Kessler follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, we enjoyed our visit down there, and we 
will work with Donna on this. She is a valued colleague and she 
is very committed to this. So we will do our best.
    You know, the Administration only has $5 million in land 
acquisition for Park Service projects, four projects. So we are 
going to have to----
    Mr. Kessler. Well, it is the number one priority in the 
region and number three priority nationally. So----
    Mr. Dicks. Yes. Good. Thank you.
    Mr. Kessler. Thank you, sir.
    Mr. Dicks. Karen Munro. Karen, you have been here a long 
time. Now you know all the things, all the problems I face.
    Ms. Munro. That is right. It has been interesting.
    Mr. Dicks. Yes. It certainly, it has been interesting. 
Well, you are welcome--
    Ms. Munro. Thank you.
    Mr. Dicks [continuing]. And we will put your statement in 
the record, and you have five minutes to summarize.
                              ----------                              

                                          Thursday, March 13, 2008.

                 FEDERATION OF STATE HUMANITIES COUNCIL


                                WITNESS

KAREN MUNRO
    Ms. Munro. Thank you, Chairman Dicks, and I appreciate the 
opportunity to testify on behalf of the State Humanities 
Council, the state affiliates of the National Endowment for the 
Humanities.
    I am here to support the Humanities Commission's request or 
Communities' request of $177 million for the NEH and to request 
an increase in federal funding for the NEH federal state 
partnership of $15 million to $47 million for fiscal year 2009. 
Because of the Council's excellent record of raising matching 
funds from state governments and private sources, we can 
confidently state that these funds will at least be doubled.
    The National Endowment for the Humanities was founded in 
1965, in part because ``Democracy demands vision and wisdom of 
its citizens.'' The State's Humanities Councils enable people 
throughout the Nation to expand their vision, learning from 
human experience across time and around the world. Individuals 
gain wisdom through Council programs, coming together for 
informed civic discourse on public issues.
    We greatly appreciate the support Congress and especially 
this Subcommittee has provided to State Councils over the 
years, allowing us to work in partnership with NEH and provide 
responsive, innovative programs at the local level. State 
Councils have become the neighborhood face for important 
national initiatives such as We the People, which is 
revitalizing the understanding of American history.
    Last year through a We the People grant in our state, seven 
ethnic and tribal organizations created a traveling exhibit 
documenting their unique histories. One of the sponsors, the 
Black Historical Society of Kitsap County, showed the 
experiences of the black shipyard workers who came to Bremerton 
from other parts of the country during World War II and who, 
incidentally, worked with your father and my husband's father 
there.
    Often those who have taken part in our programs write to 
say how an experience enriched their lives. A Marysville woman 
reacting to the Inquiring Mind presentation, I am no Hero, 
Journeys of a Holocaust Survivor, said, ``He is an excellent 
speaker, and he inspired our family to visit Dachau in Germany 
to learn more.''
    The diversity and reach of Council programs tailored to the 
needs of each state and territory can be seen in the California 
Stories Initiative, through which citizens learn about the rich 
culture of their communities. And the Justice Talking Program, 
through which Illinois young people use readings to consider 
questions underlying civic service.
    But today's needs far outdistance the funding available. 
The Federation of State Humanities Councils has identified 
unmet needs in community humanities programs of more than $50 
million. To address those needs the State Humanities Council is 
requesting an increase of $30 million in federal funds over the 
next 2 years, which will enable them to leverage additional 
matching funds in their states.
    Increased funding will be critical to meet important needs 
such as these. Opportunities to build community through civic 
conversations, generated through dynamic speakers, exhibits, 
films, books, dramatic presentations, and other formats. New 
media and technology resources that offer millions of Americans 
access to historical and cultural knowledge through documentary 
films, radio programs, and electronic state encyclopedias. 
Expanded reading and literacy programs that bring community 
members together to discuss books and ideas and create lifelong 
readers. Such programs often blend reading training with 
participation in the vital civic experience of community 
discussion.
    An instructor in our Mother Read, Father Read Literacy 
Program for low income parents of young children told us, 
``Thanks to this program our culturally-diverse group was given 
an opportunity to learn so much by sharing children's 
literature, as well as family values, traditions, and 
legends.'' Our common goal is to enhance reading and 
communication skills within the family unit.
    And finally, a child of a class participant, whose family 
probably did not have children's books in their home until the 
mother received a paperback book at each session, wrote to us. 
``Thank you for giving my mom books. I read all the books that 
you gave to her. I like the books so much. My brother reads and 
likes the books, too. Today, is my birthday. I am ten.''
    On behalf of this child and the millions of other citizens 
whose horizons have been expanded through programs of the State 
Humanities Councils, I thank the members of Congress and 
respectfully ask for your continuing support of our work.
    Thank you very much.
    [The statement of Karen Munro follows:] 

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, I just want to say I very much have 
appreciated over the years your willingness to come back and 
help our office understand the importance of these programs, 
and we want to do more on these things. It is just a question 
of the budget. I mean----
    Ms. Munro. I know.
    Mr. Dicks. And as you heard, we got a budget $1 billion 
below last year's level. I do not know how you do this. I mean, 
we should have gotten a $600 million adjustment to the 
baseline.
    So we will do the best we can.
    Ms. Munro. Well, you and your community have----
    Mr. Dicks. I mean, it is just----
    Ms. Munro [continuing]. Been wonderful supporters for us.
    Mr. Dicks. And then you heard all these tribal leaders 
here. I mean, the situation out in Indian country, which you 
are very sensitive----
    Ms. Munro. Sure.
    Mr. Dicks [continuing]. To, is dire. And you have 
healthcare issues. I mean, it is a very difficult thing.
    But we are going to do our best. We tried to help last year 
and----
    Ms. Munro. You certainly did.
    Mr. Dicks [continuing]. If we could get the other body----
    Ms. Munro. And we appreciate your support.
    Mr. Dicks [continuing]. To go along with this a little bit, 
we----
    Ms. Munro. I know.
    Mr. Dicks [continuing]. Could do fine. But, and, again, I 
want you to know how much I appreciate you, both you and Ralph 
and the great friendship we have had over the years----
    Ms. Munro. Thank you.
    Mr. Dicks [continuing]. And the great meetings we have had 
at your house near Olympia, and it has meant a lot to us.
    Ms. Munro. Well, thank you.
    Mr. Dicks. Thank you.
    Ms. Munro. Appreciate your support so much.
    Mr. Dicks. I am sorry about your dog, too. That was----
    Ms. Munro. We have a new dog now.
    Mr. Dicks. Oh, good.
    Timothy Regan, President, Emissions Control Technology 
Association.
                              ----------                              

                                          Thursday, March 13, 2008.

                EMISSIONS CONTROL TECHNOLOGY ASSOCIATION


                                WITNESS

TIMOTHY REGAN
    Mr. Regan. Thank you, Mr. Chairman. Appreciate the 
opportunity, but I feel that I am bringing coals to New Castle. 
I am here to talk about the Diesel Emission Reduction Act, and 
you have been fabulous and your staff has been fabulous, Mike, 
Peter, Delia. Everybody has done, I know, everything you can to 
help out with the program.
    It all started here back in fiscal '03, when this 
Committee, Subcommittee funded the Clean School Bus USA 
Program, an enormously successful----
    Mr. Dicks. Great program.
    Mr. Regan [continuing]. Fabulous program. And in fact, what 
it has done is cleaned up 40,000 school buses and now 1.5 
million kids get cleaner air as a result. So it has been a 
great success.
    Mr. Dicks. Cannot beat that.
    Mr. Regan. Cannot beat it. It is a great success, and in 
fact, what happened is because of that success the Diesel 
Emission Reduction Act was passed as part of the 2005, Energy 
Bill, and you were the first one to actually fund the program.
    Mr. Dicks. Good.
    Mr. Regan. So we appreciated very much last year the 
President asked for 35. You increased it by 40 percent to 50, 
and the program is being launched this year, and we are excited 
about it.
    We are here to ask you to do the same thing you did last 
year, if you can. We know that you are really under a lot of 
financial stress in this Subcommittee, and there are a lot of 
difficult choices to make. But we would appreciate if you would 
consider the possibility of giving us another increase to $70 
million this year. Makes a lot of sense, I think, from an 
economic perspective, because this technology has proven itself 
to be very cost effective, the most cost-effective technology 
that is out there today for cleaning up the transportation 
sector.
    And, you know, this kind of pollution is, you know, 
currently now the biggest threat to human health that is out 
there from the transportation sector, so we appreciate what you 
have done, and if you can----
    Mr. Dicks. We will just try----
    Mr. Regan [continuing]. Give a little more this year, we 
would appreciate it. Thanks.
    [The statement of Timothy Regan follows:] 

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Good. Well, thank you very much, and we 
appreciate your patience here. And you are our last witness, I 
think, for today.
    Mr. Regan. Thank you.
    Mr. Dicks. Yes. So the Committee will stand adjourned until 
the call of the Chair.
                                           Thursday, April 3, 2008.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                            PUBLIC WITNESSES

    Mr. Dicks. The committee will come to order.
    I want to welcome everybody here today. We will have two 
hearings this morning. The first half-hour will be devoted to 
testimony of five public witnesses that were unable to be 
scheduled on the previous public witness day. I ask you to be 
brief and follow the five-minute rule so that we may proceed to 
the second hearing, the Budget for the Bureau of Indian Affairs 
and the Office of Special Trustee for American Indians, which 
will immediately follow the testimony of the public witnesses.
    Mr. Dicks. I ask our first witness to come to the table, 
John Churchill, president, the National Humanities Alliance. 
John, good to see you again.
    Mr. Churchill. Good morning, sir.
    Mr. Dicks. I enjoyed our event there the other day.
    Mr. Churchill. We appreciate your coming.
    Mr. Dicks. It was a wonderful evening. What was the 
gentleman's name from the University of Washington? Do you 
remember?
    Mr. Churchill. The University of Washington?
    Mr. Dicks. Yes, who----
    Mr. Churchill. Raymond Jonas.
    Mr. Dicks. John, you have five minutes, and we are glad to 
have you here and we appreciate what the National Humanities 
Alliance does and we are proud of the work of the endowment 
too.
                              ----------                              

                                           Thursday, April 3, 2008.

                      NATIONAL HUMANITIES ALLIANCE


                                WITNESS

JOHN CHURCHILL
    Mr. Churchill. Thank you, sir, very much. On behalf of the 
National Humanities Alliance, Mr. Chairman and members of the 
subcommittee, and also on behalf of the Alliance's 93 member 
organizations, I am pleased to testify in support of the 
National Endowment for the Humanities and I request that our 
previously submitted written testimony be entered into the 
record.
    Mr. Dicks. Without objection, we will do that, place the 
entire statement in the record.
    Mr. Churchill. I also want to express my gratitude for the 
goodwill shown toward the humanities by this subcommittee and 
especially for the willingness last year to support a 
significant increase. This year the President's 2009 budget 
requests $144.4 million for the NEH, essentially flat funding, 
but within it, our increases for overhead and administration 
are offset by nearly $7 million in cuts to two core programs, 
Preservation and Access, and Challenge Grants. We strongly 
oppose those cuts and urge increased funding for all core 
programs including the Federal-State Humanities Partnership and 
the two major initiatives, the We the People Initiative and its 
new program, Picturing America, and the Digital Humanities 
Initiative as provided for in the President's 2009 budget.
    Over the years, inflation and budget cuts have eroded NEH's 
ability to carry out its Congressional mandate. The humanities 
community appreciates last year's increase of $3.6 million and 
urges a restoration to the peak nominal funding level of $177.5 
million reached in 1994. The core programs of NEH have eroded 
disproportionately and appropriations for the divisions of 
Research, Education, Preservation and Access, public programs 
and Challenge Grants have dropped by 43 percent since 1994, not 
adjusted for inflation. We urge the reversal of that 
deteriorating trend.
    Here are some program specifics of the President's 2009 
budget. The Preservation and Access program is a decrease of 
almost 25 percent, that is $4.5 million, from the 2008 level, 
and we are extremely concerned about the proposed elimination 
of a program called Stabilizing Humanities Collections, funded 
at $3.6 million in 2007. We ask for Congress's assistance in 
restoring those funds to the Preservation and Access Division.
    Challenge Grants in the 2009 proposal see a decrease of 
almost 24 percent, that is $2.2 million, from the current 
level, and we strongly disagree with the Administration's 
assessment that endowment-building grants are not cost-
effective. I would mention, Mr. Chair, that two Challenge 
Grants, one to the University of Puget Sound and one to the 
Washington State History Museum, are still doing good, even a 
decade after their having been made.
    Other divisions essentially receive flat funding in the 
proposal, but we oppose the cuts that I have just described and 
support proportionately increased funding for NEH's competitive 
peer review grant programs through each of the agency's 
national core programs.
    Turning to State programs and the Federal-State 
Partnership, the proposal in the President's budget is flat 
funding at $31.7 million, but we support significantly 
increased funding for the State Humanities Councils.
    Turning to the Digital Humanities Initiative, it is 
proposed in the President's budget for flat funding of $2 
million. We support the agency's request for this high-priority 
initiative and encourage further investment in Digital 
Humanities throughout all areas of the endowment.
    Turning to We the People, the President's 2009 budget 
requests an additional $5 million, including the Picturing 
America Initiative. We support this requested increase, urging 
that new funds be found to support it.
    We appreciate the subcommittee's request last year for an 
evaluation by the National Endowment for Humanities of its 
international programs and perspectives. We look forward to the 
release of the agency's report and working with Congress and 
the NEH on the future enhancement of the agency's international 
education programs.
    So in conclusion, among Congress's difficult choices, we 
are asking for a significant funding increase for the National 
Endowment for the Humanities of $32 million, again to bring it 
to its nominal peak of $177.5 million, which is represented in 
1994. We think this is a wise and a necessary investment in the 
Nation's education and research infrastructure. We appreciate 
the subcommittee's outstanding support for the arts and 
humanities in this country and thank you for your 
consideration.
    [Statement of John Churchill follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. We appreciate your statement. I am going to say 
this once today. The President's budget request cuts our bill 
by $1 billion and we should have gone up $660 million to stay 
with current services, so we have a $1.6 billion gap, and that 
is going to make it extremely difficult for us to do what we 
would like to do if we had a reasonable budget. Mr. Tiahrt and 
I and the members of the subcommittee are going to do the very 
best we can, but we are in a very difficult situation. Since 
2001, Interior has been cut by 16 percent, EPA by 29 percent, 
the Forest Service by 35 percent if you take Fire out, and Fire 
has gone from 13 percent to 48 percent. So we have a very 
difficult situation, and until we get a request from the 
Administration that does justice to this area, we are going to 
be struggling, and this does not reflect what I would like to 
do as Chairman but we are just going to have to try to patch 
this together and get through this year and then hope for 
better times.
    Mr. Churchill. Mr. Dicks, I understand that, and we 
appreciate your support and your goodwill toward the 
humanities, and we stand to bolster that support as best we 
can.
    Mr. Dicks. I appreciate that.
    Mr. Churchill. We would love to be called on to do that 
further.
    Mr. Dicks. Thank you.
    Mr. Churchill. I would like to leave with the committee 
some letters from our constituents supporting particularly the 
Preservation and Access issue.
    Mr. Dicks. We will put those in the committee files. Thank 
you.
    Mr. Churchill. Thank you, John.
    Mr. Dicks. Thank you.
    Mr. John Akridge, chairman of the Trust for the National 
Mall. Good to see you. Welcome.
    Mr. Akridge. Thank you very much.
    Mr. Dicks. We will put your entire statement in the record, 
and you have five minutes to summarize your position.
    Mr. Akridge. Thank you, Mr. Chairman.
                              ----------                              

                                           Thursday, April 3, 2008.

                      TRUST FOR THE NATIONAL MALL


                                WITNESS

JOHN E. ``CHIP'' AKRIDGE, III
    Mr. Akridge. Thank you, Mr. Chairman. Members of the 
Subcommittee on Interior, Environment, and Related Agencies, I 
am Chip Akridge, Chairman of Akridge, which is a local 
commercial real estate development and management firm.
    But I am here today as Chairman of the Trust for the 
National Mall. I want to thank you for the opportunity to speak 
here today. We did submit written testimony, which I hope will 
be put in the record.
    Mr. Dicks. It will be.
    Mr. Akridge. Thank you very much. I do not know if any of 
you have been down to the Mall in recent days or years but I am 
here to report to you that as one American, I am unhappy with 
the way it looks. We have passed out to you a folder of 
information. In that folder, there is a picture book which 
tells the story much better than I could do with millions of 
words as to the sorry state of repair of the National Mall. It 
is in desperate need of repair. It has a $350 million backlog 
of unfunded repair and maintenance projects.
    Mr. Dicks. How many?
    Mr. Akridge. Three hundred and fifty million. That does not 
include any funds which are necessary to improve the 
infrastructure down there to handle the increased people load 
on the Mall. There are over 25 million visitors a year on the 
Mall, more than Yosemite, Yellowstone and the Grand Canyon 
combined, that visit the park. The park is simply loved to 
death by the number of people that visit.
    Mr. Dicks. Especially when the cherry blossoms are out.
    Mr. Akridge. Especially when the cherry blossoms----
    Mr. Dicks. I try to drive through there on the way, and it 
is not easy.
    Mr. Akridge. It is not easy, and it is not easy to walk 
around the Tidal Basin because the walks are too narrow for the 
people load. Again, the people load has increased to such an 
extent that it is just overpowered by the people. I think the 
Park Service though has done a good job with the money that 
they have had. It is just that the budget that they have is 
woefully inadequate to properly maintain America's front yard. 
So I became dissatisfied with this a few years ago. I tried to 
figure out what we could do about it. I looked around the 
country to find a model that had been successful and I found in 
New York City the Central Park Conservancy which took Central 
Park about 25 years ago which was half closed and completely 
run down and over the last 25 years it has raised almost $500 
million, and today Central Park is one of the truly world-class 
spaces in the world. It is something we can look to to try to 
duplicate.
    In November, Secretary Kempthorne announced that the Trust 
for the National Mall had been designated as the private 
funding partner for the National Park Service for the Mall. Our 
mission is simple. It is to help the Park Service accomplish 
their mission, which is to preserve unimpaired the natural and 
cultural resources and values of the Mall for the enjoyment, 
education and inspiration of this and future generations.
    Now, in carrying out these efforts, the Park Service is in 
the process of producing the National Mall Plan, which will 
serve as the blueprint for how these improvements will be made 
over the next 15 or 20 years.
    Mr. Dicks. Who is doing that?
    Mr. Akridge. The National Park Service. They solicited 
input from the public, and to date over 23,000 Americans have 
responded to that call in pointing out things that would make 
the park experience more meaningful to them. The plan is in its 
final draft form. The Park Service is working with over 20 
cooperating agencies and over 30 consulting parties to review 
this plan. Some of the agencies including the National Capitol 
Planning Commission, the Architect of the Capitol, D.C. Office 
of Planning and the Commission on Fine Arts. In all, over 500 
professionals in this area will have reviewed and commented on 
this plan before it is approved late this year. We are looking 
to get that approved in 2008.
    Mr. Dicks. Are you worried at all about the kind of 
bureaucracy that any kind of plan would have to go through to 
be approved? Things are not easily done in Washington, D.C.
    Mr. Akridge. No, sir, they have 20 cooperating agencies 
that they have to go through.
    Mr. Dicks. So this is a difficult challenge.
    Mr. Akridge. It is. It is a difficult challenge.
    Mr. Dicks. Someone has to be the lead entity, and that is 
going to be the Park Service, right?
    Mr. Akridge. That is the Park Service.
    Mr. Dicks. But you are going to be with them shoulder to 
shoulder trying to----
    Mr. Akridge. Absolutely, yes, sir. And as I say, they have 
done a good job. The draft plan was first put out last year for 
additional public comment. The final draft plan will be coming 
out momentarily with the final plan being approved, as I said, 
by the end of this calendar year. And the Park Service has 
taken very seriously the guidance and the comments of the 
American people and they have expressed certain areas of 
particular concern. One is the preservation of the First 
Amendment rights and freedom of expression that the Mall offers 
but also they are looking for an increase in the restroom 
facilities, the catering facilities and the fact that the park 
just does not look good. They want to improve the appearance 
and the quality of urban space.
    Our project is unique. It is to restore and preserve one of 
the greatest American icons for all visitors, both domestic and 
foreign. We believe, and we are hopeful that you will agree 
that the National Mall is one of the Nation's chief cultural 
assets. There is no other place in the United States that 
celebrates our democracy, freedom of speech, leadership and 
heritage like the National Mall. It is America's front yard. It 
needs our help, all our help, and it needs it now. Thank you.
    [Statement of John E. ``Chip'' Akridge III follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you for your testimony. Let me just ask 
this. Up in New York, how much money did they raise in the 
private sector? Did they get private sector contributions?
    Mr. Akridge. Yes, they did. Over 25 years they raised $500 
million.
    Mr. Dicks. And did the State and the city put up some money 
too, I would assume?
    Mr. Akridge. Yes, I think just about a like amount.
    Mr. Dicks. About a 50/50 deal?
    Mr. Akridge. Right.
    Mr. Dicks. What is your outlook for this, for the private 
sector?
    Mr. Akridge. We are hopeful that the private sector will 
pick up half the tab and that the government will pick up the 
other half. We are hopeful.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Chip, thanks for bringing this to our 
attention. It is hard to understand how we open it up for, as 
you say, First Amendment opportunities, and when it gets wet 
down there, it turns into mud. I run the Mall like you do, and 
it is very disappointing to see, but I am not sure exactly how 
we handle the crowds and keep the grass.
    Mr. Akridge. May I respond to that?
    Mr. Tiahrt. Please.
    Mr. Akridge. There are a number of things that are being 
looked at, best practices from around the world. The Mall has 
not been looked at in really a technical point of view or 
horticultural point of view in over 30 years. Many improvements 
have been made in the area of turf, turf management, turf 
maintenance, and also circulation and crowd control that we are 
looking to put some of these systems to work on the Mall, which 
will help the problems that we are talking about. To begin 
with, the irrigation system that is down there, because of all 
the tin pegs and everything that have been driven into the 
ground, it is inoperative so trying to keep turf alone is 
impossible. You can see from the book, it is mostly mud, which 
if it rains, it turns immediately to mud. So if you have a good 
base of turf to start with, it is not nearly as likely to 
become a mud bath as it is now. So there are lots of measures 
that are being looked at and that will be involved in solving 
that problem.
    Mr. Tiahrt. I think you have some good ideas. We ought to 
look at how we can put this together.
    Mr. Dicks. Mr. Moran, do you want to make a comment?
    Mr. Moran. Yes, I do, and the first thing I want to say is 
that Chip Akridge is one of the real leaders in the Washington 
area and your time is very valuable. The fact that you have 
chosen to take this on gives it the kind of credibility as a 
priority that is going to involve the other folks who are 
absolutely essential if we are going to get up to $500 million. 
So I thank you very much for doing that. I appreciate the fact 
that you run early in the morning. Well, 10 years ago I used to 
run along the Mall, five years ago I would jog and now I just 
kind of plod at noontime. I do not do it at the crack of dawn 
like you do, but it is a beautiful place and you cannot help 
but observe the things that you have observed. It is a national 
icon and we have got to preserve it. I appreciate the fact that 
the Park Service is taking the lead. I do not know that it is 
fair to say that raising funds should be a 50/50 public/private 
matching arrangement. I mean, this is clearly something that 
the Federal Government should take the principal responsibility 
for. There are a number of questions I want to ask you about in 
terms of your priorities because I have questioned some of the 
decisions that have been made but I think as long as you are 
going to take a role that goes beyond raising funds and writing 
checks, that is a source of real encouragement, so I appreciate 
this. Do you want to say something?
    Mr. Dicks. I just wanted to say, has there been a hearing 
on this before the authorizing committee?
    Mr. Akridge. No, sir, not to my knowledge, no.
    Mr. Dicks. Which committee would have jurisdiction?
    Mr. Moran. It is Nick Rahall's. It is Natural Resources.
    Mr. Dicks. Maybe we ought to encourage that. I think this 
deserves some more attention. I have had some people come in to 
talk to me about this. I think it is a tremendously high 
priority and we want to get it started and we want to help it. 
But maybe getting the authorizing committee to look at this 
would be helpful.
    Mr. Moran. You know, we could do a joint hearing.
    Mr. Dicks. We could do a joint hearing, or if we cannot get 
them to do it, we will do it ourselves.
    Mr. Moran. Good.
    Mr. Akridge. I am happy and available to participate in any 
way I can.
    Mr. Moran. Now is not the time to belabor this because we 
have a lot of other witnesses, but the fact that we are cutting 
this short, all you need to know is----
    Mr. Dicks. We are serious. We want to help you.
    Mr. Akridge. We are too.
    Mr. Dicks. And we appreciate your leadership on this.
    Mr. Moran. And Norm is going to be at the fundraiser as 
well and Susie is going to make him write a check, and he does 
not do that a lot.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Akridge, I have only a short comment to make here. All 
of us have witnessed massive historic gatherings on the mall. 
It happens to be tomorrow we are not in session but tomorrow is 
the 40th anniversary of the assassination of Martin Luther 
King, which we are going to be a commemoration of in the 
Rotunda today at some point in time later this morning, and I 
am particularly interested in your effort at enhancement of the 
use for free speech purposes, for First Amendment purposes. 
That is extremely important in your plan. That is all I want to 
say. I will not question you further about that because things 
are tight here.
    Mr. Akridge. Very good. Thank you, sir.
    Mr. Dicks. We thank you again, and we appreciate your 
leadership on this issue.
    Mr. Akridge. Thank you very much.
    Alan Front, senior vice president, the Trust for Public 
Land. Alan, how are you?
    Mr. Front. Mr. Chairman, I am going to try to keep my 
microbes on this side of the table.
    Mr. Dicks. Good.
                              ----------                              

                                           Thursday, April 3, 2008.

                         TRUST FOR PUBLIC LAND


                                WITNESS

ALAN FRONT
    Mr. Front. I do appreciate, germs notwithstanding, the 
opportunity to appear before the subcommittee today and very 
much appreciate the chance to talk about the need for 
investments in land conservation programs, the Land and Water 
Conservation Fund, the Forest Legacy Program, the grant 
programs at the Fish and Wildlife Service, and I am also 
pleased to share with you some of the non-Federal action that 
the work that you are doing here is catalyzing around the 
country and maybe give you just a flavor of the good, the bad 
and the ugly of what we are seeing in the conservation real 
estate market as we do our work.
    Sitting at your table, Mr. Chairman, and among this good 
company, it is impossible not to well up with a degree of 
gratitude for the commitment that all of you have already made 
to these programs and to the specific places that you have 
protected through these programs, the wildlife refuges in 
Washington State, the Bogasheel, which I know a picture of 
which hangs on your wall.
    Mr. Dicks. It does.
    Mr. Front. The Quinault lands, the wildlife refuges in 
Virginia and the views of Mount Vernon which, as Mr. Moran 
knows, we have just completed another acquisition and are about 
to cut a ribbon, the wildlife lands along the Connecticut River 
in Massachusetts. I am not sure why I am thinking of those 
three particular places as I look across the table.
    Mr. Dicks. There has to be something in Kansas. I mean, 
come on.
    Mr. Front. Mr. Tiahrt, our testimony next year hopefully 
will include you as well.
    But those achievements are particularly significant, given 
the context of fiscal constraint and competing priorities and 
candidly of woefully inadequate Administration budgets of the 
last few years. So what you have been able to do is truly 
phenomenal. Those dynamics, those limitations, as wonderful as 
the successes have been, they have also led to a similar number 
of conservation losses, of incompatible developments that 
should not have happened in our national parks but have 
happened, of lost opportunities for recreational access or for 
habitat consolidation. What ends up happening is, those 
projects are either deferred or they are lost. The ones that 
are lost leave an irreparable scar on our public landscapes. 
The ones that are deferred have their own set of costs because 
land is not getting any cheaper and so year by year we end up 
paying more for what we do not do in years past, and there are 
also a host of issues that are raised, management issues that 
are raised by those holdings, issues involving wildfire risk, 
issues involving incompatible uses and obstacles to access.
    So organizations like the Trust for Public Land and many of 
our private partners around the country are certainly doing 
what we can but candidly, we are not only hoping but we are 
desperate for more Federal support for these Federal 
activities, especially on Federal lands and in areas where the 
Federal government has staked its flag for State and local 
activity. The needs are particularly acute for the Land and 
Water Conservation Fund, and those opportunities to leverage 
Federal funds are particularly in evidence this year. Rachel 
Carson National Wildlife Refuge in Maine, for instance, as the 
100th anniversary of Rachel Carson herself has come and gone, 
there is an opportunity this year for $3.5 million to buy 110 
acres of spectacular wildlife habitat, coastal habitat, that is 
worth more than $10 million because of a generous landowner and 
an aggressive philanthropic campaign. In Montana, the New World 
Mine Site that this subcommittee struggled through in the last 
Administration, there are still remaining private interests 
that the landowners have just stepped forward and offered to 
sell if there is money this year. If there is not money this 
year, that opportunity will be lost.
    Mr. Chairman and Ranking Member Tiahrt, I think both of you 
have recently had an opportunity to see the work that we are 
doing at Maho Bay in the Virgin Islands where the Trust for 
Public Land, not cavalierly but with a great deal of 
consternation and nail biting, spent over $30 million to buy 
that connector between the two disparate halves of the national 
park there and we will be able, if there is Federal funding 
available, to turn it over to the Park Service at a fraction of 
what we paid for it, again through private philanthropy.
    There are lots and lots of examples, at Congaree Swamp 
where we are trying to consolidate habitat and recreation land, 
working with Mr. Clyburn and other members of the delegation, 
and maybe protecting the last habitat of the ivory-billed 
woodpecker. The examples go on and on, in the Cascade 
Checkerboard in Washington State, in the Carbon River Gateway 
to Mount Rainier. We have a willing seller who has been willing 
for years and may be less willing as the years pass.
    Mr. Dicks. I think we are going to get to that one this 
year.
    Mr. Front. I am hoping, and I am appreciating your 
commitment to it and you helped in past years. So this is 
really just a recognition that there is more need, there is an 
ocean of need and understanding the struggle, the financial 
struggle, Mr. Chairman, that you mentioned, there is just a 
small puddle of money, and we are not expecting huge increases 
but there are meaningful increases that are really necessary in 
Land and Water.
    Similarly, the needs in the Forest Legacy Program are no 
less present or pressing, from the Katahdin Forest in Maine to 
the Eden Forest in Vermont to lands in the Catskill Park that 
Mr. Hinchey is concerned about, to lands in Moore River in New 
Mexico that Mr. Udall is attentive to, and the needs are again 
no less severe in those grant programs in the Fish and Wildlife 
Service.
    So we do recognize that there are a host of competing 
demands and that there will always be a need for us to try to 
stretch the capacity of the Federal government but what I am 
here to tell you is that working in the real estate 
marketplace, there are landowners who just are not going to 
wait anymore. There are opportunities in national parks and in 
national wildlife refuges. There are opportunities in federally 
supposed State and local areas that are going to disappear off 
the plate this year, and when they do, we will be left with 
scars that just will not heal. So we are appreciating what you 
do on the Subcommittee and the commitment you have made, what 
Robert Frost called work for heavens in the future sake. That 
is what these programs do, and to the extent that we can, we 
will absolutely help out, but to the extent that you can, we 
are hoping that you can come up with some meaningful increases 
for those programs this year.
    [Statement of Alan Front follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Thank you for your very eloquent statement. I am 
not going to go through what I said earlier. We are in a very 
difficult spot and we are going to do the best we can. Anyone 
else? Thank you very much.
    Mr. Front. Thank you, Mr. Chairman.
    Mr. Dicks. Jeff Trandahl, executive director of the 
National Fish and Wildlife Foundation.
                              ----------                              

                                           Thursday, April 3, 2008.

                 NATIONAL FISH AND WILDLIFE FOUNDATION


                                WITNESS

JEFF TRANDAHL
    Mr. Trandahl. You know after I retired from here a couple 
years ago, I went down to take over National Fish and Wildlife 
Foundation, a foundation created by Congress actually in 1984. 
The idea of that foundation was to leverage with Federal 
agencies private dollars to do a lot of the conservation work 
that currently is the goals and the objectives of the agencies. 
So traditionally we get Federal seed monies that are directly 
appropriated monies that we collect no administrative monies on 
and we turn around and leverage private dollars alongside those 
and then turn around and put those monies on the ground. We do 
no lobbying, no litigation, just projects. We are currently 
involved with over 20 agencies. Today I am here to talk about 
three particular agencies, which is Fish and Wildlife Service, 
Forest Service and Bureau of Land Management, and I am proud to 
tell you later this month we will have a board meeting and at 
that point we will have approved with $13.9 million of fiscal 
year 2007 appropriated monies from these three agencies, we 
will leverage in more than $65 million in addition to it.
    Mr. Dicks. Congratulations.
    Mr. Trandahl. Yes, it is very, very good. It is a good way 
to get Federal priorities done with both Federal dollars and 
private partnerships. The fiscal year 2009 request that is 
before the committee is for $25 million out of those three 
agencies, $10 million from Fish and Wildlife Service, $3 
million for our Washington salmon program, $4 million from the 
Forest Service and $4 million from BLM. Some of those dollars 
are included in the President's budget request. We obviously 
had worked with the agencies to try to get the proposals all 
the way through their process. Probably the saddest one from 
our side and the one that we are working with the most is the 
Bureau of Land Management. There we have had more than a 10-
year partnership. We were zeroed out in the President's budget. 
That is the first time that has happened in more than eight 
years. So we are trying to work with the agency and hopefully 
with you to restore some of those monies because that has been 
a very, very important partnership and the Bureau of Land 
Management, as we all know, has been under significant pressure 
to do better conservation on the ground and we have been 
delivering some very good results for them.
    Mr. Dicks. What did you get last year for the BLM?
    Mr. Trandahl. BLM last year was $2.855 million.
    Mr. Dicks. With across the board.
    Mr. Trandahl. Yes. It has traditionally been three. We have 
been trying to move up to four. There as well, I think there is 
great potential in terms of bringing in private dollars to 
leverage up against any monies we are able to bring on in BLM.
    And just separate of those three agencies, know that we do 
affect everything including Kansas. You know, we run a very 
significant Chesapeake Bay program. We are very involved up 
there in Massachusetts as well. The Northwest has been a 
significant focus and we have run a very successful Chesapeake 
Bay program with EPA and NRCS for years. We have been trying to 
replicate that into the Great Lakes, into Puget Sound, into the 
San Francisco Bay, which are going to be big priorities in the 
next few years for us.
    Any questions I can answer?
    [Statement of Jeff Trandahl follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, no. I just want to say, I have been very 
impressed. I was somewhat skeptical 10 years ago but since the 
work that has been done out there, your people are just 
outstanding. Bill Ruckleshouse, who is head of the shared 
strategy for recovery of salmon and also now is the chairman of 
the Puget Sound Partnership Leadership Group and did the Salmon 
Recovery Fund for the governor, in every context, he has come 
to me and said, you know, the foundation's work is just first 
rate and your people do a great job and they are always up 
there helping on various projects that are important, and they 
fit a niche that the bigger program simply is unable to 
address, and the best part of course is the leveraging of 
private funds. I just think it is a very winning combination 
and I am glad Congress created the program, and I hope we can 
recover from these budgets that have been pretty devastating. 
We can do a better job in support of this because I think it is 
a good combination and works successfully.
    Mr. Trandahl. Thank you.
    Mr. Tiahrt. Mr. Chairman, I just want to add that I think 
you said very well how the leveraging is so important, and Jeff 
has provided great leadership and I hope we can give him some 
support here. Because of the leveraging, it helps us get more 
done than we would normally do in other areas. So I am very 
pleased for his testimony and hope we can help.
    Mr. Olver. Mr. Chairman, may I just----
    Mr. Dicks. Yes, Mr. Olver.
    Mr. Olver. You had said you had $13 million last year and 
with leveraging you were able to do $65 million in work.
    Mr. Trandahl. I am not sure whether that was $65 million 
leveraged to add to it. It sounded like it might be a four-to-
one match. Is that formally part of the----
    Mr. Trandahl. Actually, we were able to generate $65 
million of private money.
    Mr. Olver. Of private money, so it is actually five to one, 
virtually five to one, but there is no formal statement of that 
in these appropriations.
    Mr. Trandahl. Well, actually, by law when the foundation 
was first created, there were two provisions that were 
required. One, for every Federal dollar that we were directly 
appropriated, we had to raise at least one private dollar in 
match, and the second was, we do this with no administrative 
costs. So I also have to raise separately all the 
administrative expenses to put that money on the ground as 
well. So every year when I start my fiscal year, I start with a 
deficit of roughly $2 million to $2.5 million in the red to 
just pay for putting the Federal money on the ground and then I 
have to raise the private monies on top of that. It is a very 
significant challenge but it is a good goal. It is a hard goal, 
it is a very good goal. And then the other side of it is, we 
were to work with the agencies and understand what their 
priorities were, go out and try to identify private sources 
that would help fund those initiatives, create those 
partnerships together. We started just as the Fish and Wildlife 
Service and then we have grown with all the other agencies, and 
literally now today we are involved with 23 different Federal 
agencies, and the whole goal there again is to reduce the cost 
on the Federal side, bring in the private monies that are out 
there but also realize that only 2 to 5 percent of all 
philanthropic money, depending on which survey you look at, 
goes to environmental work. So it is hard to identify people, 
and a lot of that goes towards advocacy, not necessarily 
projects. So just like TPL, we really have to struggle and work 
hard to get that money.
    Mr. Olver. Thank you very much.
    Mr. Dicks. All right. Thank you. Good job, and we 
appreciate the fact that you are there working on these things.
    Terry Dillon, National Utility Contractors Association, 
welcome.
    Mr. Dillon. I also would like to submit for the record, you 
have our written testimony, and I want to add some pictures 
that are State by State that will kind of emphasize a little 
more my verbal testimony today. Pictures speak a thousand 
words, especially in a business where everything is underground 
and you guys walk over it every day and do not really think 
about it.
    Mr. Dicks. Go ahead. We are going to give you five minutes, 
and we will put your statement in the record and you can 
summarize as you wish.
                              ----------                              

                                           Thursday, April 3, 2008.

                NATIONAL UTILITY CONTRACTORS ASSOCIATION


                                WITNESS

TERRY DILLON
    Mr. Dillon. Chairman Dicks, Ranking Member Tiahrt and 
honorable members of the subcommittee, my name is Terry Dillon. 
I am the owner of Atlas Excavating in West Lafayette, Indiana. 
We have 150 employees who work on sewer and water construction 
and highway and road reconstruction projects throughout the 
State. I am also president of the National Utility Contractors 
Association, or better known as NUCA. NUCA represents more than 
1,750 companies across the Nation that build, repair and 
maintain underground water, wastewater, gas, electric and 
telecommunications systems. NUCA also serves as chair of the 
Clean Water Council, a coalition of 34 national organizations 
representing underground construction, contractors, design 
professionals, manufacturers, suppliers, labor representation 
and others committed to a high quality of life through sound 
infrastructure.
    Utility contractors build and repair America's unglamorous 
but vital water and wastewater infrastructure, something we 
depend on, that is walked on and over every day but is out of 
sight and out of mind until it does not work. It is not a happy 
day in an American home when the indoor plumbing fails or 
sewage backs up into their house. When a turn of a knob does 
not produce water to a faucet or water to the morning shower, 
living in America does not become so great. I believe one of 
the greatest assets the United States has is its infrastructure 
system. It is as important or more important than oil. Dumping 
of untreated and raw sewage happens over 325 times per day in 
the United States, which can lead to disease, sickness or even 
death. It is unsightly, dangerous and it just plain smells bad. 
Americans have also become accustomed to drinking clean water 
that does not smell, tastes bad or has debris floating in it. 
It is just a plain fact that without clean water to drink, you 
will not live more than a few days.
    I am here today with vast knowledge and real-time awareness 
of how poor shape our infrastructure system is in. Designed and 
built over 60 years ago with a life expectancy of 50 years, 
much of our infrastructure is worn out and it is failing. On 
Monday of this week, I received an early morning call from the 
city of Columbus, Indiana, which is 60 miles south of 
Indianapolis. They requested an emergency sewer crew to repair 
two different sewer breaks at different locations in the city. 
An old and rotted 24-inch sewer main had broken, causing severe 
backup. Upon arrival, I found city crews trying to keep up with 
raw sewage backing up into their lines. The broken sewer line 
was 20 foot deep and manholes had surcharge and had 18 feet of 
sewage in them. Sewer crews were barely keeping up with bypass 
pumping to avoid further sewage spills. However, prior to the 
bypass pumping, sewage was reported to be 3 feet deep over 
about an acre area of ground. It was crossing over a local 
road, filling a local drainage ditch, then was running down 
through the front yards of people's homes and then it dumped 
into the local creek. There were millions of gallons of raw 
sewage on the ground that eventually discharged into that 
creek. How happy do you suppose the Americans with sewage 
backed up in their houses and sewage in their yards and running 
down the creek were for several days? Had this been an oil 
spill, the media coverage would have made national news. We 
would have had helicopters flying overhead. We would have been 
on Fox News, MSNBC. It would have been a very big deal. As of 
today, it has not even made it to the local papers.
    Yet this type of spill happens 118,000 times a year, 
118,000 times. This results in 950 billion gallons of raw 
sewage dumped in our lakes, rivers and streams every year, 
which supports the contractor's motto, the answer to pollution 
is delusion. Somebody needs to care. I know that I care, and we 
need Congress to care also.
    Last year the House passed Water Quality Financing Act, 
H.R. 720, which would authorize $14 billion for the Clean Water 
SRF over four years. While the Senate has yet to act on its 
version of a reauthorization bill, immediate resources in 
fiscal year 2009 appropriations are needed to begin to address 
what is becoming a crisis situation.
    NUCA supports $1.35 billion for EPA Clean Water State 
Revolving Fund. Not only with these appropriations supply much 
needed funding sources for infrastructure needs, it also has a 
direct and indirect impact on our poor economy. One billion 
dollars invested in infrastructure creates more than 40,000 
jobs. These jobs are American jobs who pay taxes and spend 
their money on goods and products in the United States. Funding 
construction projects stimulates our growth and the development 
for the Americans. Americans expect and deserve a high quality 
of life. You and I are the gatekeepers of our infrastructure 
system. It is time to take the responsibility head on.
    [Statement of Terry Dillon follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. Well, let me ask you this. The Administration 
says that we do not need any more money, that there is enough 
money out to the State Revolving Funds so that they can revolve 
and they get the money back and it goes back into the fund. I 
mean, they have testified up here repeatedly that they do not 
need additional funds. What is the answer to that?
    Mr. Dillon. Well, my best example would be the city of 
Indianapolis is mandated to spend $2 billion to bring their 
system up to snuff over the next 20 years. When I was in the 
city of Columbus this week, the complaint within the city was 
that all the SRF money allotted for Indiana, which is only $20 
million to cover a $2 billion project, the city of Columbus has 
no money that they can go get to help with their sewer needs 
within their own city.
    Mr. Dicks. They cannot borrow from the State. The State has 
the revolving fund.
    Mr. Dillon. Right, but the money is gone. Indianapolis has 
taken almost all of it and Indianapolis does not have near 
enough money to even do what they are planning on doing. Even 
if you took the $20 million that we get and you multiplied that 
out over the 20 years to do $2 billion worth of work, it is 
only $400 million of money, and that is just the city of 
Indianapolis. So in the case of Columbus, they have $5 million 
in a reserve fund in their sewer infrastructure system that 
they cannot spend, but my understanding is that they are going 
to go leverage that somehow and get the money to get some 
upgrading on some of the sewer breaks and decaying system that 
they have.
    Mr. Dicks. Well, we are very sympathetic about what you are 
talking about. It is just that the Administration has cut these 
budgets and put us in a very difficult spot. Where do we get 
the money when the budget for this year is $1 billion below 
last year's level? And then the President threatens us with a 
veto if we put a nickel more than he requested and he has 
support up here on that position, which I think is not good 
either. But we are in a tough spot.
    Mr. Dillon. I would agree, you are in a tough spot, but I 
heard you guys talking earlier about how great it is to run 
through the park and how pretty it is, and the only thing I can 
tell you is, I guess when the President runs through there one 
day and there is raw sewage running across the grounds and he 
has to tramp through it, maybe he is going to wake up. This 
country is absolutely falling apart.
    Mr. Dicks. It may be a little too late for this round, but 
maybe the next one.
    Mr. Dillon. Okay, maybe the next one. I will be more than 
happy to drive him around and show him exactly what he needs to 
see.
    Mr. Tiahrt. You know, we have been talking about larger 
communities but small communities are facing challenges just 
like this as well, and part of the problem is that we keep 
presenting new standards that are more and more difficult to 
achieve, and we cannot meet our basic infrastructure needs. I 
know in some cases in Kansas, we just complete a waste 
treatment facility and new EPA standards are released that 
already put it out of date. So we have to have I think a little 
more commonsense approach in some of the things on our new 
construction so we can take care of the old infrastructure that 
is failing, and it is startling to have raw sewage pumping. It 
is not acceptable.
    Mr. Dillon. I would agree. You know, when I first got into 
this business, I am just a guy trying to make a living and 
survive, and 28 years later, I mean, I am sitting here today 
because I truly believe that I am one of the gatekeepers of 
this infrastructure in this country. It is the greatest asset 
we have. It is why this country is so great. And I every day 
see sewage. I will tell you right now, when it rains, sewage is 
going down a river somewhere, every time it rains.
    Mr. Dicks. Right, storm water in the Puget Sound or in the 
Chesapeake Bay or in the Great Lakes.
    Mr. Dillon. Absolutely, and you know, it washes down the 
banks and usually where a sewage overflow is, it is hidden by 
trees and nobody can see it but I am telling you, you go take a 
boat when you walk down that bank and you see sewage debris 
between toilet paper and condoms and the things we do not 
really talk about that are just laying there on the bank. It 
scares you to death, much less to think about the disease and 
hazardous things that are in the water anyway.
    Mr. Dicks. Thank you very much.
    Mr. Olver.
    Mr. Olver. In your example, the one that you went through 
in some detail, you spoke about rotting pipe.
    Mr. Dillon. Yes.
    Mr. Olver. Did you mean you were using wooden pipes?
    Mr. Dillon. No, this was concrete pipe.
    Mr. Olver. In my area, I have older communities that still 
have either oak or chestnut. Do you know how long the chestnut 
has been there?
    Mr. Dillon. And I dig on plenty of the wooden water lines 
and sewers up like that.
    Mr. Dicks. We have them out in the State of Washington too.
    Mr. Dillon. And, you know, while I gave you an example of 
950 billion gallons of raw sewage that is dumped into rivers, 
there is no account. Nobody can guess how much is just going 
into the ground because of bad old wood pipes. I mean, 
basically if you think about it, you got a sewage system that 
was designed 60 years ago and there was never a program to keep 
it maintenanced so it is time to pay the piper because it is 
absolutely falling apart. My most scary one of these has been a 
sewer break that happened through a playground, and when I got 
to the sewage spill, there were two kids 100 feet away playing 
on a swing set and it was over a 42-inch concrete pipe that was 
running 15 million gallons of sewage down it. I mean, it was so 
fast, if one of those kids would have slipped in there, his 
next stop in about 15 minutes at about 5 miles would have been 
the grinder pumps at the treatment plant. I mean, we have a 
serious, serious problem and a lot of it is from the old, 
decaying systems that have just not been repaired.
    Mr. Dicks. Well, thank you for your testimony. Again, the 
EPA comes up here and swears up and down that they do not need 
any more money, that there is enough money out there to go into 
the State revolving funds and they will revolve, the money will 
come back in, there is money for everybody. I mean, you might 
want to take some time and go over there and explain to them 
the realities.
    Mr. Dillon. My next stop, Chairman.
    Mr. Dicks. Thank you.
    Tracey Hunter, assistant executive director of Evergreen 
Rural Water of Washington State. Welcome, Tracey.
                              ----------                              

                                           Thursday, April 3, 2008.

                  EVERGREEN RURAL WATER OF WASHINGTON


                                WITNESS

TRACEY HUNTER
    Ms. Hunter. Mr. Chairman, thank you for the opportunity to 
testify before you and your committee today. I am here 
representing the more than 700 small and rural water systems in 
our association and the more than 4,000 water systems in 
Washington State. I am here to speak to you about the training 
and technical assistance available to the over 50,000 small and 
rural water systems in the United States through the EPA 
training and technical assistance source water and groundwater 
protection programs administered by the National Rural Water 
Association.
    Thirty years ago, the Congress determined that compliance 
with the Safe Drinking Water Act would be almost impossible in 
our rural areas without on-site hands-on assistance to guide 
the many part-time operators, local water system board members 
and local elected officials and the increasingly difficult 
regulatory requirements set forth in the new law. The Congress 
set-aside specific funding within the EPA budget to assure that 
this in-the-field help would be there consistently every year 
and has funded the program in this same manner each year since. 
This need continues with over 31,000 in-the-field visits being 
made last year, resulting in a compliance rate for small 
systems that is comparable to that of the more sophisticated 
larger systems.
    This program works because it is operated by the water 
systems themselves in each State. The Dear Colleague letters in 
support of this funding received each year by this committee 
show the broad-based support of these programs. These letters, 
with the support of your colleagues, indicate the depth and 
breadth of the effectiveness of the program throughout this 
country. The groundwater/source water protection program is 
often the only specific watershed protection effort going on in 
your communities. In our report to Congress, we provide the 
specific systems visited, over 27,000 last year, and water 
protection plans completed in every State in the country. There 
is no other program funded by the government, much less the 
EPA, that can provide you this type of public health and 
environmental protection success and accountability.
    These programs often create unique partnerships between 
State agencies and State rural water associations, providing 
each with the expertise they would otherwise be without. A 
recent example of that in my home State of Washington came 
during devastating floods that we experienced last December. At 
a recently completed annual conference, the opening session 
speaker, Washington State Drinking Water Director Denise 
Clifford, talked about how important partnerships are and how 
effective they can be during a crisis. She went on to thank 
Evergreen Rural Water of Washington for the on-the-ground 
assistance provided by our Circuit Riders in reestablishing 
potable drinking water to systems that had been affected by the 
floods.
    Mr. Chairman, our request is straightforward and simple. We 
are asking that you continue the program as a specific 
Congressional set-aside in the EPA budget and at a level of 
$16.8 million. That will allow for at least three full-time 
field people working onsite in systems in your Congressional 
districts and each State. Without the assurance of the 
Congressionally directed funding for this program, the small 
system technical assistance and training programs will sink 
into the bureaucracy with little or no guidance from the small 
and rural water systems themselves.
    There are no other programs within EPA or funded by EPA 
that have the support of the overwhelming number or rural and 
small systems in your States that this program receives. We 
urge you to keep the existing program in place as our rural 
areas go through the increasing pressure to meet new and 
expanding Federal drinking water standards.
    [Statement of Tracey Hunter follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. What was in the budget for 2008?
    Ms. Hunter. I think we got seven.
    Mr. Dicks. See, I want to make a point here to my 
colleagues and the people here. This is a Congressional 
directed funding project and these are being criticized by a 
lot of people, but as suggested here, there are no EPA programs 
to fund this, and if it was not for this particular amendment 
that has been added by Members of Congress for many years, 
these rural systems simply would not be funded except by the 
local level. Is that not correct?
    Ms. Hunter. Correct.
    Mr. Dicks. And try as we have, and we have had meetings, 
brought the people over from EPA again and asked them to put 
money in the budget for this, it just does not happen. So we 
appreciate your being here today and your testimony, and the 
support you have in the House is--I hear from a lot of Members 
about this and they are concerned. They care about this 
particular program.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    I think that a lot of us care about this program because we 
see the need in rural areas, and again I want to emphasize that 
we keep releasing higher and higher standards out of EPA with 
no funding for these new mandated goals we have to achieve as 
far as water quality, and I do not know about the science 
behind it but I do know it puts pressure on communities to 
upgrade their systems with no apparent benefit to the people 
that receive the water. It is very costly, and the only way we 
can try and keep up is through member-directed funding because 
local communities cannot fund it. We have a lot of requests in 
Kansas. I met with our folks that supply rural water to their 
rural water districts and it is a real challenge. So I think if 
we look at the total cost of these infrastructure costs in the 
United States, it is very expensive and we cannot rely solely 
on member-directed initiatives. We are going to have to have 
some additional help somewhere, and I think----
    Mr. Dicks. Has there ever been an attempt to try to get a 
program authorized by Congress for this particular----
    Ms. Hunter. It is authorized.
    Mr. Tiahrt. It was just never funded adequately.
    Mr. Dicks. Can you show us the authorization? We would like 
to see the authorization.
    Ms. Hunter. We will get that for you.
    Mr. Tiahrt. I think the point I would like to make is that 
we inflict some of this cost on ourselves because EPA continues 
to press standards that I do not think are justified by science 
as far as the cost that is incurred to the benefits received.
    Mr. Dicks. Well, that may be debated in other forums.
    Mr. Olver, do you have anything?
    Mr. Olver. No.
    Mr. Dicks. Thank you.
    Ms. Hunter. Thank you. Thank you for your support.
    Mr. Dicks. We appreciate you coming in.
    Kyle Hoagland, President, Nebraska Water Resources Center.
                                           Thursday, April 3, 2008.

                    NEBRASKA WATER RESOURCES CENTER


                                WITNESS

KYLE HOAGLAND
    Mr. Hoagland. I would like to start on a personal note, if 
I could. I was diagnosed about 18 months ago with Parkinson's 
disease. I bring that up for two reasons. Number one, National 
Parkinson's Awareness Month is April, and secondly, because it 
may affect my ability to speak, so bear with me.
    Mr. Dicks. No, we will. We appreciate that, and we hope 
that your medical treatments are successful.
    Mr. Hoagland. Mr. Chairman, thank you for this opportunity 
to testify in support of funding for programs authorized under 
provisions of the Water Resources Research Act. The Act 
authorizes a program of grants to States for water resources 
research institutes and for research focused on water problems 
of a regional or interstate nature through fiscal year 2011.
    Through your ongoing support, you have recognized the 
importance of university cooperation with local, State and 
Federal government agencies to produce new knowledge and to 
ensure the education and training of professionals who design 
and manage our water systems, both now and in the future.
    The National Institutes for Water Resources respectfully 
recommends an appropriation of $8.8 million in the fiscal year 
2009 USGS budget for the Water Resources Research Act Program.
    In 2001 and 2004, two seminal National Research Council 
Reports thoroughly examined the urgency and complexity of water 
resource issues facing the United States, and many of these 
have been talked about today already. Among others, several 
water resources challenges were cited as motivation for these 
studies. First, there is abundant evidence that the condition 
of water resources in many parts of the United States is 
deteriorating, both quality and quantity. In some regions of 
the country, the availability of sufficient water to service 
growing domestic uses is in doubt, as is the future sufficiency 
of water for agriculture and domestic uses is increasingly 
depleted. The frequency and magnitude of damages attributable 
to droughts and floods are increasing, providing evidence of 
increasing vulnerability to extreme climate and weather events.
    There are many critical areas where knowledge and 
information need improvement for better water resource 
management. Cited NRC reports developed a comprehensive list of 
43 areas needing further scientific inquiry. A few of these 
examples are improving existing supply enhancing technologies 
such as wastewater treatment, desalinization and groundwater 
banking, understand the impact of land use changes and best 
management practices on pollutant loading to waters, ecosystem 
services and biodiversity, understand and predict the frequency 
and cause of severe weather--floods and droughts--and in 
particular, understand global change and the associated 
hydrologic impacts, and finally, develop adaptive management as 
a better approach to water resources management.
    Why should the Federal government lay the funding 
cornerstone for water research? In the first place, water 
resources are defined by physical geography and not by State 
boundaries. The vast majority of water problems are of regional 
or national character. Even those of limited scope are usually 
very similar in most States. Hence, research funding at the 
Federal level, with results transferred nationwide, is the only 
truly comprehensive and effective approach in dealing with 
these water resources issues. Second, water research epitomizes 
the economic concept of a public good. As such, State and local 
governments and private entities cannot produce as much of it 
as is justified by the overall value of the results.
    The 54 water institutes are particularly well situated to 
contribute to the priority setting and research coordination 
processes. Institutes are based in land grant institutions like 
the University of Nebraska and have direct access to expertise 
in many disciplines of water resources. As part of their 
legislative charge, they provide independent, objective and 
scientifically credible communication of research needs and 
results from States and localities to Federal agencies and to 
stakeholders. So we are that link between the Federal 
government, State government and local stakeholders.
    The water research institutes are uniquely positioned to 
address the interdisciplinary challenges and sustaining the 
reliability of water supplies in the face of new challenges and 
uncertainties. For more than 40 years, the institutes have 
conducted applied research that links science to innovative and 
cost-effective policies to increase the preparedness of water 
supply systems to withstand hazards.
    The grants that support this water research as well as 
information transfer and training of research scientists and 
engineers must be matched by legislative mandate with non-
Federal dollars two to one. Thus, the Federal appropriation 
results in a larger pool of research funding. In Nebraska, for 
example, the Federal dollars are matched with State dollars 
allocated to the university. The combination of State and 
Federal dollars further generates additional funding. This 
Federal/State/university effort would most likely not exist 
without the modest seed funding from the Water Resources 
Research Act. Indeed, approximately one-third of all water 
institutes would disappear within a year if this funding is not 
restored.
    A second component of the Act provides competitive Federal 
grants focusing on regional and interstate water resources 
problems beyond those affecting a single State and must be 
matched on a dollar-for-dollar basis.
    We believe the activities authorized under provision of the 
Water Resources Research Act are relevant to today's need, are 
of high quality, are efficiently managed and meet the needs of 
the Nation.
    In 2007, the Institutes supported more than 1,000 student 
researchers at an average cost of less than $10,000 each. By 
comparison, student stipends funded by the National Science 
Foundation average more than $20,000 per student.
    The President's budget recommends the water institution 
program for elimination in fiscal year 2009 as has typically 
been the case in the past. This would seem to contradict the 
objectives of the water initiatives set forth in the 
President's budget request and the objectives outlined in the 
OSTP publication, ``A Strategy for Federal Science and 
Technology to Support Water Availability and Quality in the 
United States.''
    Mr. Dicks. Well, you know, they take this out every year 
and we put it back in.
    Mr. Hoagland. One final thing. The investments the 
subcommittee makes in the USGS and its programs underpin 
responsible natural resource stewardship and contribute to the 
long-term health, security and prosperity of the Nation. 
Together, the Survey and the water resources institutes meet 
important public needs and are a reasonable priority within a 
reasonable appropriations bill.
    [Statement of Kyle Hoagland follows:]

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. We appreciate you coming in, we agree with you, 
and we will do the best we can with the budgetary 
circumstances.
    Mr. Tiahrt. Mr. Chairman.
    Mr. Dicks. Yes, Mr. Tiahrt.
    Mr. Tiahrt. With the research that similar funding has 
provided, we were able to move forward with new ideas in 
recharging Equus Beds in Kansas, and one of the problems we are 
having is that there is saltwater down there in the aquifer, 
and by knowing where the saltwater is, we can force water down, 
hold it back and keep freshwater available for our cities and 
municipalities, so I think your research has been very helpful, 
at least in Kansas.
    Mr. Dicks. Thank you very much.
    Mr. Olver.
    Mr. Olver. A quick comment. If you look at this budget 
closely, there are hundreds of places where the public/private 
partnerships would bring in a substantial amount of money in 
match for what is relatively small Federal involvement. The 
Administration has proposed to cut those down or eliminate 
them. That happens time and time and time again. That is one of 
the features in this year's budget.
    Mr. Dicks. Thank you very much.
    Mr. Hoagland. Thank you.
    Mr. Dicks. This part of the hearing will be adjourned.

 <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>





                                 INDEX

                              ----------                              
                                                                   Page

                        American Indian Programs

1854 Treaty Authority............................................   213
Aleutian/Pribilof Islands Association Inc........................   199
American Indian Higher Education Consortium......................   219
Bristol Bay Area Health Corporation..............................   202
California Rural Indian Health Board, Inc........................   143
Cheyenne River Sioux Tribe.......................................   250
Choctaw Nation of Oklahoma.......................................    70
Chugach Regional Resources Commission............................   181
Columbia River Inter-Tribal Fish Commission......................   173
Confederated Tribes of the Colville Reservation..................    52
Confederated Tribes of the Umatilla Indian Reservation...........   165
Confederated Tribes of the Warm Springs Reservation of Oregon....   169
Council of Energy Resource Tribes................................   227
Dzilth-Na-O-Dith-Hle Community Grant School......................    76
Enewetak/Ujelang Local Government................................   596
Fond du Lac Band of Lake Superior Chippewa.......................   185
Friends of Indian Health.........................................   206
Great Lakes Indian Fish and Wildlife Commission..................    38
Independent Review Team on Tribal Courts.........................   260
Intertribal Bison Cooperative....................................    63
InterTribal Timber Council.......................................   243
Jamestown S'Klallam Tribe........................................    57
Jicarilla Apache Nation..........................................   195
Lac du Flambeau Band of Lake Superior Chippewa Indians...........    31
Lower Elwha Klallam Tribe........................................     2
Lummi Nation.....................................................   189
Makah Tribal Council (Neah Bay, Washington)......................   120
Menominee Tribe of Wisconsin.....................................     7
Muckleshoot Tribal Council.......................................   193
National American Indian Court Judges Association, Inc...........   177
National Council of Urban Indian Health..........................   230
National Indian Health Board.....................................   153
National Johnson-O'Malley Association............................   235
Navajo-Hopi Land Commission Office...............................   272
Navajo Nation....................................................   196
Northwest Indian Fisheries Commission............................    19
Northwest Portland Area Indian Health Board......................   127
Oglala Sioux Tribe--Department of Public Safety..................   114
Pueblo of Acoma..................................................   109
Puyallup Tribe of Washington.....................................    14
Quinault Indian Nation...........................................    95
Ramah Navajo School Board, Inc...................................   102
Red Lake Band of Chippewa Indians................................   215
Rock Point Community School......................................   223
Seattle Indian Health Board......................................   136
Skokomish Tribe of Washington....................................    25
Southern Ute Indian Tribe........................................   197
Southwest Oklahoma Intertribal Health Board......................   234
Squaxin Island Tribe.............................................    89
Standing Rock Sioux Tribe........................................    45
United Sioux Tribes Development Corporation......................   266
United Tribes Technical College..................................    83
Ute Mountain Ute Tribe...........................................   198
Yellowhawk Tribal Health Center..................................   210

              Arts, Humanities, and Other Related Agencies

American Arts Alliance...........................................   495
Association of Research Libraries................................   511
Close Up Foundation..............................................   630
Council on Library and Information Resources.....................   511
Dance/USA........................................................   499
Federation of State Humanities Council...........................   424
League of American Orchestras....................................   503
National Humanities Alliance.....................................   437
OPERA America....................................................   507
Prior Service Trust Fund.........................................   807
Theatre Communications Group.....................................   491

                          Environment Programs

Alliance to Save Energy..........................................   514
American Chemical Society........................................   516
American Dental Association......................................   518
American Lung Association........................................   278
American Society for Microbiology................................   522
American Thoracic Society........................................   278
Association of Minority Health Professions Schools...............   298
Association of State Drinking Water Administrators...............   526
Clean Air Task Force.............................................   530
Emissions Control Technology Association.........................   430
Environmental Council of the States..............................   536
Evergreen Rural Water of Washington..............................   475
Hanover County, Virginia Board of Supervisors....................   534
National Association for Clean Air Agencies......................   291
National Association of State Energy Officials...................   540
National Environmental Services Center...........................   547
National Utility Contractors Association.........................   465
Polyisocyanurate Insulation Manufacturers Association............   543
United States Clean Heat & Power Association.....................  5518

                       Natural Resource Programs

Alliance for Community Trees.....................................   769
American Forest & Paper Association..............................   324
American Forest Foundation.......................................   769
American Forests...............................................331, 769
American Geological Institute....................................   677
American Hiking Society..........................................   350
American Institute of Biological Science.........................   777
American Museum of Natural History...............................   602
American Nursery & Landscape Association.........................   769
American Rivers..................................................   842
American Society of Agronomy.....................................   612
American Society of Civil Engineers..............................   304
Animal Welfare Institute.........................................   702
APA--The Engineered Wood Association.............................   766
Appalachian Mountain Club........................................   645
Appalachian Trail Conservancy....................................   799
APS Four Corners Power Plant.....................................   889
Association of National Estuary Programs.........................   311
Association to Preserve Cape Cod.................................   598
Audubon Connecticut..............................................   593
Audubon Society of New Hampshire.................................   633
Aurora Water.....................................................   883
Big Oaks Conservation Society....................................   728
Biomass Energy Research Association..............................   626
Blue Goose Alliance..............................................   793
Board of Water Works of Pueblo, Colorado.........................   891
Cascade Land Conservancy.......................................809, 811
Central Great Lakes Geologic Mapping Coalition...................   780
City of Aurora, Colorado.........................................   883
Coastal Wildlife Refuge Society..................................   865
Colorado River Basin Salinity Control Forum......................   831
Colorado River Board of California...............................   736
Colorado River Commission of Nevada..............................   732
Colorado River District..........................................   890
Colorado Water Congress..........................................   881
Conservation System Alliance.....................................   622
Cooperative Alliance for Refuge Enhancement......................   733
Corps Network....................................................   824
Council of Western State Foresters...............................   652
Crop Science Society of America..................................   612
Defenders of Wildlife............................................   377
Defense of Place.................................................   412
Delaware Highlands Conservancy...................................   774
Denver Water.....................................................   888
Ding Darling Wildlife Society....................................   828
Dolores Water Conservancy District...............................   879
Doris Day Animal League..........................................   616
Ducks Unlimited..................................................   608
Endangered Species Coalition.....................................   857
Forest Issues Group..............................................   750
Fort River Partnership...........................................   649
Friends of Alaska National Wildlife Refuges......................   553
Friends of Back Bay..............................................   557
Friends of Blackwater National Wildlife Refuge Association, Inc..   559
Friends of Congaree Swamp........................................   567
Friends of Deer Flat National Wildlife Refuge....................   571
Friends of Harpers Ferry National Historical Park................   759
Friends of Hyde Farm.............................................   600
Friends of Rachel Carson National Wildlife Refuge................   578
Friends of Shiawassee National Wildlife Refuge...................   581
Friends of Silvio O. Conte National Fish and Wildlife Refuge.....   583
Friends of the Bosque del Apache National Wildlife Refuge........   561
Friends of the Boundary Waters Wilderness........................   564
Friends of the Lower Suwannee and Cedar Keys National Wildlife 
  Refuges........................................................   573
Friends of the Potomac River Refuges.............................   575
Friends of the Tamarac National Wildlife Refuge..................   587
Friends of Virgin Islands National Park..........................   418
Friends of Wertheim National Wildlife Refuge.....................   591
Gathering Waters Conservancy.....................................   835
Georgia River Network............................................   620
Grand Rapids Area Chamber of Commerce............................   667
Green Mountain Club..............................................   753
Highlands Coalition..............................................   714
Humane Society Legislative Fund..................................   616
Humane Society of the United States..............................   616
Interstate Mining Compact Commission.............................   755
Izaak Walton League of America...................................   803
Kern County Valley Floor Habitat Conservation Plan Industry and 
  Government Coalition...........................................   641
Lamoille County Natural Resources Conservation District & Nature 
  Center.........................................................   846
Michigan United Conservation Clubs...............................   769
National Association of Abandoned Mine Land Programs.............   691
National Association of Forest Service Retirees..................   869
National Association of State Foresters........................637, 769
National Association of State Universities and Land-Grant 
  Colleges.......................................................   861
National Audubon Society.........................................   357
National Conference of State Historic Preservation Officers......   371
National Cooperators' Coalition for USGS Cooperative Fish and 
  Wildlife Research Units........................................   837
National Earthquake Hazards Reduction Program Coalition..........   659
National Federation of Federal Employees.........................   687
National Fish and Wildlife Foundation..........................459, 819
National Mining Association......................................   742
National Parks Conservation Association..........................   398
National Plant Board.............................................   769
National Recreation and Park Association.........................   849
National Stone, Sand & Gravel Association........................   746
National Wildlife Federation.....................................   670
National Wildlife Refuge Association.............................   405
Natural Resources Defense Council................................   284
Natural Science Collections Alliance.............................   784
NatureServe......................................................   604
Nebraska Water Resources Center..................................   482
New Jersey Audubon Society.......................................   706
New Jersey Conservation Foundation...............................   718
New Mexico Department of Game and Fish...........................   816
New Mexico Interstate Stream Commission..........................   839
New Mexico Wildlife Federation...................................   681
Northern Colorado Water Conservancy District.....................   882
Office of the Governor, State of Colorado........................   875
Office of the Governor, State of New Mexico......................   877
Office of the Governor, State of Wyoming.........................   873
Outdoor Alliance.................................................   338
Outdoor Industry Association.....................................   853
 Partnership for the National Trails System......................   663
Pelican Island Preservation Society..............................   814
PNM/San Juan Generating Station..................................   892
Public Lands Foundation..........................................   344
Purdue University, Department of Entomology......................   769
Red River Refuge Alliance, Inc...................................   710
San Francisco Bay Wildlife Society...............................   740
San Juan Water Commission........................................   893
Sierra Club, Mother Lode Chapter.................................   772
Society of American Foresters..................................683, 769
Soil Science Society of America..................................   612
Southern Appalachian Highlands Conservancy.......................   787
Southwestern Water Conservation District.........................   880
Swan Ecosystem Center............................................   797
Tamarac Interpretive Association.................................   587
Teaming with Wildlife............................................   674
The Hardwood Federation..........................................   769
The Nature Conservancy.........................................364, 769
The Ohio State University, Department of Entomology..............   769
The Wilderness Society...........................................   383
The Wildlife Society.............................................   391
Town of Millinocket, Maine.......................................   790
Town of Ophir, Colorado..........................................   730
Tri-County Water Conservancy District............................   884
Trust for Public Land............................................   452
Trust for the National Mall......................................   444
U.S. Soccer Foundation...........................................   762
Union of Concerned Scientists....................................   769
University of Georgia, Center for Invasive Species & Ecosystem 
  Health.........................................................   769
USGS Coalition...................................................   698
Utah Water Users Association.....................................   885
Washington Watershed Restoration Initiative......................   318
World Wildlife Fund..............................................   724
Wyoming State Engineer's Office..................................   695
Wyoming Water Association........................................   886
Yavapai County, Arizona..........................................   822

                                  <all>
</pre></body></html>
